No. 20-659
IN THE

Supreme Court of the United States
_______________________

LARRY THOMPSON,
Petitioner,
v.
POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.
_______________________

On Writ of Certiorari to the United States Court of
Appeals for the Second Circuit
_______________________

JOINT APPENDIX
_______________________

JAMES E. JOHNSON
Corporation Counsel
of the City of New York
RICHARD DEARING*
100 Church Street
New York, NY 10007
(212) 356-2500
rdearing@law.nyc.gov
* Counsel of Record for
Respondents

AMIR H. ALI
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
501 H Street NE, Suite 275
Washington, DC 20002
(202) 869-3434
amir.ali@macarthurjustice.org
Counsel of Record for
Petitioner

Petition for Writ of Certiorari Filed: November 6, 2020
Certiorari Granted: March 8, 2021

TABLE OF CONTENTS
Relevant Docket Entries

Page

U.S. Court of Appeals for the Second
Circuit, Case No. 19-580 ..................................... 1
U.S. District Court for the Eastern District
of New York, Case No. 1:14-cv-7349 ................... 4
U.S. Court of Appeals for the Second
Circuit (Case No. 19-580)
Summary Order, Feb. 24, 2020 ........................... 18
Order Denying Rehearing, June 9, 2020 ............ 23
U.S. District Court for the Eastern District
of New York (Case No. 1:14-cv-7349)
Third Amended Complaint, June 28, 2016
(Document 34) ................................................... 25
Defendants’ Proposed Jury Charges
(Excerpts), Nov. 26, 2018 (Document 98) ......... 42
Plaintiff’s Requested Jury Instructions
(Excerpts), Nov. 27, 2018 (Document 101) ....... 64
Draft Jury Charge and Verdict Sheet
(Excerpts), Dec. 27, 2018 (Document 112-1) .... 78
Transcript (Excerpts) of Jan. 24, 2019
(Document 146-1) .............................................. 95
Transcript (Excerpts) of Jan. 28, 2019
(Document 147) ............................................... 120
Transcript (Excerpts) of Jan. 29, 2019
(Document 148) ............................................... 129
Verdict Form, Jan. 30, 3019
(Document 137) ............................................... 142
Memorandum and Order, Mar. 12, 2019
(Document 144) ............................................... 147

1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
______________________________

Docket No. 19-580
______________________________

LARRY THOMPSON,
Plaintiff-Appellant,
v.
POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
POLICE OFFICER PAUL MONTEFUSCO, SHIELD #10580,
POLICE OFFICER PHILLIP ROMANO, SHIELD # 6295
POLICE OFFICER GERARD BOUWMANS, SHIELD # 2102,
Defendants-Appellees.
CITY OF NEW YORK, POLICE OFFICERS JOHN AND JANE
DOES 1-10, POLICE OFFICER WARREN RODNEY, SHIELD
# 13744, SERGEANT ANTHONY BERTRAM, SHIELD #277,
Defendants.
______________________________

DOCKET ENTRIES
DATE

NO. PROCEEDINGS

03/08/2019 1

07/22/2019 34

NOTICE OF CIVIL APPEAL,
with district court docket, on behalf of Appellant Larry Thompson, FILED. [2513792] [19-580]
[Entered: 03/08/2019 01:39 PM]
*
*
*
*
*
JOINT APPENDIX, volume 1 of
1, (pp. 1-289), on behalf of Appellant Larry Thompson, FILED.
Service date 07/22/2019 by
CM/ECF. [2614411] [19-580]
[Entered: 07/22/2019 06:52 PM]
*
*
*
*
*

2
07/23/2019 36

10/21/2019 46

11/15/2019 65

02/06/2020 78

02/24/2020 80

05/01/2020 92

BRIEF, on behalf of Appellant
Larry Thompson, FILED. Service
date
07/23/2019
by
CM/ECF. [2614538] [19-580]
[Entered: 07/23/2019 09:31 AM]
*
*
*
*
*
BRIEF, on behalf of Appellee
Gerard
Bouwmans,
Pagiel
Clark, Paul Montefusco and
Phillip Romano, FILED. Service
date 10/21/2019 by CM/ECF.
[2685040] [19-580] [Entered:
10/21/2019 07:20 PM]
*
*
*
*
*
REPLY BRIEF, on behalf of Appellant
Larry
Thompson,
FILED. Service date 11/15/2019
by CM/ECF. [2707956] [19-580]
[Entered: 11/15/2019 06:12 PM]
*
*
*
*
*
CASE, before RSP, GEL, MHP,
HEARD. [2771716] [19-580] [Entered: 02/06/2020 11:55 AM]
*
*
*
*
*
SUMMARY
ORDER
AND
JUDGMENT, the judgment of
the district court hereby is affirmed, by RSP, GEL, MHP,
FILED. [2784647] [19-580] [Entered: 02/24/2020 09:35 AM]
*
*
*
*
*
PETITION FOR REHEARING/
REHEARING EN BANC, on behalf of Appellant Larry Thompson, FILED. Service date
05/01/2020
by
CM/ECF.

3

06/09/2020 96

06/16/2020 97

[2830291] [19-580] [Entered:
05/01/2020 11:57 AM]
*
*
*
*
*
ORDER, petition for rehearing/rehearing en banc denied,
FILED. [2857490] [19-580] [Entered: 06/09/2020 11:33 AM]
JUDGMENT MANDATE, ISSUED. [2863346] [19-580] [Entered: 06/16/2020 01:42 PM]
***

4
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NEW YORK
______________________________

Docket No. 1:14-cv-07349
______________________________

LARRY THOMPSON,
Plaintiff,
– against –
THE CITY OF NEW YORK, POLICE OFFICER PAGIEL CLARK,
SHIELD #28742, POLICE OFFICER PAUL MONTEFUSCO,
SHIELD #10580, POLICE OFFICER GERARD BOUWMANS,
SHIELD #2102, POLICE OFFICER PHILLIP ROMANO, SHIELD
#6295, POLICE OFFICE WARREN RODNEY, SHIELD #13744,
SERGEANT ANTHONY BERTRAM, SHIELD #277, POLICE
OFFICERS JOHN/JANE DOE(S) #S 1-10,
Defendants.
______________________________

DOCKET ENTRIES
DATE

NO.

12/17/2014 1

06/28/2016 34

PROCEEDINGS
COMPLAINT against Pagiel
Clark, John/Jane Doe(s) #s 1-10,
The City of New York filing fee
$ 400, receipt number 02077405572 Was the Disclosure
Statement on Civil Cover Sheet
completed -YES,, filed by Larry
Thompson. (Attachments: #1
Summons, #2 Civil Cover Sheet
Civil Cover Sheet) (Zelman, David) (Entered: 12/17/2014)
*
*
*
*
*
AMENDED
COMPLAINT
against All Defendants, filed by
Larry Thompson.(Attachments:

5

09/06/2016 42

01/20/2017 45

04/07/2017 52

#1 Proposed Summons) (Zelman,
David)
(Entered:
06/28/2016)
*
*
*
*
*
ANSWER to 34 Amended Complaint by Anthony Bertram,
Gerard
Bouwmans,
Pagiel
Clark, Paul Montefusco, Warren
Rodney, Phillip Romano, The
City of New York. (Thadani, Kavin) (Entered: 09/06/2016)
*
*
*
*
*
Letter MOTION for pre motion
conference in anticipation of defendants' contemplated motion
for summary judgment by Anthony
Bertram,
Gerard
Bouwmans, Pagiel Clark, Paul
Montefusco, Warren Rodney,
Phillip Romano, The City of
New York. (Attachments:#1
Rule 56.1 Statement, #2 Declaration, #3 Exhibit A, #4 Exhibit
B, #5 Exhibit C, #6 Exhibit D, #7
Exhibit E, #8 Exhibit F, #9 Exhibit G, #10 Exhibit H, #11 Exhibit I, #12 Exhibit J, #13 Exhibit K, #14 Exhibit L, #15 Exhibit M, #16 Exhibit N, #17 Exhibit O,#18 Exhibit P) (Thadani,
Kavin) Modified on 1/23/2017
(Barrett,
C).
(Entered:01/20/2017)
*
*
*
*
*
MEMORANDUM in Opposition
to defendants motion for partial

6

04/07/2017 53

04/07/2017 56

04/07/2017 58

04/07/2017 59

04/07/2017 60

summary judgment filed by
Larry Thompson. (Zelman, David) (Entered: 04/07/2017)
MEMORANDUM in Support of
plaintiff’s motion for summary
judgment filed by Larry Thompson. (Zelman, David) (Entered:
04/07/2017)
*
*
*
*
*
MOTION for Summary Judgment by Larry Thompson. (Zelman,
David)
(Entered:04/07/2017)
*
*
*
*
*
Notice of MOTION for Summary Judgment by Anthony
Bertram, Gerard Bouwmans,
Pagiel Clark, Paul Montefusco,
Warren Rodney, Phillip Romano, The City of New York.
(Thadani, Kavin) (Entered:
04/07/2017)
MEMORANDUM in Support re
58 Notice of MOTION for Summary Judgment filed by Anthony
Bertram,
Gerard
Bouwmans, Pagiel Clark, Paul
Montefusco, Warren Rodney,
Phillip Romano, The City of
New York. (Thadani, Kavin)
(Entered: 04/07/2017)
MEMORANDUM in Opposition
re 56 MOTION for Summary
Judgment filed by Anthony Bertram, Gerard Bouwmans, Pagiel
Clark, Paul Montefusco, Warren

7

02/21/2018

06/26/2018 77

Rodney, Phillip Romano, The
City of New York. (Attachments:
# 1 Rule 56.1 Statement)
(Thadani, Kavin) (Entered:
04/07/2017)
*
*
*
*
*
Case Reassigned to Judge Jack
B. Weinstein. Judge Sandra L.
Townes no longer assigned to
the case. Please download and
review the Individual Practices
of the assigned Judges, located
on our website. Attorneys are
responsible for providing courtesy copies to judges where their
Individual Practices require
such. (Mahoney, Brenna) (Entered: 02/21/2018)
*
*
*
*
*
AMENDED MEMORANDUM
& ORDER denying 56 Motion
for Summary Judgment; granting in part and denying in part
58 Motion for Summary Judgment. Trial shall be held on
12/10/2018, in courtroom 10B
South at 2:00 p.m. A jury will be
selected that morning by a magistrate judge. An in limine hearing will be held on 12/3/2018, at
10:30a.m. Pre-Trial Submissions are due by 11/26/2018. Ordered by Judge Jack B. Weinstein on 6/26/2018. (Barrett, C)
(Entered: 06/26/2018)
*
*
*
*
*

8
11/12/2018 83

11/26/2018 93

11/26/2018 98

11/27/2018 101

12/12/2018 107

12/12/2018 109

First MOTION in Limine by
Larry Thompson. (Zelman, David) (Entered: 11/12/2018)
*
*
*
*
*
RESPONSE in Opposition re 83
First MOTION in Limine filed
by Gerard Bouwmans, Pagiel
Clark, Paul Montefusco, Phillip
Romano. (Thadani, Kavin) (Entered: 11/26/2018)
*
*
*
*
*
Proposed Jury Instructions/Verdict
Form
by
Gerard
Bouwmans, Pagiel Clark, Paul
Montefusco, Phillip Romano
(Attachments: # 1 Proposed Verdict Sheet) (Thadani, Kavin)
(Entered: 11/26/2018)
*
*
*
*
*
Proposed Jury Instructions/Verdict Form by Larry Thompson
(Attachments: # 1 Proposed
Findings of Fact and Conclusions of Law Verdict Sheet) (Zelman,
David)
(Entered:11/27/2018)
*
*
*
*
*
Letter re depositions of witnesses Renate Lunn, Esq. and
Dr. Schuster by Larry Thompson (Zelman, David) (Entered:
12/12/2018)
*
*
*
*
*
Letter in Response to Plaintiff’s
December 12, 2018 Letter re: the
Depositions of Renate Lunn and

9

12/14/2018 110

12/19/2018 111

12/27/2018 112

Dr. Elliot Schuster by Gerard
Bouwmans, Pagiel Clark, Paul
Montefusco, Phillip Romano
(Thadani, Kavin) (Entered:
12/12/2018)
ORDER re plaintiff’s 107 letter
and defendants’ 109 letter.
Plaintiff’s motions are denied.
The issue of whether plaintiff’s
underlying criminal case was
dismissed on the merits will be
heard at the in limine hearing
on 1/2/2019. Ordered by Judge
Jack
B.
Weinstein
on12/13/2018. (Barrett, C) (Entered: 12/14/2018)
ORDER. Plaintiff shall produce
Renate Lunn, in person or by
deposition, at the in limine
hearing scheduled for 1/2/2019
to present evidence, if any, on
the issue of the termination of
plaintiff’s underlying criminal
proceeding. Ordered by Judge
Jack
B.
Weinstein
on12/18/2018. (Barrett, C) (Entered: 12/19/2018)
ORDER: For the in limine hearing on January 2, 2019, the
court is sending counsel a draft
of the attached jury charge and
verdict sheet it is considering
using. Utilize it as the basis for
any objection. Indicate what you
want omitted, added, or modified in exact language. The court

10

01/21/2019 122
01/22/2019 130

01/23/2019 123

01/23/2019 124

will go over each page asking:
“Do you want a change to this
page? If so, what is the change?”
If you have a case on point to
support your view, it would be
helpful to have a copy for the
court to refresh its recollection.
So Ordered by Judge Jack B.
Weinstein on 12/27/2018. (Attachments: # 1 DRAFT Jury
Charge
and
Verdict
Sheet)(Brown, Marc) (Entered:
12/27/2018)
*
*
*
*
*
TRIAL BRIEF by Larry Thompson (Zelman, David) (Entered:
01/21/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/22/2019. All parties present.
Trial ordered and begun. Plff.
opens. Deft. opens. Trial continued to 1/23/2019 at 8:30 am.
(Court Reporter A. Frisolone.)
(Barrett,
C)
(Entered:02/04/2019)
*
*
*
*
*
Letter re: Plaintiff’s Malicious
Prosecution Claim by Gerard
Bouwmans, Pagiel Clark, Paul
Montefusco, Phillip Romano
(Thadani, Kavin) (Entered:
01/23/2019)
TRIAL BRIEF re favorable termination by Larry Thompson

11

01/23/2019 131

01/24/2019 125

01/24/2019 126

01/24/2019 132

01/25/2019 128

(Zelman,
David)
(Entered:01/23/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/23/2019. All parties present.
Trial resumed. Trial continued
to 1/24/2019 at 8:30 am.(Court
Reporter A. Frisolone.) (Barrett,
C) (Entered: 02/04/2019)
TRIAL BRIEF re: Plaintiff’s Malicious Prosecution Claim by
Gerard
Bouwmans,
Pagiel
Clark, Paul Montefusco, Phillip
Romano (Thadani, Kavin) (Entered: 01/24/2019)
TRIAL BRIEF regarding favorable termination by Larry
Thompson (Zelman, David)(Entered: 01/24/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/24/2019. All parties present.
Trial resumed. Trial continued
to 1/25/2019 at 8:30. (Court Reporter A. Frisolone.) (Barrett, C)
(Entered: 02/04/2019)
*
*
*
*
*
ORDER providing results of the
in limine hearing on 83 , 91 Motions in Limine and granting
120 Motion to Amend/Correct/Supplement. Ordered by
Judge Jack B. Weinstein on

12

01/25/2019 133

01/28/2019 134

01/29/2019 135

01/30/2019 136

1/24/2019. (Barrett, C) (Entered:
01/25/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/25/2019. All parties present.
Trial resumed. Trial continued
to 1/28/2019 at 8:30 am.(Court
Reporter A. Frisolone.) (Barrett,
C) (Entered: 02/04/2019)
*
*
*
*
*
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/28/2019. All parties present.
Trial resumed. Trial continued
to 1/29/2019 at 8:30 am.(Court
Reporter L. Schmid.) (Barrett,
C) (Entered: 02/04/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein:
Jury
Trial
held
on1/29/2019. All parties present.
Trial resumed. Trial continued
to 1/30/2019 at 8:30 am. Jury deliberations begin. (Court Reporter L. Schmid.) (Barrett, C)
(Entered: 02/04/2019)
Minute Entry for proceedings
held before Judge Jack B. Weinstein: Jury Trial completed on
1/30/2019. All parties present.
Trial resumed. Trial ends. Jury
finds in favor of the defendants.
(Court Reporter L. Schmid.)

13

01/30/2019 137
02/08/2019 138

03/07/2019 142

03/12/2019 144

(Barrett,
C)
(Entered:
02/04/2019)
JURY VERDICT. (Barrett, C)
(Entered: 02/08/2019)
CLERK’S JUDGMENT in favor
of Gerard Bouwmans, Pagiel
Clark, Paul Montefusco, Phillip
Romano against Larry Thompson. Ordered by Judge Jack B.
Weinstein on2/5/2019. (Barrett,
C) (Entered: 02/08/2019)
*
*
*
*
*
NOTICE OF APPEAL by Attorney for Larry Thompson from
138 Judgment entered2/8/19.
No fee paid. Service done electronically. (Zelman, David)
Modified on 3/8/2019to reflect
Judgment, fee status and service. (McGee, Mary Ann). (Entered: 03/07/2019)
*
*
*
*
*
MEMORANDUM AND ORDER. A. Exigent Circumstances
Burden: The general rule in civil
cases--predicated on sound constitutional policy--should place
the burden on police officers to
prove, by a preponderance of the
evidence, exigent circumstances
justifying a warrantless entry.
Placing the burden of persuasion on the civilian plaintiff is a
repeated injustice that should
stop now. B. Malicious Prosecu-

14

03/22/2019 146

tion: Plaintiff’s malicious prosecution claim should be treated
as if it was on the merits- i.e.,
the defendant was not guilty. An
ambiguous
state
dismissal
should be accepted as being
based on non-guilt, in part because of the assumption of innocence before conviction. Ordered
by Judge Jack B. Weinstein on
3/12/2019. (Barrett, C) (Entered:
03/12/2019)
*
*
*
*
*
NOTICE OF FILING OF OFFICIAL TRANSCRIPT of Proceedings
held
on
1/23,
1/24,1/25/2019, before Judge
Weinstein.
Court
Reporter/Transcriber Anthony D.
Frisolone, Telephone number
7186134287. Email address: anthony_frisolone@nyed.uscourts.gov. Transcript may be viewed at the
court public terminal or purchased through the Court Reporter/Transcriber before the
deadline for Release of Transcript Restriction. After that
date it may be obtained through
PACER.File redaction request
using event “Redaction Request
- Transcript” located under
“Other Filings - Other Documents”. Redaction Request due
4/12/2019. Redacted Transcript

15

04/17/2019 147

Deadline set for 4/22/2019. Release of Transcript Restriction
set for 6/20/2019. (Attachments:
# 1 Transcript, # 2 Transcript)(Frisolone, Anthony) (Entered: 03/22/2019)
NOTICE OF FILING OF OFFICIAL TRANSCRIPT of Proceedings held on 01/28/2019, before
Judge Jack Weinstein. Court
Reporter/Transcriber
Lisa
Schmid, Telephone number718613-2644.
Email
address:
LisaSchmidCCR.RMR@gmail.c
om. Transcript may be viewed at
the court public terminal or purchased through the Court Reporter/Transcriber before the
deadline for Release of Transcript Restriction. After that
date it may be obtained through
PACER. File redaction request
using event “Redaction Request
-Transcript”
located
under
“Other Filings - Other Documents”. Redaction Request
due5/8/2019. Redacted Transcript
Deadline
set
for
5/20/2019. Release of Transcript
Restriction set for 7/16/2019.
(Schmid,
Lisa)
(Entered:
04/17/2019)

16
04/17/2019 148

04/18/2019 149

NOTICE OF FILING OF OFFICIAL TRANSCRIPT of Proceedings held on 01/29/2019,before
Judge Jack Weinstein. Court
Reporter/Transcriber
Lisa
Schmid, Telephone number718613-2644.
Email
address:
LisaSchmidCCR.RMR@gmail.c
om. Transcript may be viewed at
the court public terminal or purchased through the Court Reporter/Transcriber before the
deadline for Release of Transcript Restriction. After that
date it may be obtained through
PACER. File redaction request
using event “Redaction Request
-Transcript”
located
under
“Other Filings - Other Documents”. Redaction Request
due5/8/2019. Redacted Transcript
Deadline
set
for
5/20/2019. Release of Transcript
Restriction set for 7/16/2019.
(Schmid,
Lisa)
(Entered:
04/17/2019)
NOTICE OF FILING OF OFFICIAL TRANSCRIPT of Proceedings held on 01/30/2019,before
Judge Jack Weinstein. Court
Reporter/Transcriber
Lisa
Schmid, Telephone number718613-2644.
Email
address:
LisaSchmidCCR.RMR@gmail.c
om. Transcript may be viewed at

17
the court public terminal or purchased through the Court Reporter/Transcriber before the
deadline for Release of Transcript Restriction. After that
date it may be obtained through
PACER. File redaction request
using event “Redaction Request
-Transcript”
located
under
“Other Filings - Other Documents”. Redaction Request
due5/9/2019. Redacted Transcript
Deadline
set
for
5/20/2019. Release of Transcript
Restriction set for 7/17/2019.
(Barrett,
C)
(Entered:
04/18/2019)
***

18
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[filed Feb. 24, 2020]
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York on the 24th day of
February, two thousand twenty.
Present:

ROSEMARY S. POOLER,
GERARD E. LYNCH,
MICHAEL H. PARK,
Circuit Judges.

19
______________________________
LARRY THOMPSON,
Plaintiff-Appellant,
v.

19-580-cv

POLICE OFFICER PAGIEL CLARK,
SHIELD #28472, POLICE OFFICER
PAUL MONTEFUSCO, SHIELD#
10580 POLICE OFFICER PHILLIP
ROMANO, SHIELD # 6295 POLICE
OFFICER GERARD BOUWMANS,
SHIELD # 2102,
Defendants-Appellees.
CITY OF NEW YORK, POLICE
OFFICERS JOHN AND JANE DOES
1-10, POLICE OFFICER WARREN
RODNEY, SHIELD # 13744, SERGEANT
ANTHONY BERTRAM, SHIELD #277,
Defendants.
______________________________

Appearing for Plaintiff-Appellant:
Amir H. Ali, Roderick & Solange MacArthur
Justice Center, Washington, D.C.
Appearing for Defendants-Appellee:
Kevin Osowski, Assistant Corporation Counsel
(Devin Slack, Richard Dearing, on the brief),
for Georgia M. Pestana, Acting Corporation
Counsel of the City of New York, New York
City Law Department, New York, N.Y.
Appeal from the United States District Court for the
Eastern District of New York (Weinstein, J.).

20
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the order of said District Court be and
it hereby is AFFIRMED.
Plaintiff-Appellant Larry Thompson appeals from
the February 8, 2019 final judgment entered in the
United States District for the Eastern District of New
York (Weinstein J.) granting judgment as a matter
of law in favor of the defendants pursuant to Rule 50
on Thompson’s 42 U.S.C. § 1983 claim for malicious
prosecution due to his failure to establish favorable
termination of his criminal case, and entering judgment pursuant to a jury verdict in favor of defendants on Thompson’s other section 1983 claims. We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues on appeal.
We review de novo a district court’s decision
granting judgment as a matter of law pursuant to
Rule 50. See Jocks v. Tavernier, 316 F.3d 128, 134 (2d
Cir. 2003). We review challenges to jury instructions
de novo. United States v. Quattrone, 441 F.3d 153,
177 (2d Cir. 2006).
With respect to the malicious prosecution claim,
Thompson argues that he should not be required to
prove favorable termination because it is not a substantive element of the claim. In Lanning v. City of
Glens Falls, 908 F.3d 19 (2d Cir. 2018), we acted to
“dispel any confusion among district courts” and held
that section 1983 malicious prosecution claims require “affirmative indications of innocence to establish favorable termination.” Id. at 25 (internal quotation marks omitted). We rejected the more permis-

21
sive standard of proof for malicious prosecution
claims asserted under New York state law.
We also affirmed in Lanning, the rule first announced in Hygh v. Jacobs, 961 F.2d 359, 368 (2d
Cir. 1992), that dismissal under section 170.40 of the
New York Criminal Procedure Law is by itself insufficient to satisfy the favorable termination requirement as a matter of law. In Lanning, the complaint
did not specify a basis for the dismissal. Both the
plaintiff and the defendants asserted that the complaint had been dismissed at least in part due to jurisdictional reasons. Here, too, neither the prosecution nor the court provided any specific reasons about
the dismissal on the record. Also, in an evidentiary
hearing before the district court, Thompson’s statecourt defense counsel testified that she was unable to
point to any affirmative indication of innocence.
“When a person has been arrested and indicted, absent an affirmative indication that the person is innocent of the offense charged, the government’s failure to proceed does not necessarily ‘impl[y] a lack of
reasonable grounds for the prosecution.’” Lanning,
908 F.3d at 28 (quoting Conway v. Village of Mount
Kisco, 750 F.2d 205, 215 (2d Cir. 1984). In fact, the
district court here held an evidentiary hearing and
found that the evidence of Thompson’s guilt of the
crime of obstruction of governmental administration
and resisting arrest was substantial, and that dismissal was likely based on factors other than the
merits. We are “bound by the decisions of prior panels until such time as they are overruled either by an
en banc panel of our Court or by the Supreme
Court.” United States v. Wilkerson, 361 F.3d 717, 732
(2d Cir. 2004). Accordingly, we agree with the district court that it was bound by Lanning to enter

22
judgment in favor of the defendants on Thompson’s
malicious prosecution claim.
With respect to Thompson’s challenge to the jury
instruction assigning him the burden of proof with
respect to whether exigent circumstances authorized
the police officers’ warrantless search of his apartment, we find no error. In Ruggiero v. Krezeminski,
928 F.2d 558 (2d Cir. 1991), we held that a warrantless search, though presumptively unreasonable,
“cannot serve to place on the defendant the burden
of proving that the official action was reasonable.” Id.
at 563; see also Harris v. O’Hare, 770 F.3d 224, 234
n.3 (2d Cir. 2014) (“Of course, as in all civil cases,
‘the ultimate risk of non-persuasion must remain
squarely on the plaintiff in accordance with established principles governing civil trials.’” (quoting
Ruggiero, 928 F.2d at 563)).
We have considered the remainder of Thompson’s
arguments and find them to be without merit. Accordingly, the judgment of the district court hereby is
AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[seal]

23
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[filed June 9, 2020]
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 9th day of June, two thousand twenty.
_______________________________
Larry Thompson,
Plaintiff-Appellant,
v.
Police Officer Pagiel Clark,
Shield #28472, Police Officer
Paul Montefusco, Shield#
10580, Police Officer Phillip
Romano, Shield # 6295, Police
Officer Gerard Bouwmans,
Shield # 2102,

ORDER
Docket No: 19-580

Defendants-Appellees,
City of New York, Police Officers
John and Jane Does 1- 10,
Police Officer Warren Rodney,
Shield # 13744, Sergeant Anthony
Bertram, Shield #277,
Defendants.
_______________________________

Appellant, Larry Thompson, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the

24
active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe, Clerk
[seal]

25
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed June 28, 2016]
LARRY THOMPSON,
Plaintiff,
– against –
THE CITY OF NEW YORK,
POLICE OFFICER PAGIEL
CLARK, Shield #28472,
POLICE OFFICER PAUL
MONTEFUSCO, Shield
#10580, POLICE OFFICER
GERARD BOUWMANS,
Shield #2102, POLICE
OFFICER PHILLIP
ROMANO, Shield #6295,
POLICE OFFICER WARREN
RODNEY, Shield # 13744,
SERGEANT ANTHONY
BERTRAM, Shield #277,
POLICE OFFICERS
JOHN/JANE DOE(S) #S 1-10,
Defendants.

THIRD AMENDED
COMPLAINT
PLAINTIFF
DEMANDS TRIAL
BY JURY
Case No.:14-CV-7349

Plaintiff LARRY THOMPSON, for his Second
Amended Complaint, by his attorney DAVID A.
ZELMAN, ESQ., upon information and belief, respectfully alleges as follows:
I.
1.

PRELIMINARY STATEMENT

This is a civil rights action in which Plaintiff
LARRY
THOMPSON
(hereinafter
“THOMPSON” or “Plaintiff”) seeks damages to
redress the deprivation, under color of state law,
of rights secured to him under the Fourth, Fifth,

26
and Fourteenth Amendments of the United
States Constitution. On or about January 15,
2014, THOMPSON was falsely arrested with excessive force by employees of the City of New
York, including but not limited to defendants.
As a result of the violation of his constitutional
rights, THOMPSON suffered physical and mental injuries.
II.
2.

JURISDICTION

Jurisdiction is conferred upon this Court by 28
U.S.C. §1343 (3) and (4), which provides for original jurisdiction in this court of all suits brought
pursuant to 42 U.S.C. §1983, and by 28 U.S.C.
§1331, which provides jurisdiction over all cases
brought pursuant to the Constitution and laws
of the United States. This Court has pendant jurisdiction over Plaintiff’s state law claims.
III.

PARTIES

3.

THOMPSON at all times relevant hereto resided
in Brooklyn, NY.

4.

Defendant CITY OF NEW YORK (hereinafter
“CITY”) is a municipal corporation, incorporated
pursuant to the laws of the State of New York,
which operates the New York City Police Department (hereinafter “NYPD”), and as such is
the public employer of the Defendant officers
herein.

5.

Defendant Police Officer PAGIEL CLARK, Shield
#28472, (hereinafter “CLARK”) was a NYPD police officer, and at all times relevant hereto, acted
in that capacity as agent, servant, and/or employee of Defendant CITY and within the scope of

27
their employment. CLARK is sued in their official and individual capacity.
6.

Defendant Police Officer PAUL MONTEFUSCO,
Shield #10580, (hereinafter “MONTEFUSCO”)
was a NYPD police officer, and at all times relevant hereto, acted in that capacity as agent,
servant, and/or employee of Defendant CITY and
within the scope
of their employment.
MONTEFUSCO is sued in their official and individual capacity.

7.

Defendant Police Officer GERARD BOUWMANS,
Shield #2102, (hereinafter “BOUWMANS”) was a
NYPD police officer, and at all times relevant
hereto, acted in that capacity as agent, servant,
and/or employee of Defendant CITY and within
the scope of their employment. BOUWMANS is
sued in their official and individual capacity.

8.

Defendant Police Officer PHILLIP ROMANO,
Shield # 6295, (hereinafter “ROMANO”) was a
NYPD police officer, and at all times relevant
hereto, acted in that capacity as agent, servant,
and/or employee of Defendant CITY and within
the scope of their employment. ROMANO is
sued in their official and individual capacity.

9.

Defendant Police Officer WARREN RODNEY,
Shield # 13744, (hereinafter “RODNEY”) was a
NYPD police officer, and at all times relevant
hereto, acted in that capacity as agent, servant,
and/or employee of Defendant CITY and within
the scope of their employment. RODNEY is
sued in his official and individual capacity.

10. Defendant SERGEANT ANTHONY BERTRAM,
Shield # 277 (hereinafter “BERTRAM”) was a

28
NYPD police sergeant, and at all times relevant
hereto, acted in that capacity as agent, servant,
and/or employee of Defendant CITY and within
the scope of their employment. BERTRAM is
sued in their official and individual capacity.
11. Defendants POLICE OFFICERS JOHN/JANE
DOE(S) (hereinafter “DOE(S)”) were NYPD police officers, and at all relevant times hereto, acted in that capacity as agents, servants, and/or
employees of Defendant CITY and within the
scope of their employment. DOE(S) are sued in
their official and individual capacity.
12. At all relevant times hereto, Defendants were
acting under the color of state and local law. Defendants are sued in their individual and official
capacities. At all relevant times hereto, Defendant CITY was responsible for making and enforcing the policies of NYPD and was acting under
the color of law, to wit, under the color of the
statutes, ordinances, regulations, policies, customs and usages of the State of New York and/or
the City of New York.
IV. FACTS
13. On or about January 15, 2014, at approximately
11:00 P.M., THOMPSON was located in his
home apartment in Brooklyn, NY with his fiancé,
his fiancé’s sister, and his seven-day-old baby.
14. Employees of the City of New York, including but
not limited to defendants, attempted to enter the
apartment without a warrant.
15. Defendants, without warning, handcuffed and
falsely arrested THOMPSON with excessive

29
force, and detained him face down in his apartment for several minutes.
16. THOMPSON was transported to the 77th precinct where he requested medical treatment.
Treatment was denied for approximately 8 hours
before THOMPSON was transferred to Interfaith Hospital.
17. Following treatment at Interfaith Hospital,
THOMPSON was transported back to the 77th
precinct, where he was held for approximately 8
hours.
18. THOMPSON was then transferred to Central
Booking, where he was held for approximately
10 hours.
19. THOMPSON was charged with PL 195.05, Obstructing Governmental Administration in the
Second Degree and PL 205.30, Resisting Arrest.
THOMPSON was released on his own recognizance.
20. THOMPSON was required to appear in court approximately three times.
21. All charges against THOMPSON were dismissed
on April 15, 2014.
FIRST CAUSE OF ACTION
V.
Pursuant to § 1983 (FALSE ARREST)
22. Paragraphs 1 through 21 of this complaint are
hereby realleged and incorporated by reference
herein.
23. That Defendants had neither valid evidence for
the arrest of THOMPSON nor legal cause or excuse to seize and detain him.

30
24. That in detaining THOMPSON without a fair
and reliable determination of probable cause,
Defendant CITY abused its power and authority
as a policymaker of the NYPD under the color of
State and/or local law. It is alleged that CITY,
via their agents, servants and employees routinely charged persons with crimes they did not
commit. THOMPSON was but one of those persons.
25. Upon information and belief, it was the policy
and/or custom of Defendant CITY to inadequately supervise and train its officers, staff, agents
and employees, thereby failing to adequately
discourage further constitutional violations on
the part of their officers, staff, agents and employees.
26. As a result of the above described policies and
customs, the officers, staff, agents and employees of Defendant CITY believed that their actions
would not be properly monitored by supervisory
officers and that misconduct would not be investigated or sanctioned, but would be tolerated. In
addition, the City of New York had and has a
policy, custom, and/or practice of detaining persons for an excessive period of time prior to arraignment.
27. The above described policies and customs demonstrated a deliberate indifference on the part of
the policymakers of the CITY to the constitutional rights of arrestees and were the cause of the
violations of THOMPSON’s rights alleged herein.
28. By reason of Defendants acts and omissions, Defendant CITY, acting under color of state law
and within the scope of its authority, in gross

31
and wanton disregard of THOMPSON’s rights,
subjected THOMPSON to an unlawful detention,
in violation of the Fourth and Fourteenth
Amendments of the United States Constitution
and the laws of the State of New York.
29. By reason of the foregoing, THOMPSON suffered
physical injuries, mental injuries, deprivation of
liberty and privacy, terror, humiliation, damage
to reputation and other psychological injuries.
All of said injuries may be permanent.
SECOND CAUSE OF ACTION
VI.
Pursuant to §1983 (EXCESSIVE FORCE)
30. Paragraphs 1 through 29 are hereby realleged
and incorporated by reference herein.
31. That the incident that resulted from the intentional application of physical force by Defendants constituted a seizure. That the use of excessive force in effectuating the seizure was unreasonable under the circumstances.
32. That Defendants had no legal cause or reason to
use excessive force in effectuating THOMPSON’s
arrest or after THOMPSON was arrested and in
custody.
33. That Defendants violated THOMPSON’s Fourth
and Fourteenth Amendment right to be free
from unreasonable seizures when they used excessive force against him.
34. That at the time of the arrest or while in custody,
THOMPSON did not pose a threat to the safety
of the arresting officers.
35. That THOMPSON was not actively resisting arrest or attempting to evade arrest.

32
36. That Defendant CITY, through its officers,
agents, and employees, unlawfully subjected
THOMPSON to excessive force while effectuating
his arrest.
37. That Defendants’ actions were grossly disproportionate to the need for action and were unreasonable under the circumstances.
38. That by reason of Defendants acts and omissions,
acting under color of state law and within the
scope of his authority, in gross and wanton disregard of THOMPSON’s rights, subjected
THOMPSON to excessive force while effectuating
his arrest, in violation of his rights pursuant to
the Fourth and Fourteenth Amendments of the
United States Constitution.
39. That Defendants had the opportunity to intervene, and failed to do so, to prevent violations of
THOMPSON’s civil rights, including but not limited to the right to be free from the application of
excessive force.
40. That upon information and belief, in 2014, Defendants and CITY had a policy or routine practice of using excessive force when effectuating arrests.
41. That upon information and belief, it was the policy and/or custom of defendant CITY to inadequately train, supervise, discipline, and/or terminate their officers, staff, agents and employees,
thereby failing to adequately discourage further
constitutional violations on the part of their officers, staff, agents and employees.
42. That as a result of the above described policies
and customs, the officers, staff, agents and em-

33
ployees of defendant CITY, believed that their
actions would not be properly monitored by supervisory officers and that misconduct would not
be investigated or sanctioned, but would be tolerated.
43. That the above described policies and customs
demonstrate a deliberate indifference on the
part of the policymakers of Defendant CITY to
the constitutional rights of arrestees and were
the cause of the violations of THOMPSON’s
rights alleged herein.
44. By reason of the foregoing, THOMPSON suffered
physical injuries, mental injuries, emotional injuries, economic injury, trauma, humiliation, terror, damage to reputation, and other psychological injuries. All of said injuries may be permanent.
VII. THIRD CAUSE OF ACTION
Pursuant to § 1983 (MALICIOUS PROSECUTION)
45. Paragraphs 1 through 44 are hereby realleged
and incorporated by reference herein.
46. That Defendants, with malicious intent, arrested
THOMPSON and initiated a criminal proceeding
despite the knowledge that THOMPSON had
committed no crime.
47. That all charges against THOMPSON were terminated in his favor.
48. That there was no probable cause for the arrest
and criminal proceeding.
49. That by reason of Defendants’ acts and omissions, Defendants, acting under the color of state
law and within the scope of their authority, in

34
gross and wanton disregard of THOMPSON’S
rights, deprived THOMPSON of his liberty when
they maliciously prosecuted him and subjected
him to an unlawful, illegal and excessive detention, in violation of his rights pursuant to the
Fourth and Fourteenth Amendments of the
United States Constitution.
50. That upon information and belief, Defendants
had a policy and/or custom of maliciously prosecuting individuals despite the lack of probable
cause. Thus, as a result of the above described
policies and customs, THOMPSON was maliciously prosecuted despite the fact that he had
committed no violation of the law.
51. That upon information and belief it was the policy and/or custom of defendant CITY to inadequately hire, train, supervise, discipline and/or
terminate their officers, staff, agents and employees, thereby failing to adequately discourage
further constitutional violations on the part of
their officers, staff, agents, and employees.
52. That as a result of the above described policies
and customs, defendant CITY, its staff, agents
and employees of defendant CITY believed that
their actions would not be properly monitored by
supervisory officers and that misconduct would
not be investigated or sanctioned, but would be
tolerated.
53. That the above described policies and customs
demonstrate a deliberate indifference on the
part of the policymakers of Defendant CITY to
the constitutional rights of arrestees and were
the cause of the violations of THOMPSON’s
rights alleged herein.

35
54. That in so acting, Defendant CITY abused its
power and authority as policymaker of the
NYPD under the color of State and/or local law.
55. That upon information and belief, in 2014, Defendant CITY had a policy or routine practice of
alleging facts against persons for the purpose of
charging crimes they did not commit.
56. That by reason of the foregoing, THOMPSON
suffered physical and psychological injuries,
traumatic stress, post-traumatic stress disorder,
mental anguish, economic damages including
attorney’s fees, damage to reputation, shame,
humiliation, and indignity. All of said injuries
may be permanent.
VIII. FOURTH CAUSE OF ACTION
Pursuant to § 1983 (DENIAL OF FAIR TRIAL)
57. Paragraphs 1 through 56 are hereby realleged
and incorporated by reference herein.
58. By fabricating evidence, defendants violated
THOMPSON’s constitutional right to a fair trial.
59. Defendants were aware or should have been
aware of the falsity of the information used to
prosecute plaintiff.
60. As a result of the above constitutionally impermissible conduct, THOMPSON was caused to
suffer personal injuries, violation of civil rights,
economic damages, emotional distress, anguish,
anxiety, fear, humiliation, loss of freedom and
damage to his reputation and standing within
his community.

36
IX.
FIFTH CAUSE OF ACTION
Pursuant to §1983 (FAILURE TO INTERVENE)
61. Paragraphs 1 through 60 are hereby realleged
and incorporated by reference herein.
62. That Defendants failed to intervene when Defendants knew or should have known that
THOMPSON’s constitutional rights were being
violated.
63. That Defendants had a realistic opportunity to
intervene on behalf of THOMPSON, whose constitutional rights were being violated in their
presence.
64. That a reasonable person in the Defendants’ position would know that THOMPSON’s constitutional rights were being violated.
65. That by reason of Defendants’ acts and omissions, Defendants, acting under the color of state
law and within the scope of their authority, in
gross and wanton disregard of THOMPSON’s
rights, deprived THOMPSON of his liberty when
they failed to intervene to protect him from Defendants’ use of excessive force, in violation of
THOMPSON’s rights pursuant to Fourteenth
Amendment of the United States Constitution.
66. That upon information and belief, Defendants
had a policy and /or custom of failing to intervene to protect citizens from excessive force by
police officers. Thus, as a result of the above described policies and customs, THOMPSON was
not protected from Defendants’ unconstitutional
actions.
67. That upon information and belief it was the policy and/or custom of defendant CITY to inade-

37
quately hire, train, supervise, discipline and/or
terminate their officers, staff, agents and employees, thereby failing to adequately discourage
further constitutional violations on the part of
their officers, staff, agents, and employees.
68. That as a result of the above described policies
and customs, defendant CITY, its staff, agents
and employees of defendant CITY believed that
their actions would not be properly monitored by
supervisory officers and that misconduct would
not be investigated or sanctioned, but would be
tolerated.
69. That the above described policies and customs
demonstrate a deliberate indifference on the
part of the policymakers of defendant CITY to
the constitutional rights of detainees and were
the cause of the violations of THOMPSON’s
rights alleged herein.
70. That in so acting, defendant CITY abused its
power and authority as policymaker of the
NYPD under the color of State and/or local law.
71. That by reason of the foregoing, THOMPSON
suffered physical and psychological injuries,
traumatic stress, mental anguish, economic
damages including attorney’s fees, damage to
reputation, shame, humiliation, and indignity.
All of said injuries may be permanent.
SIXTH CAUSE OF ACTION
X.
Pursuant to § 1983 (DENIAL OF MEDICAL
TREATMENT)
72. Paragraphs 1 through 71 are hereby realleged
and incorporated by reference herein.

38
73. While THOMPSON was detained in Defendants’
custody prior to trial, Defendants attempted to
deny access to medical care needed to remedy a
serious medical condition.
74. Defendants attempted to deny needed medical
care to THOMPSON because of deliberate indifference to THOMPSON’s need therefor.
75. By reason of Defendant’s acts and omissions, Defendant CITY, acting under color of state law
and within the scope of its authority, in gross
and wanton disregard of THOMPSON’s rights,
deprived THOMPSON of his liberty when it attempted to deny him medical care while
THOMPSON was in its custody, in violation of
his due process rights pursuant to the Fourteenth Amendment of the United States Constitution and the laws of the State of New York.
76. That in so acting, Defendant CITY, abused its
power and authority as policymaker of the New
York City Police Department under the color of
State and/or local law.
77. That upon information and belief, in 2014, Defendant CITY had a policy or routine practice of
denying medical care to pre-trial detainees in its
custody.
78. That upon information and belief, it was the policy and/or custom of Defendant CITY to inadequately train and supervise their officers, staff,
agents and employees, thereby failing to adequately discourage further constitutional violations on the part of their officers, staff, agents
and employees.

39
79. That as a result of the above described policies
and customs, the officers, staff, agents and employees of Defendant CITY believed that their actions would not be properly monitored by supervisory officers and that misconduct would not be
investigated or sanctioned, but would be tolerated.
80. That the above described policies and customs
demonstrate a deliberate indifference on the
part of the policymakers of Defendant CITY to
the constitutional rights of arrestees and were
the cause of the violations of THOMPSON’s
rights alleged herein.
81. That Defendant, through its officers, agents and
employees, unlawfully attempted to deny
THOMPSON medical care while he was in its
custody.
82. By reason of the foregoing, THOMPSON suffered
mental injuries, economic injury, deprivation of
property, liberty and privacy, terror, humiliation,
damage to reputation and other psychological
injuries. All of said injuries may be permanent.
SEVENTH CAUSE OF ACTION
XI.
Pursuant to §1983 (DUE PROCESS
VIOLATION/FOURTH AMENDMENT RIGHTS)
83. Paragraphs 1 through 82 of this complaint are
hereby realleged and incorporated by reference
herein.
84. That Defendants entered THOMPSON’s property
apartment forcefully, without a warrant or legal
basis to do so.

40
85. That said forced entry into THOMPSON’s
apartment was made without exigent circumstances.
86. That said warrantless entry constituted a
search and seizure of THOMPSON’s private
property and violated THOMPSON’s rights.
87. By reason of Defendants acts and omissions, Defendant CITY, acting under color of state law
and within the scope of its authority, in gross
and wanton disregard of THOMPSON’s rights,
searched and seized THOMPSON’s personal
property without providing due process under
the law, in violation of the Fourth, Fifth and
Fourteenth Amendments of the United States
Constitution and the laws of the State of New
York.
88. By reason of the foregoing, THOMPSON suffered
mental injuries, economic injury, deprivation of
property, liberty and privacy, terror, humiliation,
damage to reputation and other psychological
injuries. All of said injuries may be permanent.
INJURY AND DAMAGES
As a result of the acts and conduct complained of
herein, THOMPSON has suffered and will continue
to suffer economic injuries, physical pain, emotional
pain, suffering, permanent disability, inconvenience, injury to his reputation, loss of enjoyment of
life, loss of liberty and other non-pecuniary losses.
Plaintiff has further experienced severe emotional
and physical distress.
WHEREFORE, THOMPSON respectfully requests
that judgment be entered:

41
1.

Awarding
THOMPSON
compensatory
damages in a full and fair sum to be determined by a jury;

2.

Awarding THOMPSON punitive damages
in an amount to be determined by a jury;

3.

Awarding THOMPSON interest from January 15, 2014;

4.

Awarding THOMPSON reasonable attorney’s fees pursuant to 42 USC § 1988; and

5.

Granting such other and further relief as to
this Court deems proper.

Dated: Brooklyn, New York June 26, 2016
/s
DAVID A. ZELMAN, ESQ.
(DZ 8578)
612 Eastern Parkway
Brooklyn, New York 11225
(718) 604-3072
TO:
Kavin Thadani, Esq.
New York City Law Department
100 Church Street, Rm 3-195
New York, NY 10007
(212) 356-2351
kthadani@law.nyc.gov

42
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed November 26, 2018]
LARRY THOMPSON,
Plaintiff,
– against –

DEFENDANTS’
PROPOSED JURY
CHARGES

Police Officer PAGIEL CLARK,
Shield #28742; Police Officer
PAUL MONTEFUSCO, Shield
1:14-cv-07349-JBW#10580; Police Officer GERARD RML
BOUWMANS, Shield #2102;
Police Officer PHILLIP
ROMANO, Shield #6295,
Defendants.

Defendants Pagiel Clark, Paul Montefusco,
Gerard Bouwmans and Phillip Romano, by their
attorney ZACHARY W. CARTER, Corporation
Counsel of the City of New York, respectfully request, pursuant to Rule 51 of the Federal Rules of
Civil Procedure, that the Court give the following
instructions to the jury: 1

Defendants intend to rely on the defense of qualified immunity. As the Court in Zellner v. Summerlin, 494 F.3d 344 (2d
Cir. 2007), and Stephenson v. John Doe, 332 F.3d 68 (2d Cir.
2003) has held, the issue of qualified immunity is one for the
Court to determine as a matter of law. Thus, defendants
submit that the jury should not be charged on qualified
immunity. Defendants also respectfully submit that special
jury interrogatories may be used to permit the jury to resolve
the disputed facts upon which the Court can then determine,
as a matter of law, the ultimate question of qualified immunity. Defendants, therefore, respectfully request the opportunity to submit proposed special interrogatories and/or
comment on any such special jury interrogatories.
1

43
SUBSTANTIVE LAW
I will now instruct you on the substantive law to
be applied to this case.
In this case, the plaintiff, Larry Thompson,
has brought the following claims against defendants: False Arrest; Excessive Force; Unlawful Entry;
Malicious Prosecution; and Denial of the Right to a
Fair Trial. 2
The Statute, Its Function, and Elements of
Claim for Relief
The plaintiff asserts his claims pursuant to 42
U.S.C. § 1983. In order to prevail in this case pursuant to 42 U.S.C. § 1983, the plaintiff must prove
by a preponderance of the evidence that: 3
1) The defendants’ conduct deprived the plaintiff
of a right protected by the Constitution of the United States; and
2) The defendants’ conduct was a proximate
cause of the injuries and damages sustained by the
plaintiff.
Because plaintiff has failed to identify which defendants
allegedly failed to intervene to prevent the alleged illegal
acts, and how, his failure to intervene claim is without merit
and the jury should not be separately charged on such a
claim. As plaintiff alleges that all of the individually named
defendants directly participated in the underlying arrest
and/or prosecution, the failure to intervene claim must be
dismissed against all individual defendants. See, e.g., Jackson v. City of New York, 939 F. Supp. 2d 219, 232 (E.D.N.Y.
2013) (“The Court has already concluded [that the two officers]
both may be held liable under a theory of direct participation,
therefore neither would be held liable for failure to intervene.”).
3 Defendants concede that they were acting under color of
state law, the third element of a § 1983 claim.
2

44
I will explain these elements to you.
1. First Element: Deprivation of Constitutional Right
First, the plaintiff must show that he was intentionally or recklessly deprived of a constitutional
right by the defendants. Specifically, the plaintiff
must show, by a preponderance of the evidence,
that (a) the defendants committed the act as alleged by the plaintiff; (b) the alleged act caused
the plaintiff to suffer the loss of a constitutional
right; and (c) in performing the act as alleged, the
defendants acted intentionally or recklessly.
a. Commission of Alleged Acts
The first thing for you to determine is whether
the defendants committed the acts as alleged by the
plaintiff. If you find that the plaintiff has failed to
prove by a preponderance of the evidence that the
defendants committed the acts as alleged by the
plaintiff, you must find in favor of the defendants.
b. Loss of a Constitutional Right
If you determine that the defendants committed
the act as alleged by the plaintiff, you must next determine whether that act caused the plaintiff to suffer the loss of a constitutional right.
Plaintiff is suing for claims of Unlawful Entry,
False Arrest, Malicious Prosecution, Denial of the
Right to a Fair Trial, and Excessive Force.
I will now turn to each of these claims.
Unlawful Entry
The plaintiff alleges that the defendants unlawfully entered his apartment on January 15,

45
2014. Defendants contend that their entry was lawful because there was an urgent need to render
emergency aid.
Police officers may enter a dwelling without a
warrant to render emergency aid and assistance to
a person whom they reasonably believe to be in
distress and in need of that assistance. 4 In other
words, police officers may enter a home without a
warrant to render emergency assistance or immediate aid to an injured occupant, to protect an occupant from imminent injury, or to prevent ongoing
harm. 5
In determining whether the officers’ belief concerning the need to render emergency aid was reasonable, you must consider the circumstances then
confronting the officers, including the need for a
prompt assessment of sometimes ambiguous information concerning serious consequences. 6 Reasonableness must be judged from the perspective of a
reasonable officer on the scene, rather than with
the 20/20 vision of hindsight. 7 Therefore, whether
or not there was in fact a need to render emergency
aid is irrelevant. A call to a 911 operator can provide the exigent circumstances necessary to justify
a warrantless entry into an individual’s residence. 8
If you find that it was reasonable under the
circumstances to believe that there was an urgent
Tierney v. Davidson, 133 F.3d 189, 196 (2d Cir. 1998).
Brigham City, Utah v. Stuart, 547 U.S. 398, 403 (2006).
6 Id. at 196-97.
7 Soller v. Boudreaux, No. 12-CV-0167 (SJF)(SIL), 2015 U.S.
Dist. LEXIS 14084, at *31-32 (E.D.N.Y. Feb. 3, 2015).
8 Sha v. N.Y. City Police Dep’t Twentieth Precinct, No. 03
Civ. 5273 (DAB) (GWG), 2005 U.S. Dist. LEXIS 6505, at *14
(S.D.N.Y. Apr. 18, 2005).
4
5

46
need to render emergency aid, then the defendants’
entry was lawful and you must find for the defendants.
False Arrest
The plaintiff also alleges that he was falsely arrested on January 15, 2014. The defendants deny
this claim and contend that there was probable
cause to arrest the plaintiff for obstructing governmental administration in the second degree, obstructing emergency medical services, and endangering the welfare of a child.
The elements of false arrest are as follows: 1) The
defendants intended to confine plaintiff; 2) The
plaintiff was conscious of the confinement; 3) The
plaintiff did not consent to the confinement; 4) The
confinement was not otherwise privileged. 9 The
burden is on the plaintiff to prove by a preponderance of the evidence each of the first three elements.
If you find that plaintiff failed to prove any of
these first three elements with respect to a defendant, you must find for the defendant. If you find
that plaintiff has proven by a preponderance of the
evidence each of the first three elements, then you
should turn your attention to whether the confinement was privileged.
The defendants’ arrest, or seizure, of the plaintiff
was privileged or lawful so long as the defendants
had probable cause to arrest the plaintiff for some
crime.

Singer v. Fulton County Sheriff, 63 F.3d 110, 118 (2d Cir.
1995); Savino v. City of New York, 331 F.3d. 63, 75 (2d. Cir.
2003); Broughton v. State, 37 N.Y.2d 451, 456 (1975).
9

47
Let me explain what “probable cause” means.
Probable cause exists when, based on the totality of
circumstances, an officer has knowledge of, or reasonably trustworthy information as to, facts and
circumstances that are sufficient to warrant a person of reasonable caution in the belief that an offense has been or is being committed by the person
to be arrested. 10 The defendants have the burden of
proving the existence of probable cause. Whether
probable cause existed depends upon the reasonable conclusions to be drawn from the facts known
to the defendants at the time of the arrest of the
plaintiff. 11 You are not to view the question of probable cause from a position of calm, reflective hindsight, but from the position of how the circumstances appeared to the officers at the time. 12
Probable cause requires only the probability of
criminal activity; it does not require an actual showing of criminal activity. 13 In other words, the arrestee’s actual guilt or innocence is irrelevant to
the determination of probable cause. 14 An arrest
made with probable cause is lawful even if the
plaintiff actually did not commit the crime. 15 An
officer need not have been convinced beyond a reasonable doubt that a criminal offense was being, had
been or is about to be committed. Thus, the ultimate
disposition of the criminal charge against the plainEscalera v. Lunn, 361 F.3d 737, 743 (2d Cir. 2004).
Panetta v. Crowley, 460 F.3d 388, 395 (2d Cir. 2006).
12 Ali v. City of New York, No. 11 Civ. 5469 (LAK), 2012 U.S.
Dist. LEXIS 126233, at *14 (S.D.N.Y. Sept. 5, 2012).
13 Ricciuti v. New York City Transit Auth., 124 F.3d 123, 128 (2d
Cir. 1997).
14 Michigan v. DeFillippo, 443 U.S. 31, 36 (1979); Pierson v. Ray,
386 U.S. 547, 555 (1967).
15 Id.
10
11

48
tiff, whatever it may have been, is irrelevant to this
question. 16
Because the existence of probable cause is analyzed from the perspective of a reasonable person
standing in the officer’s shoes, the actual subjective
beliefs of the officer are irrelevant to the determination of probable cause. 17 Once a police officer has a
reasonable basis to believe there is probable cause
to arrest, the officer is not required to explore or
eliminate every theoretically plausible claim of innocence before making an arrest. 18
Once officers possess facts sufficient to establish
probable cause, they are neither required, nor allowed to sit as prosecutor, judge or jury. 19 It does
not matter than an investigation might have cast
doubt upon the basis for the arrest. Once a police
officer has a reasonable basis to believe there is
probable cause to arrest, he is not required to explore or eliminate every theoretically plausible claim
of innocence before making an arrest. 20 The police
are not obligated to pursue every lead that may
yield evidence beneficial to the accused, even
though they had knowledge of the lead and the capacity to investigate it. 21 Their function is to apprehend those suspected of wrongdoing, and not to finally determine guilt through the weighing of the

Pierson, 386 U.S. at 555; Weyant v. Okst, 101 F.3d 845, 852
(2d. Cir. 1996).
17 Whren v. United States, 517 U.S. 806, 812-813 (1996).
18 Baker v. McCollan, 443 U.S. 137, 145-46 (1979); Panetta, 460
F.3d at 395.
19 Krause v. Bennett, 887 F.2d 362, 372 (2d Cir. 1989).
20 Panetta, 460 F.3d at 396.
21 Gisondi v. Harrison, 528 N.E.2d 157, 160 (N.Y. 1988).
16

49
evidence. 22 Probable cause can exist even where it
is based on mistaken information, so long as the
arresting officer acted reasonably and in good faith
in relying on that information. 23
Moreover, it is not necessary that the officer
had probable cause to arrest the plaintiff for the
offense with which he eventually charged the plaintiff, so long as the officer had probable cause to arrest the plaintiff for any criminal offense. An arrest
made with probable cause for any offense – whether
charged or not – is lawful. 24
Information provided by an identified citizen
accusing another individual of a specific crime is
legally sufficient to provide the police with probable
cause to arrest. 25 Because an unequivocal identification of a suspect received by police from an eyewitness can provide probable cause then, even if
the information relied upon was wrong, probable
cause exists even where it is based upon mistaken
information, so long as the arresting officer was
reasonable in relying on that information. 26
I instruct you further that the law recognizes
what is called the fellow officer rule. Under the fellow officer rule, an arrest by an officer who himself
lacks probable cause to make the arrest is lawful as
long as other officers involved in the investigation
have sufficient information to form the basis for
Krause, 887 F.2d at 372.
Bernard v. United States, 25 F.3d 98, 102 (2d Cir. 1994).
24 Devenpeck v. Alford, 543 U.S. 146, 153 (2004).
25 Kramer v. New York, 569 N.Y.S.2d 67, 68 (N.Y. App. Div.
1991); Martinez v. Simonetti, 202 F.3d 625, 634 (2d Cir. 2000);
Wahhab v. City of New York, 386 F. Supp. 2d 277, 287
(S.D.N.Y. 2005).
26 Bernard, 25 F.3d at 103.
22
23

50
probable cause. This is so because modern police
work can be complex. Officers often do not work all
alone. Not every officer always can be aware of every aspect of an investigation. Hence, in determining
whether there is a legal basis for an arrest – in other words, probable cause – the law looks to the information known to all law enforcement authorities
who are cooperating in an investigation.
The
knowledge of each of the officers is presumed
known to all. 27
The defendants contend that probable cause
existed to arrest the plaintiff for Obstructing Governmental Administration in the Second Degree,
Obstructing Emergency Medical Services, and Endangering the Welfare of a Child.
Obstructing Governmental Administration in
the Second Degree
A person is guilty of obstructing governmental
administration when he intentionally obstructs, impairs or perverts the administration of law or
other governmental function or prevents or attempts to prevent a public servant from performing
an official function, by means of intimidation,
physical force or interference, or by means of any
independently unlawful act. 28 A police officer has
probable cause to arrest for obstructing governmental administration where a person refuses to
comply with an order from a police officer. 29 A police
This paragraph has been adopted from the instructions given
by the Hon. Lewis A. Kaplan in the case Manigault v. Brown,
No. 11 CV 4307 (LAK) (S.D.N.Y. 2012).
28 N.Y. Penal Law § 195.05 (2014).
29 Johnson v. City of New York, No. 05 Civ. 7519 (PKC), 2008
U.S. Dist. LEXIS 78984, at *26 (S.D.N.Y. Sept. 29, 2008)
27

51
officer is not required to warn a person refusing to
comply that their refusal may result in an arrest. 30
Obstructing Emergency Medical Services
A person is guilty of obstructing emergency
medical services when he intentionally and unreasonably obstructs the efforts of any emergency medical technician in the performance of their duties. 31
Endangering the Welfare of a Child
A person is guilty of endangering the welfare of a
child when he knowingly acts in a manner likely to
be injurious to the physical, mental or moral welfare of a child less than seventeen years old. 32
If you find that probable cause existed for any
one of the offenses as I just described, then you
must find in favor of the defendants with respect to
the plaintiff’s false arrest claim. Keep in mind, you
do not need to be unanimous as to which offense
you find probable cause, only that you are unanimous that probable cause existed for any offense.

Aristide v. City of New York, No. 17-cv-4422 (BMC), 2017
U.S. Dist. LEXIS 197131, at *5 (E.D.N.Y. Nov. 30, 2017);
Wood v. Town of E. Hampton, Civil Action No. 08-CV-4197,
2010 U.S. Dist. LEXIS 104806, at *36-37 (E.D.N.Y. Sep. 30,
2010).
31 N.Y. Penal Law § 195.16 (2014); N.Y. Pub. Health § 3001
(2014).
32 N.Y. Penal Law § 260.10(1) (2014).
30

52
Malicious Prosecution 33
The plaintiff claims that defendant Pagiel Clark
maliciously commenced a criminal proceeding
against him. In order to establish a claim of malicious prosecution, the plaintiff must prove, by a
preponderance of the evidence, the following elements: (1) the defendant initiated a criminal proceeding against plaintiff, (2) the criminal proceeding
terminated in plaintiff’s favor, (3) there was no
probable cause for the commencement of the criminal proceeding, (4) the proceeding was motivated
by actual malice and, (5) a post-arraignment liberty restraint. 34 I will now describe these elements in
more detail.
A defendant may be said to have initiated a criminal prosecution if (a) the defendant directed or required a prosecutor to prosecute, (b) gave the
prosecutor, directly or indirectly, such as through
the filing of a felony or misdemeanor complaint, information which the defendant knew to be false,
or (c) withheld information that a reasonable person would realize might affect the prosecutor’s determination whether to prosecute. A defendant cannot be said to have commenced a criminal proceeding simply because he fairly and truthfully disclosed
As explained in defendants’ memorandum of law in opposition to plaintiff’s motions in limine, pursuant to the Second Circuit’s recent decision in Lanning v. City of Glens Falls,
No. 17-970-cv, 2018 U.S. App. LEXIS 31489 (2d Cir. Nov. 7,
2018), plaintiff’s malicious prosecution claim should be dismissed because he is unable to establish that the criminal proceeding was terminated in his favor. However, out of an
abundance of caution, defendants have included plaintiff’s malicious prosecution claim in their proposed jury charge.
34 Ricciuti v. New York City Transit Auth., 124 F.3d 123, 130 (2d
Cir. 1997).
33

53
to the prosecutor all matters within his knowledge
that a reasonable person would believe would be
important to the question of the plaintiff’s guilt or
innocence. If, however, you find that the defendant
gave the prosecutor information that the defendant
knew to be false, the defendant is responsible for
initiating the prosecution. 35
I instruct you that the Assistant District Attorneys are not defendants with respect to this claim
and the defendant may not be held responsible for
the actions of the Assistant District Attorneys. If
you find that an ADA—and not the defendant—
caused the initiation of the prosecution of the plaintiff, you must find for the defendant.
The next element is whether the plaintiff has
proved, by a preponderance of the evidence, that
the criminal proceeding terminated in his favor. In
other words, plaintiff must prove that the criminal
proceeding terminated in a manner indicative of
his innocence. 36 A dismissal “in the interests of
justice” cannot provide the favorable termination
required as the basis for a claim of malicious prosecution. 37
The next element is whether the plaintiff has
proven, by a preponderance of the evidence, that
Rohman v. New York City Transit Auth., 215 F.3d 208,
217 (2d Cir. 2000); DeFilippo v. County of Nassau, 183 A.D.2d
695, 696 (NY App. Div. 2d Dep’t 1992).
36 Lanning v. City of Glens Falls, No. 17-970-cv, 2018 U.S. App.
LEXIS 31489, at *18 (2d Cir. Nov. 7, 2018).
37 See id.; See also Burke v. Town of E. Hampton, 99-CV-5798
(JS), 99-CV-5799 (JS), 2001 U.S. Dist. LEXIS 22505, at *36
(E.D.N.Y. Mar. 16, 2001); Crockett v. City of New York, No. 11CV-4378 (PKC), 2015 U.S. Dist. LEXIS 131327, at *25-28
(E.D.N.Y. Sep. 29, 2015).
35

54
defendant lacked probable cause to believe that
plaintiff was guilty of a crime. Previously, I explained the concept of probable cause and the charges made against the plaintiff. If you determine that
there was probable cause to arrest the plaintiff, then
you must conclude that there was probable cause for
the criminal prosecution and your verdict must be
for the defendants. 38 Alternatively, if you determine
that there was no probable cause for plaintiff’s arrest, then you must conclude that there was no
probable cause for the criminal prosecution and you
must find that this second element has been satisfied.
The next element plaintiff must prove by a preponderance of the evidence is that the defendant
acted with malice. A prosecution is initiated maliciously if it is done for a purpose other than bringing
an offender to justice, or out of ill will or in reckless
disregard of the rights of the person accused. 39 Malice may be inferred from a lack of probable cause. 40
However, malice is not shown by the mere fact that
probable cause for the prosecution may have been
lacking, unless probable cause was “so totally lacking” that no reasonable officer could have thought it
existed. 41
Because there was no intervening fact that came to light
after the initial probable cause analysis, probable cause to
prosecute exists if there was probable cause to make the arrest and vice versa. See Kilburn v. Vill. of Saranac Lake, 413
Fed. App’x. 362, 364 (2d Cir. 2011); Lowth v. Town of Cheektowaga, 82 F.3d 563, 571 (2d Cir. 1996).
39 Lowth, 82 F.3d at 573.
40 Manganiello v. City of New York, 612 F.3d 149, 163 (2d Cir.
2010).
41 Sankar v. City of New York, 867 F. Supp. 2d 297, 312
(E.D.N.Y. 2012).
38

55
The last element the plaintiff must prove by a
preponderance of the credible evidence is that he
incurred a post-arraignment deprivation of liberty as
a result of actions taken by the defendant.
Denial of the Right to a Fair Trial
Plaintiff alleges that he was denied the right to
a fair trial by defendant Pagiel Clark, who plaintiff
alleges fabricated evidence of a material nature
against him. In order for you to find that plaintiff’s constitutional right to a fair trial was violated by the defendant, plaintiff must prove the following elements by a preponderance of the credible
evidence: (1) that the defendant, (2) fabricated evidence of a material nature, (3) that was likely to
influence a jury’s verdict, (4) forwarded the fabricated evidence of a material nature to prosecutors,
and (5) that the plaintiff suffered a deprivation of
liberty as a result. 42 If you find that plaintiff has
failed to prove any of these elements, then you must
find in favor of the defendant.
The fabrication of false evidence, in and of itself, does not impair anyone’s liberty, and therefore does not impair anyone’s constitutional right. 43
In order to find for plaintiff, you must find that
the fabricated evidence was of a material nature
and was the proximate cause of the deprivation of
Garnett v. Undercover Officer C0039, 838 F.3d 265, 279
(2d Cir. 2016) (citing Ricciuti v. N.Y.C. Transit Auth., 124
F.3d 123, 128 (2d Cir. 1997)); (Adapted from Jury Instructions
given by the Hon. Victor Marrero in Nibbs v. City of N.Y.,
et al., 10 Civ. 3799 (VM) (S.D.N.Y. delivered on September
22, 2011).
43 Zahrey v. Coffey, 221 F.3d 342, 348 (2d Cir. 2000); Dufort v.
City of N.Y., 874 F.3d 338, 355 (2d Cir. 2017).
42

56
plaintiff’s liberty. 44 In other words, the alleged fabrication must be both material (i.e., likely to influence
a jury’s decision), and the legally cognizable cause of
the injury to plaintiff’s liberty interest (i.e., that he
suffered a deprivation of liberty as a result of the
alleged fabrication of evidence). 45
It is not enough to show that the deprivation
generally resulted from his prosecution. Where independent probable cause exists for the prosecution
in the absence of the allegedly fabricated evidence,
plaintiff must show that the allegedly fabricated
evidence of a material nature caused some deprivation above and beyond the fact of the prosecution itself, such as a longer period of detention. 46 Paperwork errors, or a mere mistake, or mistakes, by a
police officer in making a written record is also not
a basis for finding a constitutional violation. 47 Similarly, an officer’s opinions, conclusions or qualitaJovanovic v. City of N.Y., 486 Fed. Appx. 149, 152 (2d Cir.
2012).
45 Hoyos v. City of N.Y., 650 F. App'x 801, 803 (2d Cir. 2016).
46 Caravalho v. City of N.Y., No. 17-1944-cv, 2018 U.S. App.
LEXIS 10785, at *10 (2d Cir. Apr. 25, 2018); Ganek v.
Leibowitz, 874 F.3d 73, 91 (2d Cir. 2017); Garnett, 838 F.3d at
277; Hoyos v. City of New York, 999 F. Supp. 2d 375, 394
(E.D.N.Y. 2013) (“[w]here independent probable cause exists
for the prosecution, plaintiff must show that the misconduct
caused some deprivation above and beyond the fact of the prosecution itself.”).
47 See McGhie v. Main, 2011 U.S. Dist. LEXIS 117606, at *5-6
(E.D.N.Y. 2011) (citing Adekoya v. Fed. Bureau of Prisons, 375
Fed. Appx. 119, 121 (2d Cir. 2010)); Daniels v. Williams, 474
U.S. 327, 329-30 (1986)); see also Salazar v. City of New
York, No. 15-cv-1989 (KBF), 2016 U.S. Dist. LEXIS 89774, at
*15 (S.D.N.Y. July 11, 2016) (“the Court notes that [] inconsistencies in an officer’s arrest documentation do not—without
more—rise to the level of fabrication.”).
44

57
tive assessments are also not a basis for finding a
constitutional violation. 48
Excessive Force
The plaintiff further alleges that he was subjected to the use of excessive force on January 15, 2014.
Defendants dispute plaintiff’s version of events, and
contend that their actions were justified, reasonable
under the circumstances, and in accordance with
the existing law. Therefore, you must first determine whose version of events you believe.
In order to find for plaintiff on this claim, you
must find three things: first, that he suffered a physical injury; second, that the injury suffered was proximately caused by the intentional actions or conduct
of a defendant, and no one else, directed at the
plaintiff; and third, that the amount of force used
was in excess of what a reasonable officer would
have used under similar circumstances.
Even if you find that there was some forcible contact between the plaintiff and the defendants, that
mere fact would not be sufficient by itself to
demonstrate that the defendants violated the plaintiff’s constitutional rights. 49 In fact, in restraining
an individual or taking an individual into custody,
a police officer is not constitutionally required to be
courteous. That means that “evil intentions” will not
be considered excessive force if the force that was
Bertuglia v. Schaffler, 672 F. App’x 96, 101 (2d Cir. 2016);
Randolph v. Metro. Transp. Auth., No. 17cv1433 (DLC), 2018
U.S. Dist. LEXIS 98603, at *20 (S.D.N.Y. June 12, 2018)
49 Adapted from Jury Instruction given by the Hon. Robert P.
Patterson in Butler v. Kibel, et al., 10 Civ. 7974 (RPP)
(S.D.N.Y.). See Graham v. Connor, 490 U.S. 386, 396 (1989);
Saucier v. Katz, 533 U.S. 194, 208 (2001).
48

58
used was in fact reasonable. 50 In other words, a police officer’s good intentions will not make an excessive use of force permissible, and his bad intentions
will not make a reasonable use of force excessive. 51
Every person has the right not to be subjected to
unreasonable or excessive force by a law enforcement officer. On the other hand, an officer has the
right to use such force as is necessary under a given
set of circumstances. You must determine: 1)
whether there was any force used against the plaintiff; 2) if there was force used against the plaintiff,
whether the force was used by a defendant; and 3) if
a defendant used force against the plaintiff, whether
the force was unnecessary, unreasonable, or excessively violent. Force is unnecessary, unreasonable
or excessively violent if the officer exceeded that degree of force which a reasonable and prudent law
enforcement officer would have applied under the
same circumstances. 52 In determining whether the
constitutional line has been crossed, you must analyze the totality of the circumstances. 53 In making
this determination, you may take into account
such factors as whether plaintiff actively resisted
See Graham, 490 U.S. at 397; Anderson v. Branen, 17 F.3d
552, 559 (2d Cir. 1994); Kash v. Honey, 38 Fed. Appx. 73, 76
(2d Cir. 2002).
51 Adapted from the Jury Instructions given by Hon. Brian
M. Cogan in Ivan Kimbrough v. Detective John R. Nixon, et
al., 10 CV 1088 (E.D.N.Y.); Jury Instructions given by Hon. Andrew L. Carter in Thomas v. City of New York, et al., 09 CV
3162 (S.D.N.Y. delivered on July 5, 2012).
52 Adapted from the Jury Instructions given by Hon. Donald E.
Walter in Rocky Williams v. City of New York, et al., 01 Civ.
4146 (E.D.N.Y.).
53 Plumhoff v. Rickard, 134 S. Ct. 2012, 2020 (2014) (citing
Graham, 490 U.S. at 396).
50

59
arrest or attempted to evade arrest by flight. 54 Although the severity of plaintiff’s alleged injuries is
not determinative, it is relevant to the consideration
of whether there was force used and, if so, whether
the alleged force was reasonable.
Now the Constitution must not be trivialized, the
use of force is not uncommon or unusual in the
course of restraining an individual. Not every push
or shove by a police officer constitutes excessive
force, even if it may later seem unnecessary in the
peace and quiet of this courtroom. 55 Minor scrapes,
bumps or bruises potentially could occur, often unintended, during any arrest or stop and frisk, and an
officer cannot be held liable for every such incident. 56
You must allow for the fact that police officers
are forced to work in circumstances that are
tense, uncertain and rapidly evolving. They must
make split-second judgments about their actions
and about the amount of force that is necessary in
a particular situation. 57 I instruct you that an officer need not put himself at risk of physical harm
to avoid the use of force. However, you do not have
to determine whether the defendant officers used the
least amount of possible force, for defendant officers
Taken from the instructions given by Hon. Paul A.
Engelmayer in Diaz, 14 CV 4716 (S.D.N.Y. – delivered on February 3, 2016).
55 Graham, 490 U.S. at 396.
56 Adapted from the Jury Instructions given by Hon. Barbara S.
Jones in Pope v. Buttner, 10 Civ. 4118 (S.D.N.Y. delivered
March 7, 2012); and Jury Instructions given by Hon. Andrew
J. Peck in Tsesarskaya v. City of New York, et al., 11 Civ. 4897
(S.D.N.Y. delivered on June 13, 2012).
57 Adapted from the Jury Instructions given by the Hon. Tucker
L. Melançon in Fryer v. Zhen, et al., 10 CV 5879 (E.D.N.Y. delivered on September 21, 2011).
54

60
only needed to have acted within the range of conduct identified as reasonable. 58 In this regard, you
are not to decide if the least amount of force was
used but rather you are only to decide if the force
that was used, if any, was reasonable. 59 The question therefore is only whether the officer’s actions
are objectively reasonable in light of all the facts and
circumstances confronting him.
Because police officers are often forced to make
split second judgments about the amount of force
that is necessary in a given situation, the “reasonableness” of a particular use of force must be judged
from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight. 60 You are not to consider the officer’s underlying intent or motivation. 61 I also instruct you
that negligence does not violate the Fourth Amendment. Therefore, you should not consider whether
or not the police officer may have negligently or
carelessly created an otherwise objectively reasonable
need to use force. 62
58 Adapted from the Jury Instructions given by the Hon. P. Kevin Castel in Figueroa v. Marines, 02 Civ. 8301 (S.D.N.Y. delivered on February 3, 2004).
59 Adapted from the Jury Instructions given by the Hon. Brian
M. Cogan in Gilliard v. Kibel, et al., 10 CV 5247 (E.D.N.Y.);
Jury Instructions given by the Hon. Fredric Block in
Stanczyk v. City of New York, et al., 11 CV 0249 (E.D.N.Y. delivered on March 19, 2013).
60 Adapted from Jury Instructions given by the Hon. J. Paul
Oetken in Choi v. Murdocco, 10 Civ. 6617 (S.D.N.Y. delivered
November 13, 2012).
61 Graham, 490 U.S. at 396.
62 See Daniels v. William Sylvesters, 474 U.S. 327 (1986); Davidson v. Cannon, 474 U.S. 344 (1986); Coakley v. Jaffe, 2000
U.S. App. LEXIS 26073, at *2 (2d Cir. 2000); Solana v. New

61
Defendants deny that they subjected the plaintiff to excessive force. Therefore, you must first determine whether the plaintiff has proven by a preponderance of the evidence that the acts as alleged
by him took place. If your answers are no, then
your deliberations are over and you must bring back
a verdict for the defendant on this claim. If your answers are yes, then in determining whether the acts
of the defendant caused the plaintiff to suffer the
loss of a federal right, you must determine whether
the amount of force used was that which a reasonable officer would have employed under similar circumstances.
c. Intent
As I previously explained, to find a deprivation
of a constitutional right, the plaintiff must establish not only 1) that the defendants committed the
act or acts as alleged and 2) that those acts caused
the plaintiff to suffer loss of a constitutional right,
but also 3) that in performing the alleged acts, the
defendants acted intentionally or recklessly.
An act is intentional if it is done knowingly. That
is if it is done voluntarily and deliberately and not
because of mistake, accident, negligence or any other innocent reason. An act is reckless if it is done
with a conscious disregard of its known probable consequences.
In determining whether a defendant acted with
the requisite knowledge or recklessness, you should
remember that while witnesses may see and hear
and so be able to give direct evidence of what a perYork City Dep’t of Corr., 2012 U.S. Dist. LEXIS 161252, at *7
(E.D.N.Y. 2012).

62
son does or fails to do, there is no way of looking
into a person’s mind. Therefore, you have to depend
on what was done and what the people involved said
was in their minds and your belief or disbelief with
respect to those facts.
2. Second Element: Proximate Cause
The second element that the plaintiff must prove
is that the defendants’ acts were a proximate cause
of the injuries the plaintiff sustained. Proximate
cause means that there must be a sufficient causal
connection between the act or omission of a defendant and any injury or damage sustained by the
plaintiff. If you find that the defendants’ acts or
omissions were a substantial factor in bringing
about or actually causing the plaintiff’s injury, that
is, if the injury was a reasonably foreseeable consequence of any of the defendants’ acts or omissions,
then the defendants’ acts or omissions were a proximate cause of the plaintiff’s injuries. If an injury
was a direct result or a reasonably probable consequence of the defendants’ acts or omissions, it was
proximately caused by such acts or omissions.
Stated another way, if a defendant’s act or omission had such an effect in producing the injury that
reasonable persons would regard it as being a cause
of the injury, then the act or omission is a proximate
cause.
In order to recover damages for any injury, the
plaintiff must show, by a preponderance of evidence
that his injury would not have occurred without the
acts or omissions of the defendants. If you find
that the defendants have proven, by a preponderance of the evidence, that the plaintiff complains
about an injury that would have occurred even in

63
the absence of the defendants’ acts or omissions,
you must find that the defendant did not proximately cause plaintiff’s injury.
A proximate cause need not always be the nearest cause either in time or space. In addition, there
may be more than one proximate cause of an injury. Many factors or the conduct of two or more people may operate at the same time, either independently or together to cause an injury. A defendant is not liable if he did not cause the plaintiff’s
injuries or if the plaintiff’s injuries were caused by
an independent source or a new source that intervened between the defendants’ acts or omissions
and plaintiff’s injuries and produced a result that
was not immediately foreseeable by the defendants.
***

64
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed November 27, 2018]
LARRY THOMPSON,
Plaintiff,
– against –
THE CITY OF NEW YORK,
et al.,
Defendants.

PLAINTIFF’S
REQUESTED JURY
INSTRUCTIONS
Case No: 14-CV-7349

Pursuant to Rule 51 of the Federal Rules of Civil
Procedure and the Court’s Individual Practices,
plaintiff requests that the Court, in addition to the
general charges that the Court intends to provide,
give the following instructions to the jury.
***
Request Number 4
Unlawful Entry/Entry Without a Warrant
The Fourth Amendment protects the right of people to be secure in their persons, houses, papers, and
effects against unreasonable searches and seizures.
Arizona v. Evans, 514 U.S. 1, 115 S. Ct. 1185, 131 L.
Ed. 2d 34 (1995). Searches and seizures inside a
home without a warrant are presumptively unreasonable. Payton v. New York, 445 U.S. 573, 586, 100
S. Ct. 1371, 63 L. Ed. 2d 639 (1980).
“…Physical entry of the home is the chief evil
against which the wording of the Fourth Amendment
is directed.” Payton v. New York, 445 U.S. 573, 585,
100 S. Ct. 1371, 63 L. Ed. 2d 639 (1980) (quoting
United States v. United States District Court, 407
U.S. 297, 313, 92 S. Ct. 2125, 32 L. Ed. 2d 752
(1972)). (Grant v City of Syracuse, 2017 US Dist

65
LEXIS 190763, at *27 [NDNY Nov. 17, 2017, No.
5:15-CV-445 (LEK/TWD)].)
One exception to the warrant requirement is the
presence of exigent circumstances. United States v.
MacDonald, 916 F.2d 766, 769 (2d Cir. 1991). The
primary inquiry in determining whether exigent circumstances justify a warrantless entry is whether
law enforcement agents are “confronted by an urgent
need to render aid or take action.” Anthony v. City of
New York, 339 F.3d 129, 135 (2d Cir. 2003). Police
officers may enter a dwelling without a warrant to
render emergency aid to a person whom they reasonably believe to be in distress and in need of assistance. Tierney v. Davidson, 133 F.3d 189, 196 (2d
Cir. 1998) (internal citation omitted). They may do
this if, based on the totality of the circumstances
known to the investigating officers at the time of entry, it was “objectively reasonable” for them to do so.
Id. “Law enforcement officers may enter a home
without a warrant to render emergency assistance to
an injured occupant or to protect an occupant from
imminent injury.” Brigham City, Utah v. Stuart, 547
U.S. 398, 403, 126 S. Ct. 1943, 164 L. Ed. 2d 650
(2006). The government carries a “heavy burden” in
establishing the presence of this exception and rebutting the presumptive unreasonableness of a warrantless search. See, e.g., Welsh v. Wisconsin, 466
U.S. 740, 750, 104 S. Ct. 2091, 80 L. Ed. 2d 732
(1984).
In the context of possible child abuse, the state
has a “profound interest in the welfare of the child,
particularly in his or her being sheltered from
abuse.” Hurlman v. Rice, 927 F.2d 74, 80 (2d Cir.
1991) (internal citation omitted). The “mere possibility” of child abuse is insufficient grounds for state

66
intervention; law enforcement agents must have an
objectively reasonable basis to believe that danger to
the child is imminent. Id. at 81.
nonymous or uncorroborated 911 calls cannot
alone justify the warrantless entry of a home. Kerman v. City of New York, 261 F.3d 229, 238 (2d Cir.
2001). (Thompson v Clark, 2018 US Dist LEXIS
105225, at *10-12 [EDNY June 11, 2018, No. 14-CV7349].)
The Second Circuit has identified several factors
to consider when determining whether officers may
dispense with the warrant requirement in the context of emergency aid. Was the call anonymous? If
the officers were not aware of the identity at the time
of the call, that is a factor for you to consider in determining whether the officers could dispense with
the warrant requirement. Did the call direct police to
a different location than that from which the call was
placed? If the caller was not present at the location
to which she was calling police to, that is a factor you
may consider in determining whether the officers
could dispense with the warrant requirement. Did
the caller express an immediate concern to herself to
the police or to someone else? If the caller expressed
a concern about someone else, as is the case here,
that is a factor you may consider when determining
whether the officers could dispense with the warrant
requirement. (See, Anthony v City of NY, 339 F3d
129, 136-137 [2d Cir 2003].)
Finally, the level of corroboration of the call is a
factor for you to consider in determining whether the
officers were permitted to dispense with the warrant
requirement. Were there signs or objective proof that
child abuse was occurring when the officers arrived

67
at the plaintiff’s apartment? For example, was there
any objective activity existing at the apartment
which the officers could observe prior to forcing their
way into the apartment? If there was no corroboration of the content of the call made to police, this is
another factor for you to consider in determining
whether the officers were permitted to dispense with
the warrant requirement.
[T]he burden is on Defendants to demonstrate exigent circumstances that overcome the presumption
of unreasonableness that attaches to all warrantless
home entries.” Welsh v. Wisconsin, 466 U.S. 740, 750,
104 S. Ct. 2091, 80 L. Ed. 2d 732 (1984). (Burns v
Vil. Of Crestwood, 2016 US Dist LEXIS 32014, at *24
[ND Ill Mar. 14, 2016, No. 12-cv-484].)
Request Number 5
False Arrest
Plaintiff Larry Thompson asserts that he was
falsely arrested by Defendant Police Officers Clark,
Montefusco, Bouwmans and Romano. The Fourth
Amendment forbids the police from arresting and detaining someone without probable cause. A false arrest occurs if a police officer intentionally confines a
person without that person’s consent, unless the police officer has probable cause to do so. Thus, under
the United States Constitution, a person may not be
arrested without probable cause for such an arrest.
Because of the absence of a warrant for the plaintiff’s arrest, in this particular instance, the burden is
upon the defendants—not the Plaintiff—to establish
that they had probable cause to arrest the plaintiff.
In other words, the defendants, not the plaintiffs,
have the burden of proof on the element of probable
cause. Thus, the defendants must prove by a prepon-

68
derance of the evidence that they arrested the plaintiff with probable cause.
“Probable cause” means that a police officer must
have information that would lead a reasonable person who possesses the same official expertise as the
officer to conclude that the person being arrested has
committed or is about to commit a crime. Thus, the
question is not what the officers in this case actually
believed; the question is whether a reasonable, competent, and prudent police officer would have had
“knowledge of reasonably trustworthy information of
facts and circumstances that are sufficient to warrant a person of reasonable caution in the belief that
the person to be arrested has committed or is committing a crime.” Probable cause requires only the
probability that the person arrested in engaged in
criminal activity, it does not require an actual showing of criminal activity. However, a mere possibility
that the person has committed a crime is not enough.
The hunch, guess, conjecture, or surmise of an officer
is not enough to create probable cause. There must
be enough actual evidence to reasonably lead to the
conclusion that the suspect has committed a crime.
The existence of probable cause is measured as of the
moment of the arrest.
In this case, Larry Thompson was arrested for
and charged with the following: assault in the third
degree under the Penal Law of the State of New
York, § 195.05 Obstruction of Governmental Administration in the Second Degree and Penal Law Section 205.30 Resisting Arrest. The probable cause to
arrest Thompson for obstructing governmental
administration rests on whether defendants had lawful reason to enter his apartment. New York Penal
Law Section 195.05 states:

69
A person is guilty of obstructing governmental administration when he intentionally obstructs, impairs or perverts the administration of law or other
governmental function or prevents or attempts to prevent a public servant from
performing an official function, by
means of intimidation, physical force or
interference, or by means of any independently unlawful act, or by means of
interfering . . .
NYPL 195.05 (emphasis added).
Officers must be engaged in lawful conduct to arrest
a defendant for obstruction. People v. Sumter, 151
A.D.3d 556, 557, 58 N.Y.S.3d 304 (N.Y. App. Div.
2017) (“[A] defendant may not be convicted of obstructing governmental administration or interfering
with an officer in the performance of an official function unless it is established that the police were engaged in authorized conduct.”). If they were not lawfully able to enter the home, then plaintiff committed
no crime by obstructing their path. See Lennon, 66
F.3d 416, 424 (2d Cir. 1995) (finding probable cause
to arrest a woman for obstructing governmental administration who refused to comply with a lawful police order to exit her vehicle). If the obstruction arrest lacked probable cause, then the resisting arrest
charge was also improper. People v. Alejandro, 70
N.Y.2d 133, 135, 511 N.E.2d 71, 517 N.Y.S.2d 927
(1987) (“It is an essential element of the crime of resisting arrest that the arrest be authorized and, absent proof that the arresting officer had a warrant or
probable cause to arrest defendant for commission of
some offense, a conviction cannot stand.”). (Thomp-

70
son v Clark, 2018 US Dist LEXIS 105225, at *37
[EDNY June 11, 2018, No. 14-CV- 7349].)
Although plaintiff was charged with resisting arrest, you should not consider probable cause for resisting arrest as a basis for probable cause. Probable
cause for resisting arrest only applies if there is
probable cause for some other crime.
If you find that the defendants have not established that the defendant officers had probable cause
to arrest the plaintiff, you must find the defendants
liable for a violation of the plaintiff’s constitutional
rights. However, if you find that the defendant officers had probable cause to arrest plaintiff, you must
find for defendants.
Authority:

Generally, Sand, Siffert, Loughlin,
Reiss, Allen and Rakoff, Modern Federal Jury Instructions (2012), Volume 5
(Civil), ¶ 87.03, Instruction 87-74A; M.
Avery, et al., Police Misconduct; Law
and Litigation, (2006) § 12:13; Jaely v.
Couch, 439 F. 3rd 149, 152 (2d Cir.
10006), quoting Weyant v. Okst, 101 F.
3rd 845, 852 (2nd Cir. 1996); Dickerson
v. Napolitano, 604 F.3d 732, 751 (2d
Cir. 2010) (“When an arrest is not made
pursuant to a judicial warrant, the defendant in a false arrest case bears the
burden of proving probable cause as an
affirmative defense.” (Citing Broughton
v. State, 37 N.Y.2d 451, 458 (1975)).

71
Request Number 6
Excessive Force
In this case, plaintiff also claims that he suffered
the loss of his federal right to be free from the use of
excessive force when defendants used force upon him
in his home.
The plaintiff claims that the defendants’ conduct
violated his rights under the Fourth Amendment to
the United States Constitution.
The Fourth
Amendment to the United States Constitution protects persons from being subject to excessive force.
Every person has the constitutional right to be free
from the unreasonable seizure of his person by law
enforcement agents, and from the unreasonable use
of force during both reasonable and unreasonable
seizures. Under the Fourth Amendment, a law enforcement official may only employ the amount of
force necessary under the circumstances to effectuate
a seizure.
You first must determine whether the defendants
committed the alleged acts.
Then, to determine whether the acts caused the
plaintiff to suffer the loss of a federal right protected
by the Fourth Amendment, you must determine
whether the amount of force used was that which a
reasonable officer would have employed in under
similar circumstances. In making this determination, you may take into account whether the plaintiff
had committed any crime and the severity of the
crime at issue, if any; whether the plaintiff posed an
immediate threat of death or serious bodily injury to
the defendants or others; and whether the plaintiff
actively resisted arrest or attempted to evade arrest
by flight.

72
The use of force by police officers is not reasonable under the Constitution if there is no need for
force. It is unreasonable and a violation of the Fourth
Amendment for a police officer to use physical force
on a person who has been arrested and restrained,
who is securely under the control of the police, and
who is not attempting to escape.
In determining whether defendants used excessive force, you may consider, among other factors:
1. The extent of the injury suffered by plaintiff;
2. The need for the application of force;
3. The relationship between the need and the
amount of force use;
4. The threat of serious bodily injury or death, if
any, reasonably perceived by the defendants; and
5. Any efforts made to temper the severity of a forceful response, including the alternate means of
seizure available.
If you find that the amount of force used was
greater than an objectively reasonable police officer
would have employed, the plaintiff will have established the claim of loss of a federal right protected by
the Fourth Amendment.
Authority:

Adapted from 5 L. Sand, et al., Modern
Federal Jury Instructions at 87-74C; M.
Avery, et al., Police Misconduct: Law
and Litigation, Third Edition, § 12:10,
12:11, 12:23; Graham v. Connor, 490
U.S. 386, 396 (1989).

73
Request Number 7
Failure to Intervene
Plaintiff claims that the defendant officers failed
to intervene on his behalf to prevent violations of his
constitutional rights. Here, plaintiff claims violations
of his to be free from excessive force, unlawful entry,
false arrest and malicious prosecution. I instruct you
that law enforcement officials have a duty to protect
the constitutional rights from infringement by other
law enforcement officials in their presence. In this
instance, an officer who fails to intercede is liable for
preventable harm caused by the actions of another
officer or officers if that officer either observes or has
reason to know that a citizen is being subjected to
constitutional violations. However, before an officer
can be held liable for failing to intervene to prevent
the harm from occurring, you must find that there
was a reasonable opportunity to do so – that is, that
he or she had sufficient time to intercede and a capability to prevent the harm.
For plaintiff to succeed on his failure to intervene
claim against defendants, plaintiff must prove by a
preponderance of the evidence all four of the following elements: (1) that Mr. Thompson was subjected
to a constitutional violation; (2) that a defendant officer knew that the constitutional violation was occurring; (3) that the defendant officer had a “realistic
opportunity to intervene,” as I described that phrase;
and (4) that the defendant officer did not intervene.
If you find that one or more defendant officers
were liable for any injuries that you conclude were a
proximate result of his or her failure to intervene,
you must find for Mr. Thompson. If you find that
plaintiff has not proved any of these four elements

74
with respect to a defendant officer, then your verdict
will be for that defendant.
Authority:

O’Neill v. Krzeminski, 839 F.2d 9, 11 (2d
Cir. 1988); Jean-Laurent v. Wilkinson,
540 F. Supp. 2d 501, 512 (S.D.N.Y
2008).
Request Number 8
Malicious Prosecution

In this case, plaintiff also claims that he suffered
the loss of his federal to be free from malicious prosecution. In order prove a claim of malicious prosecution, the plaintiff must show five things: (1) a deprivation of liberty within the meaning of the Fourth
Amendment; (2) the initiation of a proceeding
against the plaintiff; (3) termination of the proceedings in the plaintiff’s favor; (4) lack of probable cause
to believe that the criminal prosecution would be
successful; and (5) malice. The plaintiff need also
prove a deprivation of liberty within the meaning of
the Fourth Amendment.
In this case, the parties agree that the plaintiff
was arrested, charged with obstruction and resisting
arrest, confined for more 39 hours after his arrest,
required to appear in court on several occasions after
arraignment, and that the case against the plaintiff
was ultimately dismissed on a motion of the District
Attorney on April 9, 2014. The plaintiff has therefore
proven a deprivation of liberty within the meaning of
the Fourth Amendment, the initiation of proceedings
against plaintiff, and termination of the proceedings
in the plaintiff’s favor. I therefore instruct you that
as a matter of law the plaintiff has proven the first
three elements of malicious prosecution, and you
need not consider them further.

75
In regards to plaintiff’s malicious prosecution
claim, you need only consider two things: whether
there was probable cause to believe that the criminal
prosecution would be successful, and whether any
officers acted maliciously. Central to your analysis is
whether probable cause existed at the time plaintiff
was prosecuted, i.e when he first appeared in Court
and was arraigned. Please note this is different from
the probable cause analysis for false arrest which
judges whether there was probable cause at the time
of the initial arrest. These inquiries are similar, but
judged at different times. (Mejia v City of NY, 119 F
Supp 2d 232, 254 [EDNY 2000].)
In this case, the defendant officers charged Larry
Thompson with obstruction of governmental administration and resisting arrest.
The question is
whether the defendants had information at the time
of the commencement of the criminal case, i.e the arraignment, that would lead a reasonably prudent
person to conclude that Larry Thompson would be
successfully prosecuted for obstruction of governmental administration. (Posr v Ct. Officer Shield #
207, 180 F3d 409, 417 [2d Cir 1999].) The fact that
the defendants personally believed that the plaintiff
was guilty is not enough if a reasonably prudent person would not have believed that to be so.
You also must decide whether the defendant officers acted with malice. A lack of probable cause
generally creates an inference of malice; therefore, if
you find that the officers did not have probable cause
you may infer that the officers acted with malice.
Malice also exists if the prosecution of the plaintiff
was undertaken for improper or wrongful motives, or
in reckless disregard of the rights of the plaintiff.
Malice may be proven by showing that the defend-

76
ants had a wrong or improper motive, something
other than a desire to see the ends of justice served.
If you determine by a preponderance of the evidence that the defendants prosecuted Larry Thompson without probable cause to believe that the prosecution would succeed and with malice, you must find
the defendants liable for a violation of the plaintiff’s
constitutional right to be free from a malicious prosecution.
Authority:

Adapted from 5 L. Sand, et al., Modern
Federal Jury Instructions at 87-74E;
Boyd v. City of New York, 336 F.3d 72,
76 (2d Cir. 2003); Kent v. Thomas, 2012
U.S. App. LEXIS 4458 (2d Cir. N.Y.
Mar. 5, 2012); Manganiello v. City of
New York, 612 F.3d 149, 160-161; 163164 (2d Cir. N.Y. 2010); NYPJI 3:5
Request Number 9
Denial of Fair Trial

Plaintiff Larry Thompson claims that defendant
Clark violated what is called the right to a fair trial.
“When a police officer creates false information likely
to influence a jury’s decision and forwards that information to prosecutors, he violates the accused’s
constitutional right to a fair trial.” Ricciuti v. New
York City Transit Auth., 124 F.3d 123, 130 (2d Cir.
1997).
I further instruct you that although the legal
name for the plaintiff’s claim is “the denial of the
right to a fair trial,” the claim does not actually require that a plaintiff actually go to trial in order to
prevail thereon.

77
Moreover, unlike the plaintiff’s false arrest and
malicious prosecution claims, probable cause is not a
defense to a denial of fair trial claim. In other words,
whether or not probable cause existed to arrest or
prosecute Mr. Thompson is irrelevant to your determination of this claim.
In this case, the plaintiff alleges that defendant
Clarke created false information concerning whether
plaintiff attacked or pushed an officer. In addition,
plaintiff alleges that while Clarke alleged that he
warned plaintiff that he would be arrested if he did
not comply with the officers’ demands, in fact Clark
did not warn plaintiff.
If you determine by a preponderance of the evidence that defendant Clark’s statements to the District Attorney’s office and in the Criminal Court
Complaint were false and that this false information
would have been likely to influence a jury’s decision,
you must find defendant Clark liable for a violation
of the plaintiff’s Constitutional right to a fair trial. If,
on the other hand, you determine that plaintiff has
failed to satisfy these elements, then your verdict
must be for defendant on this claim.
Authority:

Ricciuti v. N.Y.C. Transit Auth., 124
F.3d 123, 128 (2d Cir. 1997); Nibbs v.
City of New York, 800 F.Supp.2d 574,
575-76 (S.D.N.Y. 2011); Bertuglia v.
City of New York, 839 F.Supp.2d 703,
724 (S.D.N.Y. 2012). For a discussion of
probable cause not being a defense, see
Morse v. Spitzer, 2012 WL 3202963
(E.D.N.Y.)
***

78
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed December 27, 2018]
LARRY THOMPSON,
Plaintiff,

DRAFT JURY
CHARGE AND
VERDICT SHEET

– against –

Police Officer PAGIEL CLARK,
Shield #28742; Police Officer
PAUL MONTEFUSCO, Shield
14-CV-7349
#10580; Police Officer GERARD
BOUWMANS, Shield #2102;
Police Officer PHILLIP
ROMANO, Shield #6295,
Defendants.

JACK B. WEINSTEIN, Senior District Judge:
***
III. SECTION 1983: ELEMENTS OF CLAIM
FOR RELIEF
Plaintiff asserts claims pursuant to 42 U.S.C. §
1983. Section 1983 provides a remedy for individuals
who have been deprived of rights, privileges and
immunities that are secured by the Constitution and
federal law. It states:
Every person who, under color of any statute, ordinance, regulation, custom or usage
of any State . . . subjects or causes to be
subjected, any [person] . . . to the deprivation of any rights, privileges or immunities
secured by the Constitution and laws, shall
be liable to the party injured. . . .

79
To establish a claim against a defendant under
Section 1983, plaintiff must prove by the preponderance of the evidence:
First, that the conduct complained of was committed by a person or persons acting under color of
state law;
Second, that this conduct deprived the plaintiff of
a right, privilege or immunity secured by the Constitution or laws of the United States; and
Third, that the defendant’s acts were the proximate cause of injuries and damages sustained by the
plaintiff.
I will now discuss each of the three elements.
A. Color of State Law
The first element requires plaintiff to prove that
a defendant was acting under color of law. Defendants, as members of the New York City Police Department, were acting under color of state law. This
element is deemed proven.
B. Deprivation of a Constitutional Right
Plaintiff must show that he was intentionally or
recklessly deprived of a constitutional right by a defendant. This means that plaintiff must show, by a
preponderance of the evidence, that: (a) defendant
committed the acts alleged by plaintiff; (b) in performing the acts alleged, the defendant acted intentionally or recklessly; and (c) the alleged acts caused
plaintiff to suffer the loss of a constitutional right.

80
i.

Commission of alleged acts

You must determine whether the plaintiff proved
by the preponderance of the evidence that plaintiff
committed the violation alleged by the plaintiff.
ii.

Intent

Plaintiff must prove by a preponderance of the
evidence that the defendant acted intentionally or
recklessly, rather than accidentally. An act is intentional if it is done knowingly, that is, if it is done
voluntarily and deliberately, and not because of mistake, accident, negligence, or other innocent reason.
An act is reckless if it is done in conscious disregard
of its known probable consequences.
iii. Loss of a Constitutional Right
If you determine that the defendant intentionally
or recklessly committed an act as alleged by the
plaintiff, you must determine by a preponderance of
the evidence that-the act proximately caused the
plaintiff to suffer the loss of a constitutional right.
I discuss this issue in more detail in Section IV
below.
C. Proximate Cause
Plaintiff must prove that a defendant’s unlawful
conduct was the proximate cause of any injury sustained by plaintiff. Consider this factor in connection with damages, if any.
There can be more than one proximate cause. An
act or failure to act is a proximate cause of an injury
if it was a substantial factor in bringing it about, or
if the injury was a reasonably foreseeable consequence of the act. To recover damages, plaintiff has
the burden of proving that he suffered an injury and

81
that the injury would not have occurred without the
conduct of a defendant.
IV. CONSTITUTIONAL RIGHTS CLAIMED TO
HAVE BEEN VIOLATED
Plaintiff has brought the following claims: (A) unlawful entry against Officers Bouwmans, Romano,
Clark, and Montefusco; (B) false arrest against Officers Bouwmans, Romano, Clark, and Montefusco;
(C) excessive force against Officers Bouwmans, Romano, Clark, and Montefusco; (D) malicious prosecution against Officer Clark; (E) denial of the right to a
fair trial against Officer Clark; and (F) failure to intervene against Officers Bouwmans, Romano, Clark,
and Montefusco. Each defendant’s liability, if any,
must be considered separately.
I will now turn to each of these claims.
A. Unlawful Entry
i.

Generally

The plaintiff alleges that each of the defendants
unlawfully entered his apartment on January 15,
2014. Defendants contend that their entry was lawful because exigent circumstances justified the
search-specifically, that they were justified in breaking in because there was an urgent need to render
emergency aid to a child.
The Fourth Amendment to the Constitution of
the United States guarantees individuals the right
to be secure in their homes. The right to be free from
unreasonable government intrusion in one’s own
home is at the core of the Fourth Amendment’s protection. Warrantless searches of a person’s home are
presumed to be unreasonable unless an exception

82
exists. One exception to the warrant requirement is
the presence of exigent circumstances.
Plaintiff has the burden of proving that the police
officers were not permitted to enter his apartment
without a warrant because of exigency.
ii.

Exigent Circumstances

Exigent circumstances allow entry without a
warrant. Exigent circumstances exist when the situation observed by a reasonable police officer is so
compelling that an immediate warrantless search is
objectively reasonable. Police officers may enter a
dwelling without a warrant to render emergency aid
and assistance to a person whom they reasonably
believe to be in distress and in need of that immediate assistance. Police officers may enter a home
without a warrant to prevent ongoing harm, to render emergency aid to an injured occupant, or to protect an occupant from imminent injury.
Reasonableness is central to the act of a police officer faced with a decision. In determining whether
the officers’ belief concerning the need to render
prompt emergency aid was reasonable, consider the
circumstances then confronting the officers, including the need for a prompt assessment of sometimes
ambiguous information concerning serious consequences.
Reasonableness must be judged from the perspective of a reasonable officer coming on the scene,
rather than with the 20/20 vision of hindsight.
Whether there was in fact an actual need to render
emergency aid to a child is irrelevant. A call to a 911
operator plus other evidence of danger to a child can
provide the exigent circumstances necessary to justi-

83
fy a warrantless entry into an individual’s residence
despite the occupant’s objection.
In the context of possible child abuse, the state
has a strong interest in the welfare of the child, particularly in his or her being sheltered from abuse. A
police officer must have an objectively reasonable
basis to believe that danger to the child is imminent.
Anonymous or uncorroborated 911 calls do not
alone justify the warrantless entry of a home. But,
the officers can depend on corroboration as to what
they saw and heard when they arrived at the scene
and that they arrived at the right place as a result of
the 911 call.
If you find that it was reasonable under the circumstances for an officer to believe that there was
an urgent need to prevent ongoing harm to the child
or to provide immediate aid to the child, then a defendant’s entry was lawful, and you must find for
the defendant. If you find that exigent circumstances
did not exist, then the defendant’s entry was unlawful, and you must find for the plaintiff.
B. False Arrest
Plaintiff claims that he was falsely arrested by
defendant Police Officers Bouwmans, Romano,
Clark, and Montefusco on January 15, 2014. Defendants deny this claim.
A person is falsely arrested if he is arrested without probable cause.
A defendant’s arrest of the plaintiff is lawful if
the defendant had probable cause to arrest the
plaintiff for some crime. Because of the absence of a
warrant for the plaintiff s arrest, the burden is upon

84
a defendant–not the plaintiff–to establish that he
had probable cause to arrest the plaintiff.
Probable cause exists when, based on the totality
of circumstances, an officer has knowledge of, or reasonably trustworthy information as to, facts and circumstances that are sufficient to warrant a police
officer of reasonable caution to believe that an offense has been or is being committed by the person
arrested. Whether probable cause existed depends
upon the reasonable conclusions to be drawn from
the facts known to the defendant at the time of the
arrest of the plaintiff. Do not view the question of
probable cause from a position of calm, reflective
hindsight, but from the position of how the circumstances would have appeared to the officer at the
time.
Probable cause requires only the probability of
criminal activity. It does not require an actual showing of criminal activity. The arrestee’s actual guilt or
innocence is irrelevant to the determination of probable cause. An arrest made with probable cause is
lawful even if the plaintiff actually did not commit a
crime. An officer need not have been convinced beyond a reasonable doubt that a criminal offense was
being, had been, or is about to be committed. The ultimate disposition of the criminal charge against the
plaintiff is irrelevant to this question.
The test is one of objective information, not of
subjective malice. Because the existence of probable
cause is analyzed from the perspective of a reasonable police officer standing in the officer’s shoes, the
actual subjective beliefs of the officer are irrelevant
to the determination of probable cause. Once a police officer has a reasonable basis to believe there is

85
probable cause to arrest, the officer is not required
to explore or eliminate every plausible claim of innocence before making an arrest.
When an officer possesses facts sufficient to establish probable cause, he is neither required nor
allowed to sit as prosecutor, judge or jury. It does
not matter that a further investigation might have
cast doubt upon the basis for the arrest. The police
are not obligated to pursue every lead that may yield
evidence beneficial to the accused, even though they
had knowledge of the lead and the capacity to investigate it. Their function is to apprehend those suspected of wrongdoing, and not to finally determine
guilt through the weighing of the evidence. Probable
cause can exist even where it is based on mistaken
information, so long as the arresting officer acted
reasonably and in good faith in relying on that information.
It is not necessary that the officer had probable
cause to arrest the plaintiff for the offense with
which he eventually charged the plaintiff, so long as
the officer had probable cause to arrest the plaintiff
for any criminal offense. An arrest made with probable cause for any offense–whether charged or not-is
lawful. The officer making the arrest does not need
to charge the proper crime ultimately found applicable.
The law recognizes what is called the fellow officer rule. Under the fellow officer rule, an arrest by
an officer who himself lacks probable cause to make
the arrest is lawful as long as other officers involved
in the investigation have sufficient information to
form the basis for probable cause. Modem police
work can be complex. Officers often do not work

86
alone. Not every officer can always be aware of every aspect of an investigation. In determining whether there is a legal basis for an arrest—in other
words, probable cause—the law looks to the information known to all law enforcement authorities
who are cooperating in an investigation. The
knowledge of each of the officers is presumed
knowledge to all.
The existence of probable cause is measured as of
the moment of arrest. Whether charges were ultimately dropped, or whether the plaintiff was acquitted or convicted of a crime, is irrelevant to the issue
of false arrest.
Defendants contend that there was probable
cause to arrest the plaintiff for:
(1) Obstructing governmental administration in
the second degree. A person is guilty of obstructing
governmental
administration
when he intentionally obstructs, impairs or
perverts the administration of law or other
governmental function or prevents or attempts to prevent a public servant from performing an official function by means of intimidation, physical force or interference, or
by means of any independently unlawful act,
or by means of interfering.
(2) Obstructing emergency medical services. A
person is guilty of obstructing emergency
medical services when he or she intentionally and unreasonably obstructs the efforts of
any emergency medical technician in the
performance of duties.

87
(3) Endangering the welfare of a child. A person
is guilty of endangering the welfare of a
child when he or she knowingly acts in a
manner likely to be injurious to the physical,
mental or moral welfare of a child less than
seventeen years old.
The probable cause to arrest plaintiff for obstructing governmental administration initially
rests on whether a defendant had lawful reason to
enter his apartment. Officers must be engaged in
lawful conduct to arrest a person for obstruction. If
the officers were not lawfully able to enter the home
because of exigency, then there was no probable
cause to arrest plaintiff for obstruction. If they were
lawfully able to enter the home because of exigency
of circumstances, you must determine whether the
defense has proven that there was probable cause to
arrest the plaintiff for obstruction.
If you find that probable cause existed for any
one of the crimes I have defined, then you must find
in favor of the defendant with respect to the plaintiff’s false arrest claim. You do not need to be unanimous as to which crime you find constituted the basis for probable cause, only that you are unanimous
that probable cause existed based on some crime.
If you determine that there was no probable
cause for plaintiff s arrest, then you must find in favor of the plaintiff with respect to his false arrest
claim.
To hold a defendant liable for false arrest, the
plaintiff must prove that the defendant was personally involved in the arrest. Personal involvement
may be established if a defendant participated in an

88
agreement with another officer or officers, express or
implied, to procure or help arrest the plaintiff.
C. Excessive Force
Plaintiff claims defendants violated the Fourth
Amendment by using excessive force in entering and
making the arrest on January 15, 2014. The Constitution prohibits the use of unreasonable or excessive
force while making an arrest, even when the arrest
is otherwise proper.
Plaintiff has the burden to prove that a defendant used excessive force.
A police officer may only employ the amount of
force reasonably necessary under the circumstances.
To determine whether the force used was reasonable
under the Fourth Amendment, you must determine
whether the amount of force used was that which a
reasonable police officer would have employed under
similar circumstances.
Carefully balance the nature and quality of the
intrusion on plaintiff s right to be protected from excessive force against a police officer’s necessity to
use some degree of physical coercion or threat of coercion to make an arrest. In making this determination, you may take into account such factors as the
severity of the crime at issue, the extent of the injury suffered by plaintiff, whether plaintiff posed an
immediate threat to the safety of a defendant or others, or whether plaintiff actively resisted arrest.
You do not have to determine whether a defendant had less intrusive alternatives available. A defendant need only to have acted within that range of
conduct you find was reasonable.

89
Not every push or shove, even if it may later
seem unnecessary in hindsight, violates the Fourth
Amendment. Unintended minor scrapes, bumps, or
bruises potentially can occur when properly taking a
person into custody.
The reasonableness of a particular use of force is
based on what a reasonable officer would do under
the circumstances and not on a defendant’s state of
mind. You must decide whether a reasonable officer
on the scene would view the force as reasonable
without the benefit of hindsight.
If you find that the amount of force used against
any plaintiff was greater than a reasonable officer
would have employed under the circumstances,
plaintiff will have established the claim of loss of a
constitutional right. If he has not established this,
he has not violated plaintiff s rights.
D. Malicious Prosecution
The plaintiff claims that defendant Pagiel Clark
maliciously commenced a criminal proceeding
against him. The defendant denies he is liable.
In order to establish a claim of malicious prosecution, the plaintiff must prove by a preponderance of
the evidence the following elements: (1) the defendant initiated a criminal proceeding against plaintiff,
(2) the criminal proceeding terminated in plaintiff s
favor, (3) there was no probable cause for the commencement of the criminal proceeding, (4) the proceeding was motivated by actual malice and, (5) a
post-arraignment liberty restraint. I will now describe these elements in more detail.
A defendant may be said to have initiated a criminal prosecution if (a) the defendant directed or re-

90
quired or helped a prosecutor to prosecute, (b) gave
the prosecutor, directly or indirectly, such as
through the filing of a felony or misdemeanor complaint, information which the defendant knew to be
false, or (c) withheld information that a reasonable
person would realize might affect the prosecutor’s
determination whether to prosecute.
The Assistant District Attorneys are not defendants with respect to this claim and the defendant
may not be held responsible for the actions of the
Assistant District Attorney. If you find that an Assistant District Attorney—and not the defendant—
caused the initiation of the prosecution of the plaintiff, you must find for the defendant.
The next element is whether the plaintiff has
proved, by a preponderance of the evidence, that the
criminal proceeding terminated in his favor. Plaintiff must prove that the criminal proceeding terminated in a manner indicative of his innocence. A
dismissal “in the interests of justice” does not necessarily provide the favorable termination required as
the basis for a claim of malicious prosecution. Without going into the details of how state prosecutions
are ended, you can assume the prosecution found
plaintiff s guilt could not be proved beyond a reasonable doubt and that he could be therefore considered
innocent. Assume for this civil case that this element has been established in favor of the plaintiff.
A person is deemed innocent until proven guilty beyond a reasonable doubt.
The next element is whether the plaintiff has
proven, by a preponderance of the evidence, that defendant lacked probable cause to believe that plaintiff was guilty of a crime. Previously, I explained the

91
concept of probable cause and the charges made
against the plaintiff. If you determine that there
was probable cause to arrest the plaintiff, then you
must conclude that there was probable cause for the
criminal prosecution and your verdict must be for
the defendant. Alternatively, if you determine that
there was no probable cause for plaintiff’s arrest,
then you must conclude that there was no probable
cause for the criminal prosecution and you must find
that this second element has been satisfied.
The next element plaintiff must prove by a preponderance of the evidence is that the defendant
acted with malice. A prosecution is initiated maliciously if it is done for a purpose other than bringing
an offender to justice, or out of ill will or in reckless
disregard of the rights of the person accused. Malice
may be inferred from a lack of probable cause.
The last element the plaintiff must prove by a
preponderance of the credible evidence is that he incurred a post-arraignment deprivation of liberty as a
result of actions taken by the defendant and not for
other reasons. This element is deemed proven.
E. Denial of the Right to a Fair Trial
Plaintiff alleges that he was denied the right to a
fair trial by defendant Pagiel Clark, who plaintiff
alleges fabricated evidence of a material nature
against him. Defendant denies this.
In order for you to find that plaintiff s constitutional right to a fair trial was violated by the defendant, plaintiff must prove the following elements
by a preponderance of the evidence: (1) the defendant fabricated evidence that: (2) is likely to influence
a jury’s decision; (3) provided that information to

92
prosecutors knowing it is false; and (4) the plaintiff
suffered a deprivation of liberty as a result of this
violation.
Probable cause is not a defense to this claim.
In this case, plaintiff alleges that defendant
Clark created false evidence concerning whether
plaintiff attacked or pushed an officer. In addition,
plaintiff alleges that Clark fabricated evidence that
he warned plaintiff that he would be arrested if he
did not comply with the officers’ demands, when in
fact Clark did not give plaintiff this warning.
The fabrication of false evidence, in and of itself,
does not impair anyone’s liberty, and therefore does
not impair anyone’s constitutional right. In order to
find for plaintiff, you must find that the fabricated
evidence was of a material nature and was the proximate cause of the deprivation of plaintiff s liberty.
The alleged fabrication must be both material (i.e.,
likely to influence a jury’s decision), and the proximate cause of the injury to plaintiff s liberty interest
(i.e., that he suffered a deprivation of liberty as a result of the alleged fabrication of evidence).
Paperwork errors, or a mere mistake, or mistakes, by a police officer in making a written record
is not a basis for finding a constitutional violation.
An officer’s own opinions, conclusions or qualitative
assessments are not a basis for finding a constitutional violation.
F. Failure to Intervene
Plaintiff claims that defendants Bouwmans, Romano, Clark, and Montefusco failed to intervene on
his behalf to prevent violations of his constitutional
rights. You may only consider plaintiff’s failure to

93
intervene claim against a defendant if you determine that plaintiff has proven by a preponderance of
the evidence that he was subjected to excessive
force, unlawful entry, false arrest, or malicious prosecution.
Police officials have an affirmative reasonable
duty to intervene to protect the constitutional rights
of citizens from infringement by other law enforcement officials in their presence. An officer or supervisor who fails to intercede is liable for the preventable harm caused by the actions of another officer if
that officer either observes or has reason to know
that a constitutional violation has occurred or is occurring. Before an officer or supervisor can be held
liable for failure to intervene, you must find that the
officer or supervisor had a realistic opportunity to
prevent the harm from occurring, that is, that he
had sufficient time to intercede and a capability to
prevent the harm.
Before you can hold a defendant liable, you must
conclude that the plaintiff has proved the following
elements by a preponderance of the evidence:
First: that a defendant subjected plaintiff to an
unlawful act;
Second: that another defendant observed those
actions and knew they were unlawful;
Third: that the observing defendant had a realistic opportunity to intervene, as I have just described
that phrase; and
Fourth: that the defendant failed to take reasonable steps to prevent the violations of the plaintiff s
constitutional rights.

94
This duty only arises if the police officers in question had a real opportunity to intervene to prevent
the violation from occurring. Mere inattention or inadvertence by a law enforcement officer does not rise
to the level of intentional conduct necessary to support liability for a failure to intervene.
If a defendant is held liable for direct participation in the underlying constitutional violation, he
cannot also be held liable for failure to intervene.
***

95
[203] UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
LARRY THOMPSON,
Plaintiff,
– versus –
THE CITY OF NEW
YORK, et al,
Defendant.

14 CV 7349(JBW)
United States
Courthouse
Brooklyn, New York
Thursday, January 24,
2019
8:30 a. m.

TRANSCRIPT OF CIVIL CAUSE FOR JURY TRIAL
BEFORE THE HONORABLE JACK WEINSTEIN
UNITED STATES DISTRICT JUDGE
APPEARANCES
For the Plaintiff:
CARY LONDON, ESQ.
Attorney for the Plaintiff—Larry Thompson
30 Broad Street, Suite 702
New York, New York 10004
DAVID ZELMAN, ESQ.
Attorney for the Plaintiff—Larry Thompson
612 Eastern Parkway
Brooklyn, New York 11225
For the Defendants:
NEW YORK CITY LAW DEPARTMENT
OFFICE OF THE CORPORATION COUNSEL
For the Defendants—The City of New York, et al.
100 Church Street, Room 3-208
New York, New York 10007
BY: PHILIP DEPAUL, ESQ.
KAVIN THADANI, ESQ.
Court Reporter:
Anthony D. Frisolone, FAPR, RDR, CCR, CRI
Official Court Reporter
Telephone: 718-613-2487
Fax: 718-613-2694
Email: Anthony_Frisolone@nyed.uscourts.gov

96
***
[205] (In open court; jury not present.)
COURTROOM DEPUTY: All rise. The United States
District Court for the Eastern District of New York is
now in session. The Honorable Jack B. Weinstein is
now presiding.
(Honorable Jack B. Weinstein takes the bench.)
COURTROOM DEPUTY: Calling criminal cause for
jury trial in Docket No. 14-CV-7349, Larry Thompson
against The City of New York, et al.. Counsel, please
note your appearances for the record.
MR. LONDON: For the plaintiff, Larry Thompson,
Cary London and David Zelman. Good morning, your
Honor.
MR. DePAUL: For the defendants, New York City
Law Department by Philip R. DePaul and Kavin
Thadani. Good morning, your Honor.
THE COURT: Sit down, please. Counsel were ordered
to be here at 8:30.
COURTROOM DEPUTY: One is here, Judge. He may
have stepped to the mens room, but Mr. Zelman isn’t
present.
THE COURT: Defense counsel and defendants are
here in court at 8:30.
MR. DePAUL: Your Honor, pursuant to your request,
Ms. Renate Lunn is waiting outside. I can bring her in
or have her wait outside.
[206] THE COURT: Bring her in.
MR. LONDON: Do you want her in the back or sit
here.

97
THE COURT: We’re going to put her on immediately.
Madam, would you mind taking the seat here.
(Witness takes the witness stand.)
THE COURT: As I understand the Second Circuit
rules, a statement by the Court, state court, or the
state prosecution counsel that the case is being dismissed in the interest of justice is not in and of itself
sufficient to show that it was dismissed on the merits.
A bad rule, in my opinion, because it allows the district attorney, in effect, to foreclose any further claim
on the case. But I will take any scintilla or more of
evidence that it was on the merits. Who have the
plaintiffs called?
MR. LONDON: Renate Lunn.
THE COURT: Who was?
MR. LONDON: The Legal Aid attorney for Mr. Larry
Thompson, the plaintiff.
THE COURT: Swear the witness, please.
COURTROOM DEPUTY: Please stand and raise your
right hand.
RENATE LUNN, called by the Plaintiff, having been
first duly sworn, was examined and testified as follows:
THE WITNESS: Yes.
[207] COURTROOM DEPUTY: Please state your
name.
THE WITNESS: Renate Lunn.
THE COURT: Proceed.
MR. LONDON: I didn’t realize you wanted me to.
Okay.

98
DIRECT EXAMINATION
BY MR. LONDON:
Q Ms. Lunn, I bring your attention to January 15th of
2014 where were you employed?
A Legal Aid Society in New York City.
Q Did there come a time when you represented a gentleman named Larry Thompson?
A Yes.
Q Do you remember what Larry Thompson was
charged with?
A I’d have to refresh from my recollection by looking
at the complaint, but I believe it was obstructing governmental administration, resisting rest.
Q Were you the assigned attorney for Legal Aid Society for his case?
A Yes.
Q Did he plead guilty or was his case dismissed?
A His case was dismissed.
Q Did you file a motion under the interest of justice to
have the case dismissed?
A No.
[208] Q Did you—in your legal opinion, can you just
tell us what happened when you went to court with
this case for the best of your recollection?
A The first time it was on, I think the prosecution provided discovery. It was adjourned—well, after arraignment, it was adjourned for discovery, we received
some discovery. And then, after that, the next court
date it was dismissed.

99
DIRECT EXAMINATION
BY MR. ZELMAN:
Q Ms. Lunn, David Zelman for Mr. Thompson.
A Good morning.
Q Was there any evidence at all in the case that this
case was dismissed out of sympathy for the accusation
or for any ill health reason that he had?
MR. THADANI: Objection, your Honor.
THE COURT: I’ll allow it.
MR. THADANI: Calling for speculation. There’s no
foundation.
THE COURT: I will allow it. I’ve got to go into this.
MR. THADANI: Yes, your Honor.
THE COURT: It is necessarily speculative because we
don’t know what the judge was thinking.
A I’m sorry. You said health and what else was it?
[209] Q Sympathy for the accused.
A May I look at my notes to refresh my recollection? I
have notes from my conversation with prosecutors.
THE COURT: We’ll take a copy of the notes, mark it
as Court Exhibit 1. Or, rather, I should say might as
well make it a Plaintiff’s Exhibit. What’s your next exhibit.
MR. LONDON: Plaintiff’s Exhibit 15.
(Plaintiff’s Exhibit 15 was received in evidence as of
this date.)
A I’m just looking. I don’t have any information about
health issues. And when I spoke to the prosecutor,

100
what I remember about this case was just being outraged at the thought that someone could be arrested
for obstructing governmental administration in his
own home. But I don’t have detailed notes about any
sort of sympathetic mitigating circumstances like I
would have if I was doing a motion for dismissal in the
interest of justice.
Q Understood. Was there any discussion that you recall between you and the prosecutor that there was an
inability to proceed by the prosecutor due to a lack of
reasonable doubt—lack of probable cause that the
case could continue in court to a successful conclusion?
A I honestly don’t remember.
Q Okay. Was there any—do you remember any specific [210] evidence that was brought out in the discovery? You touched upon it that he was in his house,
that he was arrested, you remember having a conversation with the prosecutor or the judge that it would
be impossible to prosecute him for being in his house
and obstructing at the same time.
A Yes. I made a motion at the arraignment to dismiss
for facial sufficiency which would be not in—not out of
mitigating circumstances, but because—the complaint doesn’t even state a crime. It could not legally
state a crime.
Q Was there an opposition to that?
A I think it was asked that I put it in writing.
MR. LONDON: And did you?
THE WITNESS: No.
MR. LONDON: Okay. And then the case was?
THE COURT: Asked by whom?

101
THE WITNESS: May I refresh my recollection by
looking?
THE COURT: Yes, I want you to and I want those
notes copied and made an exhibit.
MR. LONDON: Plaintiff’s Exhibit 15.
THE WITNESS: The Court denied any oral application to dismiss without prejudice.
EXAMINATION BY MR. ZELMAN:
(Continuing.)
[211] Q And asked you to put it in writing.
A Yes.
Q Subsequently, the D.A.—did the D.A. tell you they
were moving to dismiss before my moved to dismiss.
A Yes.
Q Did they say anything in regards to that why anything that you recall about that conversation.
A I don’t recall anything about the conversation.
Q Okay. And what was the time, from the time that
you made the oral application to dismiss, to the time
that the prosecutor said they’re going to dismiss on
their own, how long was that.
A I made the oral application at arraignment, and the
actual dismissal happened on the second adjourn
date. I’m not sure I have to look at my note to see how
long that was.
Q Take there was no testimony taken in the case there
was in hearings in the case.
A No.

102
MR. ZELMAN: Judge, I don’t know what else I could
ask at this time.
MR. THADANI: Your Honor, I do have questions.
CROSS-EXAMINATION
BY MR. THADANI:
Q Good morning, Ms. Lunn.
A Good morning.
[212] Q So—
MR. THADANI: Actually, to start, your Honor, may I
approach the witness with Defense Exhibit B.
THE COURT: Of course. Let me see what you’re showing her.
MR. THADANI: Your Honor, I believe there’s a binder
of defendants’ exhibits we’ve provided your Honor. It’s
in that binder it’s Defense Exhibit B.
THE COURT: B.
MR. THADANI: As in boy. Let the record reflect that
I have shown Ms. Lunn Defense Exhibit B.
Q Ms. Lunn, do you recognize that document?
A Yes.
Q What does it appear to be to you?
A A transcript of a proceeding in criminal court on
April 9, 2014.
Q Have you seen the transcript before?
A Yes.
Q And in what case does this transcript pertain to?
A People v. Larry Thompson.

103
Q Is this the transcript for the underlying criminal
case against Mr. Thompson that this lawsuit is currently about?
A Yes.
Q And what is the date on the transcript?
[213] A April 9, 2014.
MR. THADANI: Your Honor, first, just as a point of
order, we’d like to move Defense Exhibit B which has
been marked for identification to evidence as Defense
Exhibit B.
THE COURT: It’s admitted.
(Defendant’s Exhibit B was marked in evidence as of
this date.)
Q So, Ms. Lunn, if you could just turn your attention
to the second page of this document. Have you had a
chance to read over the substance of that page?
A Yes.
Q Does that accurately reflect the conversation that
took place before the criminal court on the last day of
the underlying criminal case against the plaintiff, Mr.
Thompson?
A I don’t have an independent recollection to say. I
don’t have any reason to doubt it and I don’t have any
reason to believe that that’s more or less accurate
than any other transcript.
Q So you have no reason to believe that this is a not
accurate transcript of the last court proceeding in the
case, correct?
A Correct.

104
Q And is there any information or anything that was
that you recall being said at the last criminal court
proceeding [214] that’s not contained within this transcript?
A Not that I recall but, of course, if we’d been called to
the bench to discuss it, or if there had been some discussion that was off the record that wouldn’t be in the
transcript but I don’t remember anything like that.
Q So you have no specific recollection. Any other conversation for the Court besides what’s contained in
this transcript?
A Correct.
Q And, in this transcript, it states there is a statement
from you first after the court officer puts the case on
for the calendar?
A Yes.
Q And it states, you state, “The People have agreed to
dismiss. It’s Mr. Scott’s case. We it advanced from.” I
read that correctly; right?
A Yes.
Q And Ms. Tierney speaks next. Ms. Tierney is the assistant district attorney on the case?
A Yes.
Q She says, “People are dismissing the case in the interest of justice.” That’s what it states?
MR. LONDON: Objection.
A May I clarify something you said? Ms. Tierney is the
[215] assistant district attorney on the case.
Q Was she an assistant district attorney?

105
A I believe so, but it doesn’t necessarily mean she’s the
one assigned to the case. The way courts work in
Brooklyn is that there is one district attorney assigned to a courtroom. So she’s handling all the cases
in the courtroom. It would be very unlikely that it was
her particular case. She’s just—
Q I understand that, Ms. Lunn. But Ms. Tierney was
there on behalf of the People of the State of New York
as an assistant district attorney prosecuting the case
on that day?
A Yes, correct.
Q Ms. Tierney states people are dismissing the case in
the interest of justice?
A Correct.
Q I read that correctly; right?
A Yes.
Q And then the next thing is the Court states the matter is dismissed; is that right?
A Correct.
Q There’s no other information here?
A Correct.
Q You don’t make any statements according to this
transcript after Ms. Tierney said that the people are
dismissing the case in the interest of justice; correct?
A Correct.
[216] Q And you stated earlier that you actually previously made a motion before the Court to have the
case dismissed; right?
A Yes.

106
Q And that was orally denied; correct?
A Without prejudice.
Q But it was orally denied?
A Yes.
Q And there was no motion of yours granted in this
criminal case; correct?
A Correct.
Q Is there anything in this transcript that affirmatively indicates that the case was being dismissed because there was an affirmative indication that the
plaintiff was innocent of the charges he was charged
of?
A Not in this transcript, no.
Q And it’s correct that the prosecutor made the decision to dismiss the case; right?
A Yes.
Q That wasn’t your decision?
A I wish to were but no.
MR. THADANI: Your Honor, I have no other questions at this time.
MR. ZELMAN: Judge just one further. Maybe one or
two.
[217] REDIRECT EXAMINATION
BY MR. ZELMAN:
Q Isn’t it true, Ms. Lunn, that there is a specific CPL
provision regarding interest of justice dismissal in the
interest of justice?
A Yes.

107
Q Do you recall what that it?
A Off the top of my head, no, I remember we call it by
the lead case. It’s known as a Clayton motion in New
York City.
Q I believe it’s CPL 170.40.
A That sounds right.
Q And we have a copy of the certificate of disposition
in this case that we could mark into evidence, your
Honor?
THE COURT: Yes. Plaintiff’s.
MR. LONDON: It’s Plaintiff’s 5.
MR. ZELMAN: I’ll show it to the witness.
Q Ms. Lunn, I don’t know if you’ve seen that before
but that’s the official certificate of disposition in the
case that we were able to obtain from the clerk’s office
following the case. Now, can you tell us what is the
CPL provision that this case—the official CPL provision that is in the certificate of disposition?
MR. THADANI: Your Honor, I just object to reading
from a document that’s not in evidence.
[218] MR. ZELMAN: It is in evidence.
THE COURT: I’m admitting this as Plaintiff’s 5.
(Plaintiff’s Exhibit 5 was received in evidence as of
this date.)
MR. THADANI: Your Honor, we just note our objection for the record.
THE COURT: It has all the indicia of an official regard. How did you object obtain it.

108
MR. ZELMAN: Your Honor, this is obtained from
the—actually, this was produced by the defendants in
discovery and that’s how we got it.
MR. LONDON: It has the defendant’s Bates Stamp on
it, your Honor.
MR. THADANI: Your Honor, that’s not at all the
proper standard for authenticating the document. We
received this document from the criminal court. But
there is, well, your Honor, it’s okay, we understand
that the document is in evidence. We just note our objection for the record.
THE COURT: Okay. Let’s get that provision—
MR. ZELMAN: Right.
THE COURT: —of the New York CPL.
MR. ZELMAN: Should I continue?
THE COURT: It is what?
MR. ZELMAN: CPL 170.40.
(A brief pause in the proceedings was held.)
[219] THE COURT: You don’t have a copy with you?
Do you have a copy.
MR. THADANI: No, your Honor.
THE COURT: You’ll supply a copy.
MR. ZELMAN: Yes, your Honor.
THE COURT: What do you say that bears on what
provision.
MR. ZELMAN: CPL 170.40.
THE COURT: Says what?
EXAMINATION BY MR. ZELMAN:

109
(Continuing.)
Q CPL 170.40 is the interest of justice dismissal provision of the CPL; is that correct.
A Yes. I recently filed such a motion or drafted such a
motion so I’m familiar with the standards and the factors the Court should look at that are listed in 170.40.
Q Please tell us what you know about the statute?
A It’s a motion that can be made by, I believe, difficultly the defense I’m not sure if the prosecution as
well, but I believe so to dismiss a case in the interest
of justice. There’s a series of factors that can be looked
at. History and character of the defendant, the nature,
if any, of police misconduct. The effect that dismissing
the case would have on the community’s trust and
faith in the criminal justice [220] system. The level of
guilt of the defendant and any harm that was done to
anybody. There’s a series of factors that the Court may
consider not one is necessarily dispositive.
Q Do you recall if there’s a provision in CPL 170.40
which requires the criminal court, if it’s going to make
a dismissal in the interest of justice, to state its reasons on the record?
A I don’t remember off the top of my head.
Q Were any?
THE COURT: It says, “Upon issuing such an order,
the Court must set forth its reasons, therefore, on the
record.”
Q Was that done?
A No.
MR. ZELMAN: Nothing further.
MR. THADANI: I do have some questions.

110
RECROSS-EXAMINATION
BY MR. THADANI:
Q First of all, that document that you had before you
to states that and it’s referring specifically to Plaintiff’s Exhibit 5 the certificate of disposition you still
have that document in front of you; correct?
A Yes.
Q It states that the case was dismissed on motion of
the D.A.; is that right, if you refer your attention to
the middle [221] of the case under case “disposition
information,” do you see that about halfway down the
page?
A Yes, I see that.
Q Is it states under “court action” it states, “Dismissed—motion of D.A.” Correct?
A Correct.
Q And that’s actually what happened, right, the case
was dismissed on the motion of the D.A.; right?
A Correct.
Q There’s nothing in this indicate that dates the dismissal of the criminal charge affirmatively indicate
that the plaintiff was innocent of charges?
A Correct.
Q There’s nothing in the criminal court transcript that
indicates that the plaintiffs charges against him were
dismissed because there was an affirmative indication
that he was innocent of the charges; correct?
A Correct.
Q And it was you don’t know why the district attorney’s office moved to dismiss the case, did you?

111
A No.
MR. THADANI: I have no further questions, your
Honor.
THE COURT: Well, Ms. Lunn, you state on the record,
“The People have agreed to dismiss.” Does that suggest that [222] you had a conversation with the prosecutor?
THE WITNESS: I did have a conversation with the
prosecutor before that court date.
THE COURT: And what did you and the prosecutor
say?
THE WITNESS: I honestly don’t remember. In looking at my notes from my conversations with Mr.
Thompson, I don’t have a lot of notes on mitigating
factors and sympathetic factors about his work history
or his family history, so I don’t—but I’d be speculating
as to exactly what I was saying. I can only say that if
I had detailed notes, there’s some cases where I might
have detailed notes about someone’s work history,
their mental health issues, what’s going on in their
lives. And so, those are things this I’m calling a prosecutor and sharing with them in the hopes of getting
a better disposition. The lack of those notes in the file
makes me leads me to believe that the conversation
was just about the fact that he was charged with obstructing governmental administration in his own
home that there was a legal problem with the case.
MR. THADANI: Objection to that last piece. Just objection to that last piece, your Honor.
THE COURT: Denied. But you had made an oral motion to dismiss on the merits, had you not?
[223] THE WITNESS: Yes.

112
THE COURT: And the Court denied it?
THE WITNESS: Correct.
THE COURT: Asking you to put it in writing?
THE WITNESS: Correct.
THE COURT: Did you?
THE WITNESS: No.
THE COURT: Do you remember how you argued that
motion? What you said?
THE WITNESS: May I look at the complaint? May I
have a moment to refresh my recollection and look at
the complaint?
MR. LONDON: I can show Plaintiff’s Exhibit 1.
THE WITNESS: Thanks.
THE COURT: One is in evidence.
THE WITNESS: In order for a complaint charging resisting arrest to be facially sufficient, there has to be
an allegation that of the arrest was lawful, and in this
complaint, the allegation is that the police officers, excuse me, the deponent instructed the defendant—the
police officers instructed Mr. Thompson to allow them
into his home and he refused to let them into their
home. And in order to be placed under arrest, that was
my understanding, and it does not seem to me be a
lawful arrest to arrest someone for not allowing the
police into their home.
[224] MR. THADANI: Objection, your Honor. Improper opinion.
THE COURT: Overruled.

113
THE WITNESS: What I do remember about the case
when Mr. London called me was the idea that someone was arrested in their home for not letting the police into their home. And I think that’s what I would
have brought to the Court’s attention that very first
time that I saw the complaint.
THE COURT: Anything you want to say that may
help decide what the nature of the dismissal was.
MR. ZELMAN: Maybe I can help.
THE COURT: Overruled.
MR. ZELMAN: All right.
THE WITNESS: The nature of criminal court as it’s
practiced in New York City is that there is an assigned
attorney in each courtroom who just has a stack of
files and handles stands up on every case and that’s
in front of them and their files aren’t always detailed
they’re just reading from whatever notes the actual
assigned assistant district attorney assigned to particular cases has left for them.
THE COURT: That may not be the assistant speaking
in court as indicated in the record before us.
THE WITNESS: Exactly. So the assistant speaking in
court is not necessarily the person who has reviewed
the case and made a decision about it. She is usually
reading off of [225] what’s call a status sheet, some
sort of printout that her colleague has provided for
her.
THE COURT: What else is before here.
MR. ZELMAN: (Handing).
THE COURT: Transcript. The transcript is now an exhibit.

114
MR. LONDON: The transcript is Defendant’s Exhibit
B the transcript.
MR. THADANI: B as in boy, your Honor.
THE COURT: You say on Line 3 the People have
agreed to dismiss Mr. Scott’s case and the attorney for
the state says the People are dismissing the case. So
she made the motion but it was not her case; is that
correct?
THE WITNESS: Yes. I have in my notes that I spoke
to assistant district attorney Terry Scott on April 3rd.
THE COURT: Does it show what you spoke to him
about.
THE WITNESS: No. All I wrote is, “They’ll dismiss!”
And then we agreed to advance the case to April 9th.
THE COURT: Anything else you want to ask for the
record?
[226] CROSS-EXAMINATION
BY MR. DePAUL:
Q Good morning, Ms. Lunn, how are you?
A Fine.
Q The status sheet that you are referring to earlier the
ADA who is standing up in court reads from.
A Yes.
Q That statutes she given by the assistant district attorney assigned to the case?
A Yes.
Q It’s reasonable to assume that Ms. Tierney was
reading from a status sheet that he was given to my
by Ms. Scott; correct.

115
A Not necessarily. May I explain?
Q Sure.
A A lot of times the status sheets might not have detailed information on it and so the district attorney in
the courtroom is left to fill in the blanks.
Q Right.
A And so, I don’t know what was said on her status
sheet and what blanks she was filling in.
Q You don’t know either way?
A Correct.
Q Your conversation with the district attorney before
the dismissal you don’t recall that conversation; correct.
[227] A No.
Q And you don’t recall—
MR. DePAUL: Withdrawn. No further questions.
MR. ZELMAN: One more. You said regarding that
prior conversation you had with the district attorney
that your notes say, will dismiss.
THE WITNESS: Yes.
MR. ZELMAN: That is most likely a short conversation you had with the district attorney where they just
said, we’re not going to proceed with this case.
THE WITNESS: I honestly.
MR. THADANI: Objection. Calls for speculation.
MR. ZELMAN: I’m asking.
THE WITNESS: I don’t remember.

116
MR. LONDON: Two questions. Ms. Lunn, would you
say you handled about 25,000 criminal cases in your
career.
THE WITNESS: I was thinking about this last night
and wishing that I had looked it up.
MR. LONDON: That you’ve complaint that looked at
stood up on arraigned.
THE WITNESS: Exactly. Conservatively 300 to 500 a
year over 11 years.
MR. LONDON: So 30,000?
[228] THE WITNESS: Yes.
MR. LONDON: In your legal opinion, as someone who
has handled 30,000 criminal cases in different counties in New York City, was a crime committed based
on the allegations in that complaint?
MR. THADANI: Objection. Calls for an improper opinion it’s not relevant to the issue at hand right now.
MR. LONDON: To the merits of the case, Judge, that
is what I’m asking in her opinion. You can take it for
what it’s worth.
MR. THADANI: Her opinion is not relevant to the legal issue.
THE COURT: Her legal opinion is not useful, but her
you can ask about her factual opinion.
MR. LONDON: In your factual opinion on this case,
was a crime committed?
THE WITNESS: No.
MR. LONDON: Thank you.
THE COURT: Was it alleged?

117
THE WITNESS: Not sufficiently.
THE COURT: Why?
THE WITNESS: Because there was—it was not a lawful arrest according to the complaint.
MR. THADANI: Objection, your Honor.
THE COURT: Overruled. And you had moved on that
[229] ground?
THE WITNESS: Yes.
MR. DePAUL: Your Honor, if may I ask a question?
THE COURT: You may.
MR. DePAUL: The court denied that motion?
THE WITNESS: Correct.
MR. DePAUL: You never made a written motion to
that effect; right?
THE WITNESS: Correct.
MR. DePAUL: There was never a ruling by a court
that the complaint in this case was facially insufficient; correct.
THE WITNESS: Correct.
MR. LONDON: Just briefly. Ms. Lunn, in your experience in Brooklyn Criminal Court, do judges more often grant facial sufficiency motions when they’re in
writing versus oral?
THE WITNESS: More often.
MR. THADANI: Objection.
THE COURT: I don’t see that can help us.

118
MR. LONDON: Judge, I’m just trying to establish that
public defenders have a very high caseload in 2014 before the caps came in.
MR. DePAUL: There’s a witness in the courtroom.
MR. LONDON: I’m sorry. [230] Can you just wait outside?
THE WITNESS: Okay.
MR. LONDON: Thank you. I’m just trying to explain
to the Court before the case caps that came about in
2017, public defenders had very high caseloads. They
would makes these applications orally to the judge.
The judge would say to, look, put it in writing. And
whether or not the lawyers had time based own their
caseload to put it in writing is a serious factor. So I
don’t think—I think if she put this motion in writing,
based on my legal opinion, it would have been
granted. But it wasn’t put in writing because she had
a conversation with the D.A. where they agreed to dismiss. With a high caseload, I’m handling 300 to 500
cases a year, it would be very hard if a D.A. said we’re
going to dismiss for her to think about the future ramifications of Mr. Thompson’s lawsuit if she put it in
writing. That’s what I want to explain.
MR. THADANI: Your Honor, if I may just briefly respond?
THE COURT: I don’t care for that speculation. Thank
you so much for your help.
THE WITNESS: You’re welcome.
THE COURT: Brief it.
MR. ZELMAN: I’m sorry.

119
[231] THE COURT: You’ll have to brief it based on the
sparse record we now have.
(Witness leaves the witness stand.)
THE WITNESS: May I step out?
THE COURT: Yes. Make a copy of her notes and mark
it as an exhibit.
THE WITNESS: Some them are protected by attorney-client privilege. These are my case files.
MR. ZELMAN: We can waive that.
MR. LONDON: No.
THE COURT: They’re privileged.
MR. LONDON: They’re privileged. Thank you.
***

120
[683] UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
LARRY THOMPSON,
Plaintiff,
– versus –
PAGIEL CLARK, et al,
Defendants.

14 CV 7349(JBW)
U. S. Courthouse
225 Cadman Plaza
East
Brooklyn, New York
January 28, 2019
8:30 a. m.

TRANSCRIPT OF CIVIL CAUSE FOR JURY TRIAL
BEFORE THE HONORABLE JACK WEINSTEIN
UNITED STATES DISTRICT JUDGE
APPEARANCES
Attorneys for Plaintiff:
CARY LONDON, ESQ.
30 Broad Street, Suite 702
New York, New York 10004
DAVID ZELMAN, ESQ.
612 Eastern Parkway
Brooklyn, New York 11225
Attorneys for Defendants:
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
BY: PHILIP DEPAUL, ESQ.
KAVIN THADANI, ESQ.
Court Reporter:
LISA SCHMID, CCR, RMR
Official Court Reporter
225 Cadman Plaza East
Brooklyn, New York 11201
Phone: 718-613-2644 Fax: 718-613-2379

121
[684] PROCEEDINGS
(In open court, outside the presence of the jury.)
THE CLERK: Civil Cause on Trial, Thompson versus
Clark, et al.
THE COURT: Sit down, everybody.
First, do I have a hard copy of the first?
First problem I want to raise with you is the issue of
the photograph. It is clear in the photograph of plaintiff that there’s a break in the skin above one of the
eyes, which shows or arguably shows that he was
thrown—his head was thrown to the ground, and
caused this injury.
The defendants want to get in it?
MR. DEPAUL: Your Honor, if I can just interrupt you?
We’re not entering in the photograph.
THE COURT: Okay.
Does the plaintiff want to put it into evidence?
MR. LONDON: Not at this time, Your Honor.
THE COURT: Well, when is the time?
MR. LONDON: No. So no.
THE COURT: All right. Under those circumstances.
The ruling that I made that it wasn’t sufficiently complicated
is not being challenged by either party, correct?
MR. LONDON: Yes, Your Honor.
THE COURT: Okay.
Now, I have distributed to you two for each side, my
draft of the jury charge and verdict sheet on which I

122
made some [685] handwritten comments and will now
begin to go over it, page by page, for you to see the
changes on I want to make.
But before going over it, I want to tell you that after
very serious consideration and flipping back and forth
on the point or points, I’ve decided to put the burden
of proof of non-exigency on the plaintiff, based on Ruggiero and the other cases. That have been well cited
by the briefs.
THE COURT: And also to support the argument of
the—agreed with the argument of the defendants.
MR. LONDON: So malicious prosecution and exigent
circumstance are on the plaintiff?
THE COURT: On the plaintiff, that’s what I said, exigency.
MR. LONDON: I understand.
THE COURT: That there’s no sufficient basis for finding that the dismissal of the criminal case was on the
merits. It seems to me very clear that it was based on
the lack of proof, and that the proposal by the district
attorney and finding by the judge was essentially not
based on criminality and incidents, but based essentially on factors, other factors.
MR. LONDON: So you’re dismissing mal pros?
THE COURT: Yes.
MR. ZELMAN: Your Honor, may I be heard briefly on
that point?
[686] THE COURT: Yes, you can.
I must say that I disagree on the both points, on what
I find the Second Circuit law is, because essentially,

123
the point that dismissing on justice which most dismissals are on justice—essentially wipes this cause of
action off the books.
MR. ZELMAN: All right, Your Honor. First of all, I
would like to point out on exigency, Ruggiero places
the burden of production on the defense. I don’t disagree necessarily that we have to show non-exigency,
but the burden of proof of production is on them as its
defense.
But my main point—
THE COURT: But that’s been shown.
MR. ZELMAN: Okay. The second point, Your Honor—
THE COURT: And burden-shifting is something I’m
not going to explain to the jury.
MR. ZELMAN: Okay. Understood.
THE COURT: So, since it’s very clear that their exigency defense is supported, it’s clearly met the burden
of dissuasion—I mean of production.
MR. ZELMAN: This is the main point, Your Honor.
You said I think correctly: The dismissal was not on
the merits. It was based on a lack of proof.
THE COURT: Right.
MR. ZELMAN: That is, under the Second Circuit, a
[687] favorable termination.
THE COURT: (Nods head affirmatively.)
MR. ZELMAN: And the reason it’s a favorable determination is because where there is a lack of evidence
to proceed, that is sufficient to show that the plaintiff
has had the case dismissed in his favor.

124
THE COURT: I agree with you completely on that, as
a matter of policy.
For one thing, the defendant is presumed to be innocent, unless in that posture by the ambiguous basis
for the motions to dismiss by the district attorney,
that’s where we are. So, for policy reasons, I agree
with you completely, but I don’t think the cases support you.
MR. ZELMAN: It does. If you—I don’t know if Your
Honor read my trial brief on this point.
THE COURT: I did. I thought your brief was very
good, but I don’t think it meets the Second Circuit’s
view. Yes.
MR. ZELMAN: The cases that I cited show exactly the
same circumstances that we’re dealing with here. A
district attorney makes a motion, says in essence, I
can’t prove this case, and the courts have found that
that’s is a favorable termination. To put anymore burden on a criminal defendant is to wipe out the cause
of action.
THE COURT: I recognize that. I said that at the [688]
outset. In effect, it sweeps this cause of action off the
books because almost every dismissal by the district
attorney is going to be on this basis that was used
here—
MR. ZELMAN: And I think that—
THE COURT:—not on the basis of innocence?
MR. ZELMAN: I think the problem here, Judge is—
you read the Lanning decision, but it’s one decision,
and it’s specifically in dealing with an interested justice dismissal. That’s where that case is couched.
It’s—the case is dismissed pursuant to 170.40.

125
THE COURT: You’re talking about Lanning?
MR. ZELMAN: In Lanning.
THE COURT: Lanning is decided November 7th,
2018.
MR. ZELMAN: Correct.
THE COURT: It’s the freshest decision we have on a
procedure that the Second Circuit itself admits was
confusing.
MR. ZELMAN: But what I think is—you’re reading it
too broadly, is what I feel. It was not intended to usurp
all of the favorable determination case law that’s been
established to date by the Second Circuit, and that’s
why I’m saying it needs to be couched in terms of interested justice dismissal, which this is not and that
case was. It was a recent pronouncement, but it was
not intended.
THE COURT: Quote, I’ve got a printout, page seven:
“We write to dispel any confusion among district
courts. Also, [689] eliminated in favor of the accused
only when their final disposition such as to indicate
the accused is not guilty.”
MR. ZELMAN: That’s what happened here. One of the
reasons, Judge, it happened here is we heard testimony from the plaintiff that he went in the first time
and they offered him an ACD, Adjournment in Contemplation of Dismissal. He rejected that. He said, I
don’t want the ACD. He comes back to court, and the
prosecutor dismisses the charge, unilaterally—
THE COURT: Right.
MR. ZELMAN:—without anything that he needed to
do, out of his control.

126
THE COURT: Right.
MR. ZELMAN: That is indicative of innocence because
he rejected the plea and he said, I am not going to take
any type of plea, even a plea that dismisses the case.
So, this—I think when they say indicative of innocence, what they’re saying is that the circumstances
surrounding it demonstrate that there was a lack of
evidence to proceed, and that he was innocent, that
the judge is not required to say you are innocent,
which Mr. London said for his 20 years of experience,
never happens, ever. So—
THE COURT: Well, we have a case where the evidence is highly probative that he wasn’t innocent, that
he did block them. Right?
Isn’t that the contention of the defendants?
[690] MR. DEPAUL: Yes, Your Honor.
MR. THADANI: (Nods head affirmatively.)
MR. ZELMAN: Of course, he was in his own apartment. He blocked them. We have testimony from Ms.
Lund saying that there was no way in her experience
there ever could be a prosecution against him for
standing in his door saying, I would like to speak to a
supervisor about this, which is what he did.
THE COURT: Like any other sensible attorney for the
defendant, she didn’t say, judge, please say on the record that this is for the merits. That would be insane.
MR. ZELMAN: Correct.
THE COURT: So that’s where the Second Circuit
leaves you, in my opinion.
MR. ZELMAN: I don’t think that is what they intended. They said indicative of innocence. And this is

127
a case at the very least Your Honor, is not an issue of
law for the Court to decide, but could be an issue for
the jury to decide whether this is indicative of innocence. We heard only yesterday—
THE COURT: This is not the case where I’m going to
buck the Second Circuit. I don’t want to try this case
again, because the evidence of criminality by the
plaintiff is—I don’t say I would find it that way, but it
was very high.
MR. ZELMAN: Very what?
THE COURT: High. Why should the DA dismiss on
the [691] merits. Anyway, that’s what I’m deciding.
And I tell you, I’ve been back and forth in my own
mind a half a dozen times because I think that the
policy is wrong, and I think the policy on exigency is
wrong, but this is not the case where I’m going to buck
the Second Circuit. I’ll wait for a more favorable case.
***
[720]
MR. DEPAUL: And with that, defense rests, Your
Honor.
THE COURT: Thank you. I think I will have a long
discussion with the parties at this stage. So I suggest
you go down and have a leisurely snack, and be back
here at eleven o’clock. Don’t discuss the case.
(Jurors exit.)
THE COURT: I’ll hear motions at the end of plaintiff’s
case and at the end of whole case right now. Sit down.
I suggest that the defendants move to dismiss the malicious prosecution claim, following our discussion.
MR. THADANI: Yes, Your Honor. We are so moving.

128
MR. ZELMAN: Yes, Your Honor. We oppose for all the
reasons stated on the record, that this was a favorable
termination by Second Circuit case law.
THE COURT: Thank you. Motion granted. You want
to make further motions?
***

129
[850] UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
LARRY THOMPSON,
Plaintiff,
– versus –
PAGIEL CLARK, et al,
Defendants.

14 CV 7349(JBW)
U. S. Courthouse
225 Cadman Plaza
East
Brooklyn, New York
January 29, 2019
8:30 a. m.

TRANSCRIPT OF CIVIL CAUSE FOR JURY TRIAL
BEFORE THE HONORABLE JACK WEINSTEIN
UNITED STATES DISTRICT JUDGE
APPEARANCES
Attorneys for Plaintiff:
CARY LONDON, ESQ.
30 Broad Street, Suite 702
New York, New York 10004
DAVID ZELMAN, ESQ.
612 Eastern Parkway
Brooklyn, New York 11225
Attorneys for Defendants:
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
BY: PHILIP DEPAUL, ESQ.
KAVIN THADANI, ESQ.
Court Reporter:
LISA SCHMID, CCR, RMR
Official Court Reporter
225 Cadman Plaza East
Brooklyn, New York 11201
Phone: 718-613-2644 Fax: 718-613-2379

130
***
[867] Plaintiff asserts claims pursuant to a federal
statute. A section of the federal statute provides a
remedy for individuals who have been deprived of
rights, privileges, and immunities that are secured by
the Constitution and federal laws.
It states, “Every person who, under color of any
statute, ordinance, regulation, custom or usage of any
state, subjects or causes to be subjected any person to
the deprivation of any rights, privileges or immunities
secured by the Constitution and laws shall be liable to
the party injured.”
Now, to establish a claim under this section, plaintiff has the burden of proof on the following factors:
First, that the conduct complained of was by a person
or persons acting under color of state law; second, that
this conduct deprived the plaintiff of a right, privilege
or immunity secured by the Constitution or laws of the
United States; and third, that the defendants’ acts
were the proximate cause of injury and damages sustained by the plaintiff.
What are these three elements? The first element
requires plaintiff to prove that a defendant was acting
under color of law. The defendants, as members of the
New York City [868] Police Department, were acting
under color of state law. That element is deemed
proven.
Plaintiff, second, must show that he was intentionally or recklessly deprived of a constitutional right by
a defendant. This means that plaintiff has the burden
of proving that defendant committed the facts alleged
by plaintiff, in performing the acts alleged, the defendant acted intentionally or recklessly and the alleged

131
acts caused plaintiff to suffer the loss of a constitutional—in this case, a constitutional right. You’re going to have to determine whether the plaintiff has met
his burden of proof that a defendant committed the
violation of a constitutional right alleged by the plaintiff.
Plaintiff has the burden of proving that the defendant acted intentionally or recklessly rather than accidentally. An act is intentional if it is done knowingly,
that is, if it is done voluntarily and deliberately, and
not because of mistake, accident, negligence or other
innocent reason. An act is reckless if it is done in conscious disregard of its known probable consequences.
If you determine that the defendant intentionally
or recklessly committed an act as alleged by the plaintiff, you have to determine that he has satisfied his
burden of proving that the act proximately caused the
plaintiff to suffer the loss of a constitutional right. I’ll
discuss that issue in more detail below.
[869] Plaintiff must prove that a defendant’s unlawful conduct was the proximate cause of any injuries sustained by plaintiff. You’ll have to consider this
factor in connection with damages, if any. There can
be more than one proximate cause. An act or failure to
act is a proximate cause of an injury if it was a substantial factor in bringing it about or if the injury was
a reasonably foreseeable consequence of the act. To recover damages, plaintiff has the burden of proving
that he suffered an injury and that the injury would
not have occurred without the conduct of a defendant.
Now, what constitutional rights are violated or
charged in this case? First, unlawful entry against Officers Bouwmans, Romano, Clark and Montefusco; B,
false arrest against those same officers; C, excessive

132
force against those officers. The denial of a right to a
fair trial is alleged only against Officer Clark. And finally, failure to intervene to protect the plaintiff
against a violation of his constitutional right by the
other officers, Bouwmans, Romano, Clark and Montefusco. Now, each defendants’s liability must be considered, as I earlier remarked, separately. Let me turn
now to each these claims.
Unlawful entry: The plaintiff alleges that each of
the defendants unlawfully leads his apartment on
January 15th, 2014. They contend that their entry
was lawful, because exigent circumstances justified it,
specifically, that they [870] were justified in entering
because there was an urgent need to render possible
emergency aid to a child.
The Fourth Amendment to the Constitution guarantees individuals to be secure in their home. The
right to be free from unreasonable government intrusion into one’s home is at the core of the Fourth
Amendment’s protection.
Generally, an order from the court—which is referred to in these remarks as a warrant, a piece of paper ordering something—must be issued by a judge
before the police can enter a premises. Warrantless
searches of a person’s home are assumed under law to
be unreasonable, unless an exception occurs.
And the parties here stipulate that there was no
warrant issued authorizing the entry by the police.
One of the exceptions where a warrant is not required
by a judge is what we call exigent circumstances.

133
Plaintiff has the burden of proving that exigency
did not authorize the police officers to enter his apartment without a warrant. You understand that? Burden of proof is on the—
JURORS: (Nods head affirmatively.)
THE COURT: —the plaintiff to show no exigent
circumstances excused the warrantless entry.
Exigent circumstances allow entry without a warrant. Exigent circumstances exist when a situation
observed by a [871] reasonable police officer is so compelling or the information brought to the attention of
a reasonable officer is so compelling that an immediate warrantless search is objectively reasonable.
For example, police officers may enter a dwelling
without a warrant to render emergency assistance to
a person whom they reasonably believed to be in distress and in need of immediate assistance, in order to
prevent further harm, to render emergency aid to an
injured occupant or to protect an occupant from immediate injury. Reasonableness is central to the act of a
police officer faced with a decision to enter in exigent
circumstances.
In determining whether the officers’ belief in concerning the need to render prompt emergency aid was
reasonable, consider the circumstances then confronting the confronting the officers, including the apparent need for a prompt assessment of sometimes ambiguous information concerning possible serious consequences.
The reasonableness must be judged from the perspective of a reasonable officer coming on the scene,
rather than the 20-20 vision of hindsight after the
events are over and cooled down. There was, in fact,

134
an actual need to render emergency aid to a child is
not relevant. A call to a 911 operator plus other evidence of possible danger to a child can provide the exigent circumstances necessary to justify a warrantless
[872] entrance into an individual’s residence, despite
the occupant’s objection.
In the context of possible child abuse, the state has
a strong interest in the welfare of the child, particularly in his or her being sheltered from abuse. And police officer relying on exigent circumstances must
have an objectively reasonable basis to believe that
danger to the child may be eminent. They may find
out that later that there was no danger, but it’s what
the officer sees and hears and knows when he’s making the decision to enter that constitutes exigent circumstances.
Anonymous or uncorroborated 911 calls do not
alone justify a warrantless entry into a home, but the
officers can depend on corroboration by what they saw
and heard when they arrived at the scene and that
they arrived at the right place result of the 911 call.
If you find that it was reasonable under the circumstances for a defendant officer to believe that
there was an urgent need to prevent possible ongoing
harm to the child or to provide immediate aid to the
child, then a defendant’s entry was lawful and you
must find for the defendant. If you find that exigent
circumstances did not exist, then the defendant’s entry was lawful and you must find for the plaintiff on
this issue.
False arrest: Plaintiff claims that he was falsely
[873] arrested by Defendant Police Officers
Bouwmans, Romano, Clark and Montefusco on January 15th. Defendants deny this claim.

135
A person is falsely arrested if he’s arrested without
probable cause. A defendant’s arrest of the plaintiff is
lawful if the defendant had probable cause to arrest
the plaintiff for some crime. The burden is upon a defendant to prove that he had probable cause to arrest
the plaintiff.
Probable cause exists when based on the totality of
circumstances, an officer has knowledge of or reasonably trustworthy information as to facts and circumstances that are sufficient to warrant a police officer a
reasonable caution to believe that an offense has been
or is being committed by the person arrested.
Whether probable cause existed depends upon the
reasonable conclusion to be drawn from the facts
known to the defendant at the time of the arrest of the
plaintiff. Do not view the question of probable cause
from a position of calm, reflected hindsight, but from
the position of how the circumstances would have appeared to a reasonable officer at the time.
Probable cause requires only the probability of
criminal activity. It does not require an actual showing of criminal activity. The arrestee’s actual guilt or
innocence is not relevant to the determination of probable cause. An arrest made with probable cause is
lawful, even if the plaintiff [874] actually did not commit a crime. An officer need not have been convinced
beyond a reasonable doubt that a criminal offense was
being, had been or was about to be committed.
The ultimate disposition of the criminal charge
against the plaintiff is irrelevant to this question. The
test is one of objective information, not of subjective
malice. Because the existence of probable cause is analyzed from the perspective of a reasonable police of-

136
ficer, standing in the officer’s shoes, the actual subjective beliefs of the officer are not relevant to the determination of probable cause.
Once a police officer has a reasonable basis to believe there is probable cause to arrest, the officer is not
required to explore or eliminate every plausible claim
of innocence before making the arrest.
When an officer possesses facts sufficient to establish probable cause, he is neither required to, nor allowed to sit as prosecutor, judge, or jury. It does not
matter that a further investigation might have cast
doubt upon the basis for the arrest. The police are not
obligated to pursue every lead that may yield evidence
beneficial to the accused, even though they had
knowledge of the lead and the capacity to investigate
it. Their function is to apprehend those reasonably
suspected of wrongdoing, and not to finally determine
guilt for the weighing of the evidence. Probable cause
can exist even where it is based on mistaken information, [875] so long as the arresting officer acted reasonably and in good faith in relying on that information.
It is not necessary that the officer had probable
cause to arrest the person for the offense with which
he eventually was charged, so long as the officers had
probable cause to arrest the plaintiff for any criminal
offense. An arrest made with probable cause for any
offense, whether charged or not, is lawful. The officer
making the arrest does not need to charge the proper
crime ultimately found applicable.
The law recognizes what is called a Fellow Police
Officer Rule. Under the Fellow Police Officer Rule, an
arrest by a police officer who himself lacks probable
cause to make the arrest is lawful, so long as the other

137
officers involved in the investigation all together have
sufficient information to form the basis for probable
cause.
Not every police officer can always be aware of
every aspect of an investigation. In determining
whether there is legal basis for an arrest, in other
words, probable cause, the law looks to the information known to all police authorities cooperating in
the investigation, and the knowledge of each of the police officers is assumed to be the knowledge of all the
police officers.
The existence of probable cause is measured as of
the moment of arrest. Whether the charges were ultimately dropped [876] or whether the plaintiff was acquitted or convicted of a crime, therefore, is irrelevant
to the issue of a false arrest.
And the defendants contend that there was probable cause to arrest the plaintiff for a number of crimes.
First, obstructing governmental administration in the
second degree. A person is guilty of obstructing governmental administration when he or she intentionally obstructs, impairs, or perverts the administration
of law or other governmental function or prevents or
attempts to prevent the public servant from performing an official function by means of intimidation,
physical force or interference or by means of any independently act or by means interfering.
Obstructing emergency medical service, a person
is guilty of obstruction of emergency medical service
when he or she intentionally and unreasonably obstructs the efforts of any emergency medical performance in the proper performance of his or her duties.

138
Harassment in the second degree is the third
crime. A person is guilty of the violation of harassment in the second degree when, with the intent to
harass, annoy or alarm another person, he or she
strikes, shoves, kicks or otherwise subjects such other
person to physical conduct or attempts or threatens to
do the same.
The probable cause to arrest plaintiff for obstructing governmental administration initially rests on
whether a [877] defendant had lawful reason to enter
plaintiff’s apartment. The officer must be engaged in
lawful conduct to arrest a person for obstruction.
If the officer or those assigned to render emergency
medical services were not lawfully enter the home because of exigency, then there was no probable cause to
arrest the plaintiff for obstruction. If they were lawfully able to enter the home because of exigency of circumstances, you have to determine whether the defense has proven that there was probable cause to arrest plaintiff for the crime of obstruction.
If you find that probable cause existed for any one
of the crimes I have defined, then you must find in favor of the defendant with respect to the plaintiff’s false
arrest claim. You don’t need to be unanimous as to
which crime you find constituted the basis for probable cause, only that you are unanimous that probable
cause existed based on some crime.
If, for example, you determine that a defendant
has not proved that there was probable cause for
plaintiff’s arrest, then you must find in favor of the
plaintiff with respect to his false arrest claim. Let me
read that again.

139
If you determine that a defendant has not proved
that there was probable cause for plaintiff’s arrest,
then you must find in favor of the plaintiff with respect to his false arrest claim.
[878] The third violation is claimed as excessive
force. The plaintiff claims that the defendants violated
the Fourth Amendment by using excessive force in entering and making the arrest on January 15, 2014.
The Constitution prohibits the use of unreasonable or
excessive force while making an arrest, even when the
arrest would otherwise be proper.
Plaintiff has the burden to prove that a defendant
used excessive force. The police officer may only employ the amount of force reasonably necessary under
the circumstances. To determine whether the force
used was reasonable, you must determine whether
the amount of force was that which a reasonable police
officer would have employed under similar circumstances. To determine whether the force used was reasonable, you must determine whether the amount of
force was that which a reasonable police officer would
have employed under the circumstances.
Balance the nature and quality of the intrusion on
plaintiff’s right to be protected from excessive force
against a police officer’s necessity to use some degree
of physical force or threat of force in entering and
making an arrest.
You may take into account such factors as the severity of the crime at issue, the extent of the injury
suffered by plaintiff, whether plaintiff posed an immediate threat to the safety of a defendant or others and
whether the plaintiff actively resisted arrest while
handcuffing after a lawful [879] arrest. You do not

140
have to determine whether defendant had less intrusive alternatives available. A defendant need only to
have acted within that range of conduct you find was
reasonable.
Not every push or shove, even if it may later seem
unnecessary in hindsight, violates the plaintiff’s constitutional rights. Unintended minor scrapes, burns,
bumps or bruises potentially can occur when properly
taking a person into custody.
The reasonableness of a particular use of force is
based on what a reasonable officer would do under the
circumstances and not on a defendant’s own state of
mind. You must decide whether a reasonable officer
on the scene would view the force as reasonable without the benefit of hindsight.
If you find the amount of force used against the
plaintiff was greater than a reasonable officer would
have employed under the circumstances, plaintiff will
have established a claim of lost constitutional rights.
He is also claiming the denial of a right to a fair
trial. The plaintiff alleges that he was denied the right
to a fair trial by defendants—by the single defendant,
Pagiel Clark, who plaintiff fabricated evidence of a
material nature again him. The defendant denies this.
In order for you to find that plaintiff’s constitutional right to a fair trial was violated by the [880] defendant, plaintiff, who has the burden of proof, must
satisfy his burden of proof as to the following items:
One, defendant fabricated evidence that; two, is likely
to influence a jury’s decision; and three, provided that
information to the prosecutors, knowing it was false;
and four, the plaintiff suffered a deprivation of liberty

141
as a result of this violation. It is not relevant whether
the criminal case was tried by a jury, in fact.
In this case, the plaintiff alleges that the Defendant Clark created false evidence, knowing it was false,
concerning whether plaintiff attacked or pushed an officer. In addition, plaintiff alleges that Clark fabricated evidence, warning plaintiff that he would be arrested if he did not comply with the officers’ demand
when, in fact, Clark did not give plaintiff this warning.
This fabrication—which means creation of false
evidence in and of itself does not impair anyone’s liberty, and therefore, does not impair anyone’s constitutional right. In order to find for the plaintiff, you must
find that the fabricated evidence was of a material nature and was the proximate cause of the deprivation
of plaintiff’s liberty.
The alleged fabrication must be both material—in
other words, likely to influence a jury’s decision—and
the proximate cause of the injury to plaintiff’s liberty
injury, in other words, that he suffered a deprivation
of liberty as a [881] result of the alleged fabrication of
evidence.
Paperwork errors or mistakes by police officers in
and making the written record are not a basis for finding a constitutional violation, but can be considered
on the question of veracity. An officer’s own opinions,
conclusions or qualitative assessment are not a basis
for finding a constitution violation.
***

142
VII. VERDICT SHEET

[filed January 30, 2019]

Your verdict in this case will be your answers to
the following questions. Read the questions carefully.
Your answers to the questions must be unanimous.
I. Unlawful Entry
Question 1:
Did you find that a defendant unlawfully entered
plaintiff’s apartment?
Pagiel Clark:
Paul Montefusco:
Gerard Bouwmans:
Philip Romano:

Yes:
Yes:
Yes:
Yes:

NO:
NO:
NO:
NO:

X
X
X
X

If you answered “Yes” as to any defendant,
please proceed to Question 2.
If you answered “No” as to all defendants, please
proceed to Question 3.
Question 2(a):
What is the total dollar amount of compensatory
damages, if any, that plaintiff is entitled to on his
unlawful entry claim? $
Question 2(b):
What amount of nominal damages, if any, not to
exceed one dollar, do you award plaintiff on his
unlawful entry claim? $
Question 2(c):
What is the total dollar amount of punitive damages,
if any, that plaintiff is entitled to on his unlawful
entry claim? $

143
II. False Arrest
Question 3:
Did you find that the plaintiff was falsely arrested by
any of the following?
Pagiel Clark:
Paul Montefusco:
Gerard Bouwmans:
Philip Romano:

Yes:
Yes:
Yes:
Yes:

NO:
NO:
NO:
NO:

X
X
X
X

If you answered “Yes” as to any defendant,
please proceed to Question 4.
If you answered “No” as to all defendants, please
proceed to Question 5.
Question 4(a):
What is the total dollar amount of compensatory
damages, if any, that plaintiff is entitled to on his false
arrest claim? $
Question 4(b):
What is the total dollar amount of punitive damages,
if any, that plaintiff is entitled to on his false arrest
claim? $
III. Excessive Force
Question 5:
Did you find that a defendant used excessive force
against plaintiff?
Pagiel Clark:
Paul Montefusco:
Gerard Bouwmans:
Philip Romano:

Yes:
Yes:
Yes:
Yes:

NO:
NO:
NO:
NO:

X
X
X
X

If you answered “Yes” as to any defendant,
please proceed to Question 6.

144
If you answered “No” as to all defendants, please
proceed to Question 7.
Question 6(a):
What is the total dollar amount of compensatory
damages, if any, that plaintiff is entitled to on his
excessive force claim? $
Question 6(b):
What amount of nominal damages, if any, not to
exceed one dollar, do you award plaintiff on his
excessive force claim?$
Question 6(c):
What is the total dollar amount of punitive damages,
if any, that plaintiff is entitled to on his excessive force
claim?$
IV. Denial of the Right to a Fair Trial
Question 7:
Did you find that defendant Pagiel Clark denied
plaintiff’s right to a fair trial?
Yes:

NO: X

If you answered “Yes,” please proceed to
Question 8.
If you answered “No,” please proceed to
Question 9.
Question 8(a):
What is the total dollar amount of compensatory
damages, if any, that plaintiff is entitled to on his
denial of a right to a fair trial claim? $
Question 8(b):

145
What amount of nominal damages, if any, not to
exceed one dollar, do you award plaintiff on his denial
of a right to a fair trial claim? $
Question 8(c):
What is the total dollar amount of punitive damages,
if any, that plaintiff is entitled to on his denial of a
right to a fair trial claim? $
V. Failure to Intervene
Question 9:
Did you find that a defendant had a realistic
opportunity, but failed to intervene to prevent other
officers from subjecting plaintiff to the loss of a
constitutional right?
Pagiel Clark:
Paul Montefusco:
Gerard Bouwmans:
Philip Romano:

Yes:
Yes:
Yes:
Yes:

NO:
NO:
NO:
NO:

X
X
X
X

If you answered “Yes” as to any defendant,
please proceed to Question 10.
If you answered “No” as to all defendants, your
deliberations are finished.
Question 10(a):
What is the total dollar amount of compensatory
damages, if any, that plaintiff is entitled to on his on
his failure to intervene claim? $
Question 10(b):
What amount of nominal damages, if any, not to
exceed one dollar, do you award plaintiff on his failure
to intervene claim?$

146
Question 10(c):
What is the total dollar amount of punitive damages,
if any, that plaintiff is entitled to on his failure to
intervene claim? $
WHEN YOU HAVE COMPLETED THE ABOVE
VERDICT SHEET, PLEASE DATE AND SIGN THE
FORM AND RETURN THIS VERDICT SHEET TO
THE MARSHAL.
SIGNATURE OF THE FOREPERSON
/s/ Laurie Anne O’Shea
DATED: January 30, 2019

147
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed March 12, 2019]
LARRY THOMPSON,
Plaintiff,
– against –
Police Officer PAGIEL CLARK;
Police Officer PAUL
MONTEFUSCO; Police
Officer GERARD BOUWMANS;
Police Officer PHILLIP
ROMANO,

MEMORANDUM
AND ORDER
14-CV-7349

Defendants.
JACK B. WEINSTEIN, Senior District Judge:
Parties
Larry Thompson

Counsel
David A. Zelman
612 Eastern Parkway
Brooklyn, NY 11225
718-604-3072
Cary London
30 Broad Street, Suite 702
New York, NY 10004
212-203-1090

Pagiel Clark
Paul Montefusco
Gerard Bouwmans
Phillip Romano

Kavin Suresh Thadani
New York City Law Department
100 Church Street, Rm 3-195 New
York, NY 10007
212-356-2351
Phillip R. DePaul
New York City Law Department
100 Church Street, Rm 3-208 New
York, NY 10007
212-356-2413

148
TABLE OF CONTENTS
I.
II.

Introduction ........................................................2
Background.........................................................5
A. Warrantless Entry ........................................5
B. Dismissal of Plaintiff’s Criminal Charges ...8
i.
State Criminal Prosecution ..................8
ii. Criminal Court Appearances................9
iii. Evidentiary Hearing ...........................10
III. Law ...................................................................22
A. Burden of Proof for Exigency......................22
i.
Exigent Circumstances Generally......22
ii. Other Circuit Precedent .....................23
iii. Second Circuit Precedent ...................25
iv. Burden Shifting ..................................27
v. Burden of Proof Problem ....................28
B. Termination in Favor of the Accused .........30
IV. Application of Law ...........................................31
A. Exigency Burden .........................................31
B. Favorable Termination ...............................33
V. Conclusion ........................................................36
A. Exigent Circumstances Burden .................36
B. Malicious Prosecution .................................36

149
I.

Introduction

In this 42 U.S.C. § 1983 civil jury trial, two rules
of law of the Second Circuit have been applied that
can and should be changed: 1) where the police enter
a house without a warrant and rely on exigent circumstances, the burden of proof on non-exigency is
on the plaintiff-householder; and 2) where a civil §
1983 plaintiff must prove his state criminal prosecution ended in a ruling on the merits in his favor, an
ambiguous ruling by the State court is construed as
a ruling that dismissal was not on the merits, that is
to say it was not on a finding of non-guilt.
Both these rules erect an unnecessary barrier to
justice; both improperly limit enforcement of federal
law in civil suits against police officers when they
violate the constitution. They seriously dilute the
force of the federal constitutional protection against
police violators of constitutional rights.
It is trite but still true that a person’s home is
conceptually his castle. This principal was taken
from English common law and chiseled into the
granite of our Constitution. See U.S. Const. amend.
IV (“The right of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated
. . . . ”); see also Welsh v. Wisconsin, 466 U.S. 740,
748 (1984) (“It is axiomatic that the physical entry of
the home is the chief evil against which the wording
of the Fourth Amendment is directed.” (citation
omitted)). Its origins date as far back as the early
17th century.
[T]he house of every one is to him as his
castle and fortress, as well for his defence against injury and violence, as for

150
his repose; and although the life of man
is a thing precious and favoured in law;
. . . if thieves come to a man’s house to
rob him, or murder, and the owner of his
servants kill any of the thieves in defence of himself and his house, it is not
felony, and he shall lose nothing . . . .
[E]very one may assemble his friends
and neighbours to defend his house
against violence: but he cannot assemble
them to go with him to the market, or
elsewhere for his safeguard against violence: and the reason of all this is, because domus sua cuique est tutissimum
refugium.
Semayne’s Case, 5 Co. Rep. 91a, 91b, 77 Eng. Rep.
194, 195 (K.B. 1603); see also 4 William Blackstone,
Commentaries 223 (1765–1769) (“And the law of
England has so particular and tender a regard to
the immunity of a man’s house, that it stiles it his
castle . . . .”).
The present case forces a reassessment of this
oft-repeated maxim. It poses questions about what
the ordinary law-abiding citizen can, and should, do
to protect himself and his family from an unwarranted, but possibly lawful, governmental intrusion
into his home. Compare Jason Brennan, When All
Else Fails: The Ethics of Resistance to State Injustice
2, 4 (2019) (“[O]ne pressing question for political
philosophy is what ordinary citizens are licensed to
do in the face of injustice. . . . Instead of exit, voice,
or loyalty, this book defends the fourth option: resistance. . . . [It] includes more active forms of resistance, such as blocking police cars, damaging or
destroying government property, deceiving and lying

151
to government agents, or combating government
agents.”) with I. Bennett Capers, Criminal Procedure and the Good Citizen, 118 Colum. L. Rev. 653,
663 (2018) (“[T]he good citizen should not hesitate to
open his bag, pocket, or home to the police, or to
otherwise consent to a search.”).
Plaintiff Larry Thompson brings this action
against defendant police officers pursuant to 42
U.S.C. § 1983. The litigation results from an encounter between police officers responding to a report of serious baby abuse and a new father intent
on protecting his family from what he believed to be
an unlawful forced entry into his apartment.
At 10:00 p.m. one evening in Brooklyn, plaintiff,
his wife, and their one-week old daughter were at
home preparing for bed. Four armed uniformed police officers arrived at their door seeking to enter
the apartment without a warrant. The officers were
there to investigate a partially corroborated 911 call
reporting that a child was being molested.
They believed the exigency of an ongoing possible
threat to a child’s safety justified their warrantless
entry. Thompson, with his child safe and well-cared
for in the back bedroom, believed otherwise. He
blocked them from entering and, according to the
officers’ testimony, pushed one of the officers. They
forced him to the ground, arrested him, handcuffing
him, and according to plaintiff, beat him. The report
of child abuse turned out to be false—the 911 call
came from a disturbed relative temporarily living in
plaintiff’s apartment. The child was never in any
danger.
Before the court are two vexing issues related to
plaintiff’s unlawful entry and malicious prosecution

152
claims: first, which party bears the burden of proof
on the exigent circumstances exception to the warrant requirement; and, second, whether, as an element of his malicious prosecution claim, plaintiff
can establish that his criminal charges were terminated on the merits in his favor. This memorandum addresses both issues.
Background

II.
A.

Warrantless Entry

At about 10:00 p.m., on the night of January 15,
2014, plaintiff was home with his fiancé, now wife,
and new born baby in their Brooklyn apartment.
Trial Tr. 601:12–24, Jan. 25, 2019. The family was
getting ready to go to sleep. Id. at 601:22–24. The
Thompson’s were in their underwear. Id. at 601:20–
602:1. Earlier that day, the parents had taken their
one-week old daughter to her first doctor’s check-up.
Id. at 598:1–14. She received a clean bill of health.
Id. at 598:15–18.
His wife’s sister, Camille Watson, who was staying in the couple’s apartment, called 911. Trial Tr.
263:14–24, Jan. 24, 2019. She reported that her
week-old niece was being sexually abused by the
baby’s father at 339 Lincoln Place, Apt. 2E, in
Brooklyn. Trial Tr. 496:13–18, Jan. 25, 2019. She
identified the father as a 41-year-old black male,
roughly five feet five inches tall, and 150 pounds.
Id. Plaintiff met that description. See id. at 508:11–
509:8. She stated that the baby had red rashes on
her buttocks area. Id. at 496:13–18.
Two Emergency Medical Technicians (“EMT”)
were directed to the scene by radio to investigate
the report of child abuse. Id. at 456:20–25. They

153
were met outside by a woman who did not identify
herself, but they assumed to be the 911 caller. Id. at
461:5–10. The female, later identified as Camille,
asked the EMTs to follow her. Id. at 461:12–14.
Camille led them into the apartment where they observed another woman holding a baby. Id. at
461:15–25. The EMTs were confronted by plaintiff.
Id. at 462:19–462:6. Thompson appeared angry and
asked them what they were doing in his apartment.
Id. at 463:20–464:18. He denied that anyone in the
apartment called 911. Id. at 464:12–18. The EMTs
told him that they might have the wrong address
and left. Id. at 464:19–21.
Police Officers Pagiel Clark, Paul Montefusco,
Gerard Bouwmans, and Phillip Romano received a
radio direction to respond to 339 Lincoln Place and
investigate a man fitting plaintiff’s description for
suspected child abuse. See id. at 503:7–504:9. The
call first came over as a report of “possible child
abuse,” but was later changed to an “assault in progress.” Trial Tr. 334:15–335:2, Jan. 24, 2019. The
EMTs informed the arriving officers that they received a report of a child being abused and they
needed to check on the baby. Trial Tr. 464:8-465:18,
Jan. 25, 2019; see also id. at 480:5–6 (“If we don’t
make patient contact, then we get in trouble.”).
They told the police officers that they had left the
apartment without examining the baby because
plaintiff seemed “aggressive” and they felt “uncomfortable.” See id. at 465:16–18, 478:3–479:9.
One officer knocked on the door of apartment 2E
and Thompson opened it. Id. at 510:10–16, 515:22–
516:2. The officers stood outside of the apartment
door. Id. at 510:17–511:14. They were armed and in
uniform. Id. at 512:12–20. They told Thompson

154
that they needed to enter the apartment. Trial Tr.
295:11–14, Jan. 24, 2019. He responded that they
were not coming in without a warrant and refused
to let them pass. Trial Tr. at 611:1–10, Jan. 25,
2019.
Officer Montefusco attempted to cross the
threshold. See id. at 523:2–15; Trial Tr. 303:23–
304:1, Jan. 24, 2019. Thompson blocked his path
and, according to the officers’ testimony, shoved Officer Montefusco. E.g., Trial Tr. 523:16–19, Jan 25,
2019; Trial Tr. 107:18–21, Jan. 23, 2019. The officers rushed in, pushing Thompson to the floor and
handcuffing him. Trial Tr. 524:2–10, Jan. 25, 2019.
Thompson testified that he did not resist arrest, but
that Officer Montefusco threw him to the ground
and began to choke him, while the other officers
kicked and punched him. Trial Tr. 711:24–712:15,
Jan. 28, 2019. Defendants contend that he resisted
arrest by flailing his arm preventing the officers
from placing handcuffs on him. Trial Tr. 570:16–
24, Jan. 25, 2019.
The officers entered the apartment with the
EMTs. Id. at 485:4-5. The EMTs observed red
marks on the baby’s buttocks but determined, after
taking the child to the hospital, there was only a diaper rash. See id. at 486:2–7; Pls.’ Summ. J., Ex. D,
Dillahunt Dep. 25:1–25. There was no evidence of
abuse. See Trial Tr. 486:2–7, Jan. 25, 2019.
Camille, who had called in the false report, suffered from mental illness. Trial Tr. 237:16–20, Jan.
24, 2019. The police sensed that she had some form
of mental dysfunction. Id. at 324:3–13.
Thompson was transported in a police patrol car
to the seventy-seventh precinct. Trial Tr. 538:16–

155
22, Jan. 25, 2019. He requested medical attention
for back and neck pain, and was brought by two of
the officers to Interfaith Hospital. See id. at 539:9–
540:8; Def. Ex. F, Interfaith Hospital Medical Records, Jan. 16, 2014. An x-ray showed swelling, but
no permanent injury. See Def. Ex. F; Trial Tr.
636:23–637:1, Jan. 25, 2019. Pain medication and a
neck brace were prescribed. Trial Tr. 635:18–19,
Jan. 25, 2019; Trial Tr. 330:7–9, Jan. 24, 2019. He
was returned by the police to the precinct and then
was transported to Brooklyn Criminal Court. Trial
Tr. 637:12–638:7, Jan. 25, 2019.
B.

Dismissal of Plaintiff’s Criminal
Charges
i.

State Criminal Prosecution

Thompson was arrested on January 15, 2014 following the incident in his home. Id. at 530:11–
531:3. He was charged with obstructing governmental administration in the second degree, NYPL
§ 195.05, and resisting arrest, NYPL § 205.30. Id. at
531:24–532:7. A person is guilty of obstructing governmental administration in the second degree in
New York,
when he [or she] intentionally obstructs,
impairs or perverts the administration
of law or other governmental function or
prevents or attempts to prevent a public
servant from performing an official function by means of intimidation, physical
force or interference, or by means of any
independently unlawful act, or by means
of interfering . . . .
N.Y. Penal Law § 195.05.

156
Under New York law, this crime has four elements: “(1) prevention or attempt to prevent (2) a
public servant from performing (3) an official function (4) by means of intimidation, force or interference.” Cameron v. City of New York, 598 F.3d 50, 68
(2d Cir. 2010). Police officers must be engaged in
lawful conduct to support an arrest for obstruction.
Kass v. City of New York, 864 F.3d 200, 207 (2d Cir.
2017) (“[T]he public servant must be performing an
official function that is ‘authorized by law.’” (citation
omitted)).
“‘Interference’ within the meaning of Section
195.05 must be a ‘physical interference.’” Basinski
v. City of New York, 706 F. App’x 693, 698 (2d Cir.
2017) (citing People v. Case, 42 N.Y.2d 98, 101
(1977)). “New York courts, however, have construed
‘physical interference’ broadly.” Id. (citing In re Davan L., 91 N.Y.2d 88, 91 (1997)). As the United
States Court of Appeals for the Second Circuit explained in Kass v. City of New York:
The [next] element is that an individual
must prevent or attempt to prevent a
public official from performing a lawful
official function by interfering with
that function. Although the interference must at least in part be “physical” and cannot consist solely of verbal
statements, an officer may consider
both words and deeds in determining
whether the individual’s conduct is sufficiently obstructive to justify an arrest.
Such interference can consist of inappropriate and disruptive conduct at the
scene of the performance of an official
function even if there is no physical

157
force involved. This element of the statute is satisfied when an individual intrudes himself into, or gets in the way
of, an ongoing police activity.
864 F.3d at 207 (citations omitted).
A person is guilty of resisting arrest when he or
she “intentionally prevents or attempts to prevent a
police officer or peace officer from effecting an authorized arrest of himself or another person.” N.Y.
Penal Law § 205.30. Probable cause for resisting arrest arises only when there is probable cause for
charging some other crime. Curry v. City of Syracuse, 316 F.3d 324, 336 (2d Cir. 2003).
ii.

Criminal Court Appearances

Plaintiff was arraigned on January 17, 2014. After being held in custody for two days, he was released on his own recognizance. See Trial Tr. 658:4–
18, Jan. 25, 2019.
Thompson next appeared in court about two
months later. According to his testimony, he was
offered an Adjournment in Contemplation of Dismissal and told to “stay out of trouble and everything will go away.” Id. at 644:14–16. He rejected
this offer because he “ha[d] to see this to the end”
and “didn’t think . . . anything should be on [his]
record about this.” Id. at 644:18–645:4.
He returned to court a month later on April 9,
2014. At this hearing, his criminal charges were
dismissed “in the interest of justice” on motion of the
Brooklyn District Attorney. The entire transcript of
this hearing reads:

158
Proceedings
COURT OFFICER: Calendar add-on
2014KN004196, Thompson.
MS. LUNN [defense counsel]: The people
have agreed to dismiss. It’s Mr. Scott’s
case. We advanced it from – –
MS. TIERNY: People are dismissing the
case in the interest of justice.
THE COURT: The matter is dismissed.
Def. Ex. B, Transcript of State Criminal Proceeding,
Apr. 9, 2014.
Neither the prosecution nor the court provided
any specific reasons on the record for the dismissal.
Nor was there any mention of the charges being
dismissed pursuant to New York Criminal Procedure Law (“CPL”) § 170.40, which is the section of
the CPL devoted to interest of justice dismissals.
Section 170.40 of the CPL requires the court to state
its reasons on the record for dismissing a matter in
the interests of justice. See N.Y. Crim. Proc. Law §
170.40 (“An order dismissing an accusatory instrument . . . in the interest of justice may be issued upon motion of the people or of the court itself as well
as upon that of the defendant. Upon issuing such
an order, the court must set forth its reasons therefor upon the record.”).
Plaintiff’s Certificate of Disposition states that
the charges were dismissed on motion of the District Attorney and indicates that the case was sealed
pursuant to CPL § 160.50. Pl. Ex. 5, Certificate of
Disposition, Apr. 8, 2015. This State sealing provision, entitled “Order upon Termination of Criminal
Action in Favor of the Accused,” is applicable only to

159
those whose criminal actions were terminated in
their favor (as defined within CPL § 160.50(3)). See
N.Y. Crim. Proc. Law § 160.50.
iii.

Evidentiary Hearing

An evidentiary hearing was held on January 24,
2019 in federal court. Renate Lunn, a Legal Aid attorney and plaintiff’s former defense counsel, testified regarding her recollections of plaintiff’s criminal prosecution.
On direct examination, defense counsel Lunn
said she could not remember why the prosecutor
moved for dismissal. See Trial Tr. 209:19–24, Jan.
24, 2019. She testified that she had never filed a
motion to dismiss in the interest of justice. Id. at
207:23–25. She did recall making an oral motion to
dismiss for facial insufficiency on the ground that
the complaint did not lawfully state a crime. Id. at
210:6–9. The criminal court judge denied this motion and allowed her to put the motion in writing,
which she never did. Id. at 210:11–211:2.
Q Ms. Lunn, I bring your attention to
January 15th of 2014 where were you
employed?
A Legal Aid Society in New York City.
Q Did there come a time when you represented a gentleman named Larry
Thompson?
A Yes.
Q Do you remember what Larry Thompson was charged with?
A I’d have to refresh from my recollection
by looking at the complaint, but I be-

160
lieve it was obstructing governmental
administration, resisting arrest.
Q Were you the assigned attorney for
Legal Aid Society for his case?
A Yes.
Q Did he plead guilty or was his case
dismissed?
A His case was dismissed.
Q Did you file a motion under the interest of justice to have the case dismissed?
A No.
Q Did you -- in your legal opinion, can
you just tell us what happened when you
went to court with this case for the best
of your recollection?
A The first time it was on, I think the
prosecution provided discovery. It was
adjourned -- well, after arraignment, it
was adjourned for discovery, we received
some discovery. And then, after that,
the next court date it was dismissed. . . .
Q Was there any evidence at all in the
case that this case was dismissed out of
sympathy for the accusation or for any ill
health reason that he had? . . .
A May I look at my notes to refresh my
recollection? I have notes from my conversation with prosecutors. . . . I’m just
looking. I don’t have any information
about health issues. And when I spoke to
the prosecutor, what I remember about

161
this case was just being outraged at
the thought that someone could be arrested for obstructing governmental administration in his own home. But I
don’t have detailed notes about any sort
of sympathetic mitigating circumstances
like I would have if I was doing a motion for dismissal in the interest of justice.
Q Understood. Was there any discussion
that you recall between you and the
prosecutor that there was an inability to
proceed by the prosecutor due to a lack
of reasonable doubt -- lack of probable
cause that the case could continue in
court to a successful conclusion?
A I honestly don’t remember.
Q Okay. Was there any -- do you remember any specific evidence that was
brought out in the discovery? You
touched upon it that he was in his house,
that he was arrested, [do] you remember having a conversation with the
prosecutor or the judge that it would be
impossible to prosecute him for being in
his house and obstructing at the same
time?
A Yes. I made a motion at the arraignment to dismiss for facial sufficiency
which would be not in -- not out of mitigating circumstances, but because -- the
complaint doesn’t even state a crime. It
could not legally state a crime.
Q Was there an opposition to that?

162
A I think it was asked [by the court] that
I put it in writing.
Q And did you?
A No. . . . The court denied any oral
application to dismiss without prejudice.
Q And asked you to put it in writing?
A Yes.
Q Subsequently, the D.A. -- did the
D.A. tell you they were moving to dismiss . . . ?
A Yes.
Q Did they say anything in regards to
that why anything that you recall
about that conversation?
A I don’t recall anything about the conversation.
Q Okay. And what was the time, from
the time that you made the oral application to dismiss, to the time that the
prosecutor said they’re going to dismiss
on their own, how long was that?
A I made the oral application at arraignment, and the actual dismissal
happened on the second adjourn date. . . .
Id. at 207:8–211:14.
Defense counsel Lunn was asked generally about
interest of justice dismissals under CPL § 170.40.
Q Isn’t it true, Ms. Lunn, that there is a
specific CPL provision regarding interest of justice dismissal[s] . . . ?
A Yes.

163
Q Do you recall what that [is]?
A Off the top of my head, no, I remember we call it by the lead case. It’s
known as a Clayton motion in New York
City.
Q I believe it’s CPL 170.40.
A That sounds right. . . .
Q CPL 170.40 is the interest of justice
dismissal provision of the CPL; is that
correct?
A Yes. I recently filed such a motion or
drafted such a motion so I’m familiar
with the standards and the factors the
court should look at that are listed in
170.40.
Q Please tell us what you know about
the statute?
A It’s a motion that can be made . . . to
dismiss a case in the interest of justice.
There’s a series of factors that can be
looked at. History and character of the
defendant, the nature, if any, of police
misconduct. The effect that dismissing
the case would have on the community’s trust and faith in the criminal justice system. The level of guilt of the defendant and any harm that was done to
anybody. There’s a series of factors that
the court may consider not one is necessarily dispositive.
Q Do you recall if there’s a provision in
CPL 170.40 which requires the criminal
court, if it’s going to make a dismissal in

164
the interest of justice, to state its reasons on the record?
A I don’t remember off the top of my
head.
Q Were any?
COURT: It says, “Upon issuing such an
order, the Court must set forth its reasons, therefore, on the record.”
Q Was that done?
A No.
Id. at 217:3–220:14.
On cross-examination, she was shown the transcript from the April 9, 2014 hearing. Id. at 212:1117. She testified that she did not remember any discussions taking place at the criminal court proceeding that were not contained in the transcript. Id. at
214:6-9.
Q Let the record reflect that I have
shown Ms. Lunn Defense Exhibit B.
Ms. Lunn, do you recognize that document?
A Yes.
Q What does it appear to be to you?
A A transcript of a proceeding in criminal court on April 9, 2014. . . .
Q And in what case does this transcript
pertain to?
A People v. Larry Thompson.
Q Is this the transcript for the underlying criminal case against Mr. Thompson
that this lawsuit is currently about?
A Yes.

165
Q And what is the date on the transcript?
A April 9, 2014. . . .
Q Does that accurately reflect the conversation that took place before the
criminal court on the last day of the
underlying criminal case against the
plaintiff, Mr. Thompson?
A I don’t have an independent recollection to say. I don’t have any reason to
doubt it and I don’t have any reason
to believe that that’s more or less accurate than any other transcript. . . .
Q And is there any information or anything that was that you recall being
said at the last criminal court proceeding that’s not contained within this
transcript?
A Not that I recall but, of course, if we’d
been called to the bench to discuss it, or
if there had been some discussion that
was off the record that wouldn’t be in the
transcript but I don’t remember anything
like that. . . .
Q So you have no specific recollection.
Any other conversation for the court besides what’s contained in this transcript?
A Correct. . . .
Q And [the transcript] states, you state,
“The People have agreed to dismiss. It’s
Mr. Scott’s case. We advanced it from.” I
read that correctly; right?
A Yes.

166
Q And Ms. Tierney speaks next. . . . Was
she an assistant district attorney?
A I believe so, but it doesn’t necessarily
mean she’s the one assigned to the case.
The way courts work in Brooklyn is that
there is one district attorney assigned to
a courtroom. So she’s handling all the
cases in the courtroom. It would be very
unlikely that it was her particular
case. . . .
Q I understand that, Ms. Lunn. But Ms.
Tierney was there on behalf of the People of the State of New York as an assistant district attorney prosecuting the
case on that day?
A Yes, correct.
Q Ms. Tierney states people are dismissing the case in the interest of justice?
A Correct. . . .
Q And then the next thing is the court
states the matter is dismissed; is that
right?
A Correct.
Q There’s no other information here?
A Correct.
Q You don’t make any statements according to this transcript after Ms.
Tierney said that the people are dismissing the case in the interest of justice; correct?
A Correct.

167
Q And you stated earlier that you actually previously made a motion before the
court to have the case dismissed; right?
A Yes.
Q And that was orally denied; correct?
A Without prejudice.
Q But it was orally denied?
A Yes.
Q And there was no motion of yours
granted in this criminal case; correct?
A Correct.
Q Is there anything in this transcript that
affirmatively indicates that the case was
being dismissed because there was an
affirmative indication that the plaintiff
was innocent of the charges he was
charged of?
A Not in this transcript, no.
Q And it’s correct that the prosecutor
made the decision to dismiss the case;
right?
A Yes.
Id. at 212:11–216:18.
Defendants questioned her about the Certificate
of Disposition formally dismissing charges against
plaintiff.
Q First of all, . . . referring specifically to
Plaintiff’s Exhibit 5, the certificate of
disposition, you still have that document
in front of you; correct?
A Yes.

168
Q It states that the case was dismissed
on motion of the D.A.; is that right, if
you refer your attention to the middle of
the case under case “disposition information,” do you see that about halfway
down the page?
A Yes, I see that. . . .
Q [U]nder “court action” it states, “Dismissed -- motion of D.A.” Correct?
A Correct.
Q And that’s actually what happened,
right, the case was dismissed on the
motion of the D.A.; right?
A Correct.
Q There’s nothing in this indicate that
[states] the dismissal of the criminal
charge affirmatively indicate that the
plaintiff was innocent of charges?
A Correct.
Q There’s nothing in the criminal court
transcript that indicates that the
plaintiff[’]s charges against him were
dismissed because there was an affirmative indication that he was innocent
of the charges; correct?
A Correct.
Q And it was you don’t know why the
district attorney’s office moved to dismiss the case, did you?
A No.
Id. at 220:19–221:21.

169
In an exchange in the federal hearing, defense
counsel Lunn testified that she spoke with an assistant district attorney prior to the April 9, 2014 hearing and was told that the case would be dismissed.
She could not recall the specifics of this discussion.
Id. at 222:2–10. But the fact that she did not have
detailed notes on mitigating factors led her to believe that the discussion was purely about the legal
deficiencies of the case. Id. at 222:11–21. She added
that, based on her experience and the facts of the
case, she did not think it was lawful to arrest the
plaintiff for refusing to allow the police into his
home. Id. at 223:16–25.
COURT: Well, Ms. Lunn, you state on
the record, “The People have agreed to
dismiss.” Does that suggest that you had
a conversation with the prosecutor?
WITNESS: I did have a conversation
with the prosecutor before that court
date.
COURT: And what did you and the prosecutor say?
WITNESS: I honestly don’t remember.
In looking at my notes from my conversations with Mr. Thompson, I don’t
have a lot of notes on mitigating factors
and sympathetic factors about his work
history or his family history, so I don’t -but I’d be speculating as to exactly what
I was saying. I can only say that if I had
detailed notes, there’s some cases where
I might have detailed notes about
someone’s work history, their mental
health issues, what’s going on in their
lives. And so, those are things [that] I’m

170
calling a prosecutor [with] and sharing
with them in the hopes of getting a
better disposition. The lack of those
notes in the file makes me leads me to believe that the conversation was just
about the fact that he was charged
with obstructing governmental administration in his own home that there was
a legal problem with the case. . . .
COURT: But you had made an oral
motion to dismiss [for facial insufficiency], had you not?
WITNESS: Yes.
COURT: And the court denied it?
WITNESS: Correct.
COURT: Asking you to put it in writing?
WITNESS: Correct.
COURT: Did you?
WITNESS: No.
COURT: Do you remember how you argued that motion? What you said?
WITNESS: May I look at the complaint?
May I have a moment to refresh my
recollection and look at the complaint?
. . . In order for a complaint charging
resisting arrest to be facially sufficient, there has to be an allegation
that of the arrest was lawful, and in this
complaint, the allegation is that the . . .
the police officers instructed Mr.
Thompson to allow them into his home
and he refused to let them into their
home. And in order to be placed under

171
arrest, that was my understanding, and
it does not seem to me . . . a lawful arrest
to arrest someone for not allowing the
police into their home. . . . What I do
remember about the case when [plaintiff’s attorney] called me was the idea
that someone was arrested in their
home for not letting the police into
their home. And I think that’s what I
would have brought to the court’s attention that very first time that I saw the
complaint.
COURT: Anything you want to say that
may help decide what the nature of the
dismissal was? . . .
WITNESS: The nature of criminal court
as it’s practiced in New York City is that
there is an assigned attorney in each
courtroom who just has a stack of files
and handles stands up on every case and
that’s in front of them and their files
aren’t always detailed they’re just reading from whatever notes the actual assigned assistant district attorney assigned to particular cases has left for
them.
COURT: That may not be the assistant
speaking in court as indicated in the
record before us.
WITNESS: Exactly. So the assistant
speaking in court is not necessarily the
person who has reviewed the case and
made a decision about it. She is usually reading off of what’s call[ed] a status

172
sheet, some sort of printout that her colleague has provided for her. . . .
COURT: You say on Line 3 the People
have agreed to dismiss Mr. Scott’s case
and the attorney for the state says the
People are dismissing the case. So she
made the motion but it was not her case;
is that correct?
WITNESS: Yes. I have in my notes that I
spoke to assistant district attorney Terry
Scott on April 3rd.
COURT: Does it show what you spoke to
him about.
WITNESS: No. All I wrote is, “They’ll
dismiss!” And then we agreed to advance the case to April 9th.
Id. at 221:24–225:21.
III.

Law
A. Burden of Proof for Exigency
i.

Exigent Circumstances Generally

“[A] principal protection against unnecessary intrusions into private dwellings is the warrant requirement imposed by the Fourth Amendment on
agents of the government who seek to enter the
home for purposes of search or arrest.” Welsh, 466
U.S. at 748. Warrantless searches inside a home
are illegal, unless an exception to the warrant requirement exists.
One exception is the presence of exigent circumstances. “[T]he essential question in determining
whether exigent circumstances justified a warrant-

173
less entry is whether law enforcement agents were
confronted by an urgent need to render aid or take
action.” Loria v. Gorman, 306 F.3d 1271, 1284 (2d
Cir. 2002) (citation omitted). “[P]olice officers may
enter a dwelling without a warrant to render emergency aid to a person whom they reasonably believe
to be in distress and in need of that assistance.”
Tierney v. Davidson, 133 F.3d 189, 196 (2d Cir.
1998). They may do this if, based on the totality of
the circumstances known to the investigating officers at the time of entry, it was “objectively reasonable” for them to do so. See id.; Mincey v. Arizona,
437 U.S. 385, 393–94 (1978) (“[W]arrants are generally required to search a person’s home or his person unless ‘the exigencies of the situation’ make the
needs of law enforcement so compelling that the
warrantless search is objectively reasonable under
the Fourth Amendment.” (citation omitted)).
ii.

Other Circuit Precedent

In criminal cases, it is well-established that the
police officers bear the burden of proving exigent
circumstances. See, e.g., Welsh, 466 U.S. at 749–750
(“[E]xceptions to the warrant requirement are few
in number and carefully delineated, and . . . the police bear a heavy burden when attempting to
demonstrate an urgent need that might justify warrantless searches or arrests.”); Kentucky v. King,
563 U.S. 452, 474 (2011) (“[T]he police bear a heavy
burden . . . when attempting to demonstrate an urgent need that might justify warrantless searches.”).
The law is less clear in a civil action under 42
U.S.C. § 1983. There is a split among the circuit
courts over which party has the burden of proof in
civil cases.

174
The United States Court of Appeals for the
Third, Sixth, Ninth, and Tenth Circuits have assigned the burden of proof on the government. See
Parkhurst v. Trapp, 77 F.3d 707, 711 (3d Cir. 1996);
Hardesty v. Hamburg Township, 461 F.3d 646, 655
(6th Cir. 2006) abrogated on other grounds by Morgan v. Fairfield Cty., Ohio, 903 F.3d 553 (6th Cir.
2018); Hopkins v. Bonvicino, 573 F.3d 752, 764 (9th
Cir. 2009); Armijo ex rel. Armijo Sanchez v. Peterson,
601 F.3d 1065, 1070 (10th Cir. 2010). These courts
generally rely on criminal cases for support. See,
e.g., Armijo ex rel. Armijo Sanchez v. Peterson, 601
F.3d at 1070 (citing United States v. Reeves, 524
F.3d 1161, 1169 (10th Cir. 2008) (reversing district
court’s denial of criminal defendant’s motion to
suppress evidence obtained in violation of the
Fourth Amendment)).
By contrast, the United States Court of Appeals
for the Seventh and Eighth Circuits have placed the
burden of proof on the plaintiff. Bogan v. City of
Chicago, 644 F.3d 563, 568 (7th Cir. 2011); Der v.
Connolly, 666 F.3d 1120, 1128 (8th Cir. 2012). They
base their conclusion largely on what they describe
as the “established principles governing civil trials,”
refusing to adopt the criminal governmental burden
in civil actions. E.g., Bogan v. City of Chicago, 644
F.3d at 570 (“[E]mploying a criminal burden of proof
is contrary to established principles governing civil
trials, namely, that the ultimate risk of nonpersuasion must remain squarely on the plaintiff.” (citations omitted)); cf. Crowder v. Sinyard, 884 F.2d
804, 824 (5th Cir. 1989) (“Applying the longstanding rule that the plaintiff bears the burden of
proving each essential element of a claim, we agree
that the court erred in placing upon the defendants

175
the burden of proof” with respect to the plain view
exception to the warrant requirement.).
iii.

Second Circuit Precedent

The leading case in the United States Court of
Appeals for the Second Circuit on this issue appears
to be Ruggiero v. Krzeminski, 928 F.2d 558 (2d Cir.
1991). It indicates that the court shares the apparent view of the Seventh and Eighth circuits.
In Ruggiero, plaintiffs brought § 1983 claims for
an unlawful search alleging that defendant police
officers’ warrantless search of their home was not
excused by one of the exceptions to the warrant requirement, such as consent. Id. at 560.
A question on appeal was whether the trial judge
erred by failing to instruct the jury that the burden
of proving an exception to the Fourth Amendment
warrant requirement rested on the defendants. Id.
at 562. The court expressly rejected the argument
that once a plaintiff established that the search was
not authorized by a warrant, the burden shifted to
the defendant to prove that the search was justified
by a specific exception. See id. at 563. It explained:
It is true that searches and seizures
conducted without warrants are presumptively unreasonable. The operation
of this presumption, contrary to the
Ruggieros’ contention, cannot serve to
place on the defendant the burden of
proving that the official action was reasonable. Rather, the presumption may
cast upon the defendant the duty of producing evidence of consent or search incident to an arrest or other exceptions to

176
the warrant requirement. However, the
ultimate risk of nonpersuasion must remain squarely on the plaintiff in accordance with established principles
governing civil trials. See Fed.R.Evid.
301. We see no reason to depart from
the usual allocation of burdens in a civil
trial.
Id. (emphasis added) (citations omitted).
The Court of Appeals for the Second Circuit has
not overruled Ruggiero. See Tirreno v. Mott, 375 F.
App’x 140, 142 (2d Cir. 2010) (providing a summary
of Second Circuit precedent post-Ruggiero). It continues to cite it approvingly in cases involving the
exigent circumstances exception. See, e.g., Harris v.
O’Hare, 770 F.3d 224, 234 n.3 (2d Cir. 2014), as
amended (Nov. 24, 2014) (“Of course, as in all civil
cases, ‘the ultimate risk of non-persuasion must remain squarely on the plaintiff in accordance with
established principles governing civil trials.”‘ (citing
Ruggiero, 928 F.2d at 563)); Tierney v. Davidson,
133 F.3d at 196 (“A[n] . . . important distinction is
that the burden in the state [criminal] action was on
the state to prove that an exception to the warrant
requirement applied, whereas [in civil cases] the
burden is on [the plaintiff] to establish that the
search was unlawful.” (citing Ruggiero, 928 F.2d at
563)); cf. Jackson v. City of New York, 29 F. Supp. 3d
161, 176 n.20 (E.D.N.Y. 2014) (stating that the presumption that warrantless searches are unreasonable “does not shift the burden of persuasion to defendants” (citing Ruggiero, 928 F.2d at 563)).
Yet, some uncertainty apparently remains regarding the scope and propriety of the Second Cir-

177
cuit’s policy. Post-Ruggiero, the court has, on occasion, adopted the criminal burden of proof in civil
cases involving exceptions to the warrant requirement. In Anobile v. Pelligrino, 303 F.3d 107 (2d Cir.
2002), a § 1983 action challenging the lawfulness of
a warrantless search, the court neither distinguished nor cited Ruggiero for its assertion that
“[t]he official claiming that a search was consensual
has the burden of demonstrating that the consent
was given freely and voluntarily.” Id. 124 (citation
omitted). Similarly, in Loria v. Gorman, 306 F.3d
1271 (2d Cir. 2002), a § 1983 case alleging unlawful
entry, the court failed to cite Ruggiero, instead relying on Welsh v. Wisconsin, for its conclusion “that
the police bear a heavy burden when attempting to
demonstrate an urgent need that might justify warrantless searches or arrests.” Id. at 1284–85 (citation omitted). Some district courts in this circuit
have placed the burden of persuasion on the police.
See, e.g., Webster v. City of New York, 333 F Supp.
2d 184, 194 (S.D.N.Y. 2004) (“Before agents of the
government may invade the sanctity of the home,
the burden is on the government to demonstrate exigent circumstances that overcome the presumption
of unreasonableness that attaches to all warrantless
home entries.” (citation omitted)); Palmieri v Kammerer, 690 F Supp. 2d 34, 44-45 (D Conn 2010) (“The
police officer, however, bear[s] a heavy burden when
attempting to demonstrate an urgent need.” (alteration in original) (citation omitted)).
iv.

Burden Shifting

Ruggiero recognizes that warrantless searches
create a presumption of unreasonableness that
“may cast upon the defendant the burden of
produc[tion].” Id. at 563. But it maintains “estab-

178
lished principles governing civil trials” require that
the burden of persuasion remains with the plaintiff.
Id.; cf. Texas Dept. of Community Affairs v. Burdine,
450 U.S. 248, 255–56 (1981) (finding that, in employment discrimination cases, while defendant carries the burden of production to rebut plaintiff’s
prima facie case of discrimination, plaintiff retains
the burden of persuasion); United States v.
$557,933.89, More or Less, in U.S. Funds, 287 F.3d
66, 76 n.5 (2d Cir. 2002) (noting how the Civil Asset
Forfeiture Reform Act of 2000 overhauled civil forfeiture procedure by placing the burden of proving,
by a preponderance of the evidence, the right to forfeiture on the government, who acts as the plaintiff).
The Second Circuit relies on the presumption definition, Federal Rule of Evidence 301, for the proposition that the burden of persuasion on exigency
does not shift to the police. Ruggiero, 928 F.2d at
563. This is what Rule 301 states (emphasis added):
In a civil case, unless a federal statute or
these rules provide otherwise, the party
against whom a presumption is directed
has the burden of producing evidence to
rebut the presumption. But this rule does
not shift the burden of persuasion, which
remains on the party who had it originally.
It is not necessary, however, to use “presumptions”
at all, rather than a plain unvarnished “burden of
proof” analysis.
The present rule placing pleading and proof burdens on plaintiffs in civil cases is not absolute. For
example, the Second Circuit has held in false arrest
cases that when an arrest is made without a war-

179
rant, the defendant bears the burden of proving
probable cause as an affirmative defense. See, e.g.,
Mitchell v. City of New York, 841 F.3d 72, 77 (2d
Cir. 2016); Raysor v. Port Auth. of New York & New
Jersey, 768 F.2d 34, 40 (2d Cir. 1985) (“[A] deprivation of liberty without ‘reasonable cause’ is a section
1983 violation as to which the defendant bears the
burden of proving reasonableness . . . .” (citations
omitted)); Dickerson v. Napolitano, 604 F.3d 732,
751 (2d Cir. 2010). The Second Circuit has also held
that, in customs forfeiture actions under 19 U.S.C.A.
§ 1595a, once the government demonstrates probable cause that the merchandise was used in illegal
activities, the burden of persuasion then shifts to the
claimant to show, by a preponderance of the evidence, that the merchandise is not subject to forfeiture. See United States v. Davis, 648 F.3d 84, 96
(2d Cir. 2011); 19 U.S.C. § 1615.
v.

Burden of Proof Problem

The Court of Appeals—like most courts—relies
upon the often-confusing concept of presumptions in
its analysis. See Ruggiero v. Krzeminski, 928 F.2d
at 563. Instead, it should, it is respectfully suggested, rely on a clean and clear burden of proof analysis
eliminating any reference to presumptions.
The issue before the court can best be summed
up as a simple burden of proof problem. The burden
is on the police to supply a warrant or some other
rationale for entry into a person’s home, such as “exigent circumstances” or “consent” or “hot pursuit.”
See Weinstein’s Federal Evidence § 301App.01[4] at
301 App.–11 (2d ed. 2009) (“The considerations that
determine which party shall bear responsibility for a
particular aspect of the case are policy, fairness, and

180
probability. . . . As a matter of policy, imposing the
burden on plaintiff serves to handicap recovery in
[certain] cases. Fairness suggests access to evidence,
ease of proof, and perhaps general considerations of
credibility.”). This is not a problem of presumptions—a foggy term that should be avoided for it
can be confusing to judges and juries. See Fed. R.
Evid. 301 advisory committee’s note to 1974 Enactment (explaining courts’ duties when instructing
parties on presumptions). The federal rule on presumptions—stating that presumptions should not
shift burdens—was ultimately written after much
dispute. See Daniel J. Capra, Advisory Committee
Notes to the Federal Rules of Evidence That May Require Clarification 4 (Federal Judicial Center, 1998)
(“[Rule 301] is the culmination of a battle between
two conflicting views on the effect a presumption
should have. . . . The practical difference is in the
quality and quantity of evidence required to overcome the presumption.”).
By using the term “presumption” rather than
“burden of proof”—which a jury can easily understand since a burden of proof definition is specifically, and clearly, written in the charge—the Court of
Appeals has weakened the legal protections of the
Fourth Amendment. It has confused this issue, ignoring the fundamental importance of a person’s
constitutionally protected right to be free from unreasonable searches and seizures inside his or her
home.
Rigid, mechanical approaches should not be
adopted when assigning burdens in unlawful entry
cases. In support of an argument for protecting high
standards to prove exigent circumstances, one au-

181
thor cites to Justice Bradley in Boyd v. United
States, 116 U.S. 616, 635 (1886):
It may be that it is the obnoxious thing
in its mildest and least repulsive form;
but illegitimate and unconstitutional
practices get their first footing in that
way, namely, by silent approaches and
slight deviations from legal modes of
procedure. This can only be obviated by
adhering to the rule that constitutional
provisions for the security of person and
property should be liberally construed.
A close and literal construction deprives
them of half their efficacy, and leads to
gradual depreciation of the right, as if it
consisted more in sound than in substance. It is the duty of courts to be
watchful for the constitutional rights of
the citizen, and against any stealthy
encroachments thereon.
Adrienne Lewis, Comment, The Fourth Amendment–
The Burden of Proof for Exigent Circumstances in a
Warrantless Search Civil Action, 65 SMU L. Rev.
221, 226–27 (2012). “The literal construction of
burdens of proof in civil cases,” she concludes, “is
exactly the type of silent approach that leads to the
‘gradual depreciation of the right’ that Justice Bradley speaks of.” Id. at 227.
“Allocating burdens of persuasion involves distinct substantive policies favoring one class of litigant over another.” Jack B. Weinstein, Norman
Abrams, Scott Brewer & Daniel S. Medwed, Evidence Cases and Materials 1351 (10th ed. 2017).
The Second Circuit Court of Appeals has chosen to

182
shift the odds towards the defendants, in effect, diminishing a plaintiff’s ability to enforce his or her
constitutionally protected rights as a householder.
This appellate decision subverts the express will of
the United States Constitution, which explicitly favors the rights of the house-dweller over that of police officers. The burden should be on governmental
officials seeking to enter a home without a warrant.
See, e.g., Payton v. New York, 445 U.S. 573, 587
(1979) (“[A] greater burden is placed . . . on officials
who enter a home or dwelling without consent.
Freedom from intrusion into the home or dwelling is
the archetype of the privacy protection secured by
the Fourth Amendment.” (citation omitted)).
B.

Termination in Favor of the Accused

As part of a § 1983 malicious prosecution claim, a
plaintiff must prove his state criminal proceeding
was terminated in his favor. See Murphy v. Lynn,
118 F.3d 938, 947 (2d Cir. 1997). “In general, the
question of whether a termination was favorable to
the accused is a matter of law for the court, but
where questions remain as to the reason for the
termination, this becomes an issue of fact for the
jury.” Rodriguez v. City of New York, 291 F. Supp.
3d 396, 413–14 (S.D.N.Y. 2018). “A dismissal out of
mercy is not a favorable termination because mercy
presupposes the guilt of the accused.” Arum v. Miller, 273 F. Supp. 2d 229, 234-35 (E.D.N.Y. 2003) (citation omitted).
“[A] plaintiff asserting a malicious prosecution
claim under § 1983 must . . . show that the underlying criminal proceeding ended in a manner that affirmatively indicates his innocence.” Lanning v.
City of Glens Falls, 908 F.3d 19, 22 (2d Cir. 2018);

183
see also Thompson v. City of New York, No.
17CV3064(DLC), 2019 WL 162662, at *3 (S.D.N.Y.
Jan. 10, 2019) (holding that plaintiff cannot show
his criminal case was favorably terminated because
his dismissal on speedy trial grounds does not affirmatively indicate his innocence). “[W]here a dismissal in the interest of justice leaves the question
of guilt or innocence unanswered. . . . it cannot provide the favorable termination required as the basis
for [that] claim.” Lanning, 908 F.3d at 28–29 (citation omitted); see also Hygh v. Jacobs, 961 F.2d 359,
368 (2d Cir. 1992) (“A dismissal in the interest of
justice is neither an acquittal of the charges nor a
determination of the merits,” thus leaving open the
question of innocence or guilt. (citation omitted)).
IV.

Application of Law
A. Exigency Burden

The Second Circuit’s reasoning in Ruggiero is arguably broad enough to place the burden of proving
all exceptions to the warrant requirement, including
exigency, on the plaintiff. But subsequent cases
seem to go in the other direction, placing the burden
of proving exigent circumstances in § 1983 actions
on the government. And its apparent suggestion
that the burden of persuasion never shifts to the defendant in civil trials is belied by other Second Circuit precedent.
Although the law in this circuit remains unclear,
it appears that the current rule is that the plaintiff
bears the burden of proof for exigent circumstances.
This seems wrong as policy: the burden of proving
an urgent need so compelling that it justifies a warrantless entry should generally rest with the government. Unlike consent, the facts that establish

184
exigent circumstances are uniquely within the
knowledge of the police officers. Whether there was
a need to render emergency aid so compelling requiring immediate action is wholly dependent upon
the facts often known only to the police officer at the
time of the warrantless entry. The evidence available at the time to the householder is irrelevant. As
is rightfully understood in the criminal context, police officers should bear a heavy burden when overcoming a person’s fundamental right to be secure in
the home from unreasonable searches and seizures.
There is no sound basis in law for this principle not
to extend to civil matters.
This is a simple problem of allocating the burden
of proof. Since the Fourth Amendment has already
chosen to favor a person’s right inside his own dwelling over that of the police officer’s right of entry,
courts should do the same by placing the burden on
police officers to prove that exigency justified their
warrantless entry. See Lewis, supra, at 227 (“The
[court’s] holding is inconsistent with the Supreme
Court’s motivation to limit the situations where exigent circumstances make warrantless searches reasonable because it could lead to a situation where a
plaintiff alleging violation of his civil rights is left
without the ability to . . . defend those civil rights.
The spirit of the Fourth Amendment is to give protective rights to citizens.”); cf. See Capra, supra, at 4
(“The Advisory Committee reasoned that presumptions are based on a combination of probability and
fairness. If that combination of factors is strong
enough to warrant a presumption, it should also be
strong enough to shift the risk of nonpersuasion to
the party against whom the presumption operates.”)

185
B.

Favorable Termination

Plaintiff failed to satisfy the favorable termination element of his § 1983 malicious prosecution
claim as a matter of current Second Circuit law.
Based on the facts and law of this unusual case,
where there was substantial evidence that the officers’ warrantless entry was lawful and the plaintiff
pushed, or at minimum physically interfered with, a
governmental official, plaintiff cannot establish that
his obstruction charge was dismissed in a manner
affirmatively indicative of his innocence. See Lanning v. City of Glens Falls, 908 F.3d at 25 (2d Cir.
2018) (“[F]ederal law defines the elements of a §
1983 malicious prosecution claim . . . [and] requir[es]
affirmative indications of innocence to establish ‘favorable termination’ . . . .”).
The federal court’s ruling against defendant
should not be based on the District Attorney moving
to dismiss the criminal charges “in the interest of
justice” at the April 9, 2014 hearing. Such a broad
ruling risks eviscerating malicious prosecution
claims altogether. It would give prosecutors almost
unlimited power to bar such claims, regardless of
the strength or weakness of the underlying accusations. They could insulate police officers and district
attorneys simply by repeating the phrase “in the
interest of justice” in all cases they sought to discontinue for any reason. More must be required to
qualify as an interest of justice dismissal that could,
in effect, foreclose future claims for malicious prosecution. See Burke v. Town of E. Hampton, No. 99CV-5798, 2001 WL 624821, at *12 (E.D.N.Y. Mar.
16, 2001) (“In this Circuit, it is well established, as a
matter of law, that ‘[a dismissal in the interests of
justice] cannot provide the favorable termination

186
required as the basis for a claim of malicious prosecution.’” (alteration in original) (citation omitted)).
In the present case, evidence was presented suggesting plaintiff’s innocence. His case was sealed
pursuant to CPL § 160.50, a provision for criminal
prosecutions terminated in favor of the accused. He
testified that he was offered an Adjournment in
Contemplation of Dismissal at his second court date
and told that if he accepted this offer, and stayed out
of trouble, it would all “go away.” Trial Tr. 644:5–
16, Jan. 25, 2019; but see Stampf v. Long Island
R.R. Auth., No. 07-CV-3349 SMG, 2011 WL
3235704, at *3 (E.D.N.Y. July 28, 2011) (“[A]n adjournment in contemplation of dismissal is defined
as a favorable termination pursuant to Section
160.50(3)(b), yet well-settled case law establishes
that it is not a favorable termination for purposes of
a malicious prosecution claim.” (citation omitted))
aff’d in part, vacated in part sub nom. Stampf v.
Long Island R. Co., 761 F.3d 192 (2d Cir. 2014).
When his case was dismissed on motion of the
Brooklyn District Attorney at the April 9, 2014
hearing, the prosecutor merely stated that the dismissal was “in the interest of justice.” Def. Ex. B.
There was no formal entry of an “interest of justice”
dismissal pursuant to CPL § 170.40 (the State statute governing interest of justice dismissals). The
court did not give its reasons on the record for a
dismissal in the interest of justice, as required under
State law. See New York Crim. Proc. L. § 170.40.
There is little, if any, evidence that sympathy for the
accused was a factor in the dismissal.
Plaintiff’s defense attorney, Renate Lunn, testified credibly about her recollections of plaintiff’s

187
case. She said she never filed a motion for dismissal
in the interest of justice. Trial Tr. 207:23–25, Jan.
24, 2019. She recalled making an oral motion to
dismiss without prejudice for facial insufficiency,
which was denied by the judge. Id. at 210:6–22; see
Russell v. Journal News, 672 F. App’x 76, 78-79 (2d
Cir. 2016) (finding that a dismissal without prejudice based on facial insufficiency does not constitute
a favorable termination because it is not a decision
on the merits).
Defense counsel Lunn did not remember why the
District Attorney moved to dismiss the case. She
testified that, based on her experience, it would have
been unlawful to prosecute Thompson for “not allowing the police into [his] home.” Trial Tr. 223:16–
25, Jan. 24, 2019. She recalled speaking to an assistant district attorney prior to the April 9, 2014 hearing and being told that the charges would be dismissed. Id. at 225:15–21. She observed that her
notes did not contain any mention of mitigating circumstances, which she typically would have written
down if she were seeking to persuade a prosecutor
to dismiss a case out of mercy. Id. at 222:5–16. This
indicates to her that the conversation with the assistant district attorney only concerned the legal
shortcomings of the criminal case against Thompson. Id. at 222:17–21.
Left open is the question of how much evidence
must be supplied by a plaintiff to show that the
dismissal was essentially for innocence. Courts addressing this question should not forget that, in our
criminal justice system, the accused are deemed innocent until proven guilty beyond a reasonable
doubt. See Coffin v. United States, 156 U.S. 432, 453
(1895) (“The principle that there is a presumption of

188
innocence in favor of the accused is the undoubted
law, axiomatic and elementary, and its enforcement
lies at the foundation of the administration of our
criminal law.”). The assumption of innocence remains with a defendant throughout a case and is
not overcome until either a plea is taken or a guilty
verdict is returned. Thus, any ambiguity on whether the dismissal was on the merits should be decided
in defendant’s favor.
Conclusion

V.

A. Exigent Circumstances Burden
The general rule in civil cases-predicated on
sound constitutional policy-should place the burden
on police officers to prove, by a preponderance of the
evidence, exigent circumstances justifying a warrant
less entry. Placing the burden of persuasion on the
civilian plaintiff is a repeated injustice that should
stop now.
B.

Malicious Prosecution

Plaintiff’s malicious prosecution claim should be
treated as if it was on the merits—i.e., the defendant was not guilty. An ambiguous state dismissal
should be accepted as being based on non-guilt, in
part because of the assumption of innocence before
conviction.
SO ORDERED
/s/ Jack B. Weinstein
Jack B. Weinstein
Senior United States District Judge
Date: March 12, 2019
Brooklyn, New York

